<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2009 

                              ----------                              


                         TUESDAY, APRIL 1, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Domenici, Bennett, Craig, 
Allard, and Alexander.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENTS OF HON. MARK E. REY, UNDER SECRETARY FOR 
            NATURAL RESOURCES AND ENVIRONMENT, 
            DEPARTMENT OF AGRICULTURE
ACCOMPANIED BY:
        ABIGAIL KIMBELL, CHIEF, FOREST SERVICE
        LENISE LAGO, BUDGET DIRECTOR, FOREST SERVICE

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. The subcommittee's oversight hearing on 
the administration's fiscal year 2009 budget request for the 
Forest Service will come to order.
    I would like to welcome Mark Rey, the Under Secretary of 
Natural Resources and Environment at the USDA, and Forest 
Service Chief Gail Kimbell. They are accompanied by Lenise 
Lago, the Budget Director for the Forest Service. Thank you, 
three of you, for joining us, and we look forward to hearing 
your testimony.
    Because the Forest Service manages 20 percent of the land 
in my State, California, this agency and its budget are 
incredibly important to the State from an environmental 
protection, recreation, and public safety perspective. Keeping 
that in mind, I would like to note that overall the 
administration's request totals $4,109,000,000. Now, that's a 
cut of $379 million. Now, that's a full 8 percent from the 2008 
level. In reality, though, the cuts are much deeper.
    If you factor in the $77 million needed to fund fixed 
increases, and the $148 million needed to increase needed to 
cover the 10-year fire suppression average, and the Forest 
Service budget is $600 million less than what is needed just to 
do that, bottom line here is that under the administration's 
proposal, the way we look at it, the Forest Service is being 
cut nearly 15 percent.
    I might say for me, and what we look at as the future in my 
State, that's unacceptable.
    Specifically, firefighter readiness is cut 13 percent; 
hazardous fuels reduction work is cut 4 percent; Law 
Enforcement programs are cut 12 percent; capital improvement 
and maintenance programs are cut 14 percent; recreation 
programs are cut 8 percent; and research programs are cut 10 
percent.
    I don't know how anyone could really consider this a 
serious budget proposal, so rather than take time here to go 
through the budget line by line, let me say for the record that 
I hope to work with my distinguished ranking member, Senator 
Allard, and the other members of the committee, including 
Senator Domenici, who has had such a long-standing interest in 
this. The three of us all come from States that are critically 
affected by this budget.
    I hope we can undo these cuts, and I hope we can restore 
the Forest Service budget to a reasonable level.
    I'd like in my questions to talk about what progress the 
agency is making on Lake Tahoe restoration; what's happening 
with respect to firefighter retention, particularly in the 
southern California effort, and what can be done to overcome 
the challenge of implementing the Quincy Library Group pilot 
project. Those are three big issues in my State, and, as you 
know, a Governor's commission has just found that the three 
forests adjoining Lake Tahoe are in immediate threat of 
catastrophic fire. So we have big problems.
    I would like to turn to our distinguished ranking member, 
Senator Allard, for any opening remarks he might care to make.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Madam Chairman. I agree with 
many of your comments that you made. I would also like to just 
take this opportunity and welcome the Under Secretary for 
Natural Resources and Environment, Mark Rey, and the Chief of 
the Forest Service, Gail Kimbell, to the subcommittee today.
    I hate to get too sour about this budget but to tell you 
that I do feel that is a budget that has me very deeply 
concerned. The proposed fiscal year 2009 budget for the Forest 
Service is more troublesome to me than any other in the bill, 
and my record on fiscal restraint I think is pretty clear; 
however, I believe the proposed reductions in the Forest 
Service just simply are not justified.
    We're facing a forest health crisis in this country unlike 
anything I've ever seen in my lifetime; however, your budget 
proposes to reduce the forest health programs of the agency by 
nearly half. The issue, of course, health, is very personal to 
me and to my constituents. We have a pine beetle epidemic in 
Colorado that is beyond description. You simply have to see it 
with your own eyes to understand the magnitude of the 
devastation.
    Experts say that within 5 years all of Colorado's remaining 
lodgepole pine forests could be wiped out--that's 6 million 
acres--over the next 5 years. I simply can't support a budget 
that slashes support for programs that address these problems.
    Mark, I appreciate that you have agreed to testify at a 
field hearing in Colorado that this subcommittee will hold in 
May on the pine beetle epidemic, and I hope that we can come up 
with some better strategies for dealing with the forest health 
problem than those that are reflected in this budget.
    Other proposed cuts in the agency's budget are similarly 
without merit to me. For example, the Fire Preparedness is cut 
by $77 million. The real cut in terms of program delivery is 
actually $88 million because you have not provided for 
mandatory salary increases and other fixed costs that must be 
paid.
    With fire seasons becoming worse each year, I can't 
understand why we would reduce the funds that go to train and 
equip our firefighters. This will lower the agency's initial 
attack capability and lead to more catastrophic fires. It is 
essential that we have a robust initial attack capability to 
catch fires when they are small so that they don't escape 
containment and become the catastrophic fires that we see on 
the nightly news every summer. It is these large fires that end 
up consuming the lion's share of the fire budget. In my view, 
reducing the preparedness budget will ultimately increase 
costs.
    I also don't understand why your budget documents how you 
can cut fire preparedness by 13 percent, yet claim that through 
efficiencies you will maintain the same number of firefighters, 
hot shot crews, and engines in the field. I'm all for 
efficiency, but I've watched firefighting costs skyrocket over 
the last few years. So forgive me if I am a bit skeptical and 
you've suddenly found this level of efficiency in your 
operations.
    I could go on with the litany of all of the cuts in this 
budget that I find objectionable, but I won't take up the 
committee's time. To me, the crux of the problem with the 
Forest Service budget boils down to this: There is a 
fundamental difference in the way that the Office of Management 
and Budget treats the Forest Service compared to other land 
management agencies at the Department of the Interior.
    The Bureau of Land Management, the Fish and Wildlife 
Service, the National Park Service are not singled out 
consistently for dramatic cuts each year as the Forest Service 
continues to be. I believe this disparate treatment is 
explained by the fact that as the tenure average for the Forest 
Service firefighting program rises, this year by $148 million, 
OMB has taken the position that these costs must be borne on 
the back of the agency's other programs.
    Apparently, OMB believes that this will provide incentives 
for the agency to reduce its firefighting costs, and I, 
fundamentally, disagree with this approach. No one would 
disagree that the Forest Service fire program could also strive 
to maintain costs, but escalating costs shouldn't come at the 
expense of the agency's other programs.
    Indeed, many of these increasing costs can be traced to 
issues that are beyond the control of the agency: More 
development adjacent to Forest Service lands, persistent 
drought in the West, forest health programs like the pine 
beetle that have reduced entire forests to tinderboxes and the 
lack of active forest management caused by endless lawsuits.
    Perhaps even more troubling is that OMB slashing of other 
agency programs to fund firefighting has led to many well-
intentioned, but in my view misguided, proposals in Congress to 
move parts of the fire program off budget. As an appropriator 
and as a fiscal conservative, I find these proposals 
unacceptable. Moving parts of the fire program off budget is 
tantamount to giving the agency a blank check which will lead 
to abuses and take away any incentive to control costs. There 
is no reason that the fire program can't be provided with the 
funds it needs each year on budget, and the other Forest 
Service programs be provided with the funds that are necessary 
to run effectively.
    Forgive the pun, but I believe it is critical that we, as 
the Appropriations Committee, hold the agency's feet to the 
fire each year to justify their requests for firefighting and 
be ever vigilant about containing costs.
    I noticed with some interest last week an article in The 
Washington Post, about a GAO study which is analyzing whether 
the Forest Service should be moved from the Department of 
Agriculture to the Department of the Interior. While I have not 
had the opportunity to fully consider the implications of such 
a reorganization, when I look at the unequal treatment of the 
Forest Service compared to the Department of the Interior, then 
when it comes to the budget, it makes me wonder whether such a 
move might be worth some serious thought.
    Thank you for joining us. I look forward to listening to 
your testimony and asking you some questions later in the 
hearing. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much for that, Senator 
Allard.
    The committee will follow the early-bird rule, and we will 
go to 7-minute rounds of questions when the time comes. The 
next person up is the distinguished Senator from New Mexico.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much, Madam Chairman. This 
can be my opening statement, not questions, right?
    Senator Feinstein. It's your opening statement, if you 
wish.
    Senator Domenici. Thank you.
    I have two issues that I want to bring up. There are many 
others, and I thought that these two were very important:
    First of all, we all know that the cost of wildland 
firefighting is consuming too much of our Forest Service's 
discretionary budget, and it's likely to get worse. We know 
that dealing with environmental documentation, appeals and 
litigation is stopping hazardous fuels cleanup in many areas, 
work which could reduce the intensity of fires and reduce the 
cost of fighting these fires. I believe these problems have to 
be dealt with. Failing to do so will only hasten the day when 
our national forests become a wasteland, and no one will be 
proud of them.
    We have also failed, and we have also allowed the job of 
our Federal firefighters to expand into areas where they never 
were meant to deal with. I guess when I said one, I have three. 
I just gave you one, that we have to address the issues of 
documentation and appeals. You all know what that's doing; 
that's adding 1 full year minimum, sometimes 2 or 3, to any 
activity going into an area that has been burned to see what 
you can do to clean up and revitalize the forest.
    We ought to be bold and just change that, and just a few 
words would fix it where they couldn't use this process. This 
process is being abused.
    My second position has to do with something that has 
happened to us where, over time, we are letting our Federal 
firefighters move into areas that they were never meant to deal 
with. We send a significant number of personnel on emergencies 
like cleaning up after major disasters, and now it seems that 
we may be turning our firefighters into first responders for 
traffic accidents.
    That may be going on, Madam Chair, in the State of 
California. All of these efforts are laudable, but all of them 
cost money, and I would urge that this committee review this 
mission creep and refuse to let it continue by refocusing the 
job of wildland firefighting back into the primary mission. I 
don't know how much that would be, but it would be some, and, 
certainly, what I have just described is right and fair.
    In our efforts to ensure the highest standards of safety, 
we impose reporting and training requirements. My third point 
has to do with training requirements. Our actions have 
unintended consequences. We imposed additional training 
requirements, and the agency has been attempting to provide 
that training.
    But the Office of Personnel Management, Madam Chairperson, 
is not questioning whether the additional training is 
acceptable and wants it to be provided as part of an accredited 
college curriculum. Confusion between OPM and the Forest 
Service human resources specialists is causing people who have 
invested time and money to give up applying for positions in 
fire because no one knows which courses are acceptable to the 
OPM.
    The result is that we are on the cusp of having several 
hundred highly trained and experienced wildland firefighters 
quit because they feel that the rules have been changed 
unfairly. Thus, we may be filling key positions with recent 
college graduates who have little or no real wildland fire 
experience, but who have the sheepskin being demanded by the 
OPM. I hope this committee will step forward and keep this from 
happening.
    Madam Chairman, I would have liked to have spoken about 
some of the funding requests in this budget that concern New 
Mexicans and myself, but they pale in comparison with the need 
for the committee and Forest Service to deal with wildland 
fires and wildland firefighters.
    Thank you for the opportunity, and, hopefully, we can work 
together on this problem.
    Senator Feinstein. Thank you very much, Senator Domenici.
    The order is Senators Alexander, Craig, and Bennett, and no 
one need feel compelled to make an opening statement if you 
don't choose to do so.
    Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thank you, Madam Chairman. I will try to 
make a succinct opening statement.
    Number one, Mr. Rey, I want to thank you for making, as a 
priority, an additional $4 million in Federal funding for the 
acquisition of Rocky Fork in Eastern Tennessee.
    That's a very important project. There's broad support for 
that, and the Federal Government's role in that is a big help, 
and there may need to be some discussion in order to make it 
all work; to discuss something I usually don't support, but 
which would be to do some land swap of less desirable Forest 
Service land in order to get the 10,000 acres of Rocky Fork. 
I'm not ready to propose that at the moment, but we would only 
do that in conjunction with the conservation fund and other 
environmental groups that are involved in this and make sure 
that it was a big net plus in terms of conservation environment 
and Forest Service protected property.
    So I just wanted to make you aware of that, and thank you 
for making that a priority.
    Second, I'm interested in your comments today on what's 
already been discussed about fire protection, and the other 
functions in the Forest Service. We don't want to just make the 
Forest Service into a fire service, as important as the fire 
service projects are.
    Senator Allard has spoken eloquently about how he thinks 
that should be done. I would like to hear from you, perhaps, 
during your testimony about whether we ought to separate a fire 
suppression service into a separate account, or separate 
budget, or separate agency even, so that we don't continue to 
run the risk of damaging the traditional functions of the 
Forest Service by taking money away for fighting fires.
    The Forest Service superintendents in Tennessee say the 
increase in fire suppression funding at the expense of Forest 
Service operations and programs is one of the biggest problems 
they face. So, if you could in your testimony talk about some 
of the pros and cons of separating the functions or 
consolidating them, I'd be very interested in that. Thank you 
for being here.
    Senator Feinstein. Senator Craig, I think you're the next 
up.

                    STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Madam Chairman, it isn't by accident that 
Western Senators and even a Southern Senator is focused on 
fire, and fire suppression with the Forest Service and our 
chief today. It is without question a front issue to all of us 
in public land States and large forest States who have gone 
through the last decade of a fire scenario that ramps up on an 
annual basis, Chief, and a real concern, not only about the 
actual fires themselves.
    But, as I have lamented in working with Mark Rey over the 
years, and as Senator Alexander just lamented, the old style of 
funding fires doesn't work anymore because you don't have cash 
flow. That went out the door with the green sales a decade ago, 
and you are now an agency that, in my opinion--and I say it 
rather publicly--is bankrupt: bankrupt on the standards and the 
payments and the cash flows of a century of green sales, and a 
timber program that largely doesn't exist today in a comparable 
way to two decades ago, which then means that if you're still 
borrowing from accounts that do all these other things, and we 
are not replacing the money, those accounts go wanting. The 
true needs of the management on the ground of our Forest 
Service goes wanting, and in my opinion, that's happening.
    Last week, I met with the supervisor of the Sawtooth for a 
variety of reasons. It was kind of a typical exchange between a 
policymaker and an agency head as to how we manage and what we 
do. We talked about bighorn sheep and how you manage those with 
domestic lifestock grazing. Forest Service letters actually 
said a decade ago: We want to put sheep in where they once 
existed, but they in no way will conflict with domestic 
grazing.
    Now that the sheep are there, we're kicking the domestic 
grazers off the land through court action and indecision on the 
part of the Forest Service. It just so happens on the Sawtooth, 
they probably got it under control, because they haven't been 
sued yet, and they're trying in a proactive way to avoid these 
interrelationships between domestic livestock and wildlife, and 
I hope it works.
    But I can't imagine that when you have a tradition of 
public grazing, and you write a letter and you make it policy 
that we will in no way displace the domestic sheep, but we want 
to try this experimentally. Then the experiment works. In come 
the lawsuits and out go the domestic sheep, and down goes a 
couple of ranchers, and down goes the economy in local 
communities because of a public policy not effectively managed 
by the Forest Service.
    We also talked about something that is very typical of 
wildland firefighting that Senator Domenici talked about, that 
Lamar has talked about. As you know, in the Castle Rock fire 
last year out in Idaho, we had an unprecedented situation. 
Large wildfire started on our public land, started on the 
Forest Service land, and ultimately threatened the Sun Valley, 
Ketchum area, the grand old ski resort known as Sun Valley 
worldwide. We fought and you fought, and you had your best 
people in there to save that community, and so did we.
    Now, the fire started on your land. The fire then moved to 
threaten private property, and we are now negotiating a $5 
million fire bill with the city of Ketchum. You know, it's 
awfully hard for me to understand when we don't manage the 
public land and the public land threatens private property, 
then we bill the private landowner.
    Now, there's going to be a lot of negotiation going on 
between State and community and the Forest Service, and I'm 
going to hold my tongue for a time. But it is typical of the 
situation we now find ourselves in, and that is that you, the 
Forest Service, are spending more time protecting private 
property than you are saving natural resource watershed 
wildlife habitat in this wildfire scenario.
    Of the 10 million acres last year that burned, 2 of them 
were in Idaho, and our skies were full of smoke all summer, and 
our air quality was dramatically lessened. The beautiful, clear 
blue skies of our State were gray and smoky all summer. You 
were violating clean airspace and clean air everywhere you 
went, and I'm always appalled that we slap the private sector 
when they damage air quality, but we say the public sector, 
when it damages air quality, is simply a natural event. That 
gets my ire up a little bit when we just oh-ho-hum, as a public 
attitude--you don't, and I'm not suggesting you do.
    Madam Chairman, I have questioned the Forest Service before 
the Energy and Natural Resources Committee, and the last time 
we visited was a month ago. As of December 1, 2007, we've had 
28 mill closures across the United States. Since we visited, 
I've lost another mill, 60 employees down, won't come back. 
They're going to tear it down.
    They had planned to take it down in a couple of years, but 
the timber issue is so bad that I don't know that you've let a 
sale, or there's been a successful sale of timber in Idaho off 
the public lands yet in 2008, and this mill is now down not to 
come back. They say it won't come back to the market for at 
least 2 years, more than likely, based on inventory both of 
logs in yard and dimensional in yard.
    My point is, we struggle to fund our country schools and 
the Craig-Wyden bill hasn't been fully funded. We have hundreds 
of school districts across the United States whose budgets are 
being cut anywhere from a quarter to a third with no way of 
raising new dollars. Now we have a flat timber market; even the 
best expectations that we all might have for some slight 
increases may well go out the window. It's very hard to come to 
a Congress today that's so dramatically in deficit and try to 
find the kind of money we need for these thousands of schools 
districts.
    Well, Madam Chair, tough issues with an agency that I know 
that the parties in front of us, both the Chief and the Deputy 
Secretary worked awfully hard at making work, but I think I 
agree with Senator Alexander. I know that Mark Rey and I have 
had those conversations.
    We've got to think out of the box about new methods of 
funding fire and doing a lot of other things, because, in my 
opinion, you're broke. You no longer have a cash flow. You have 
to come begging before the general fund, a grand old agency 
that used to fund itself and have surplus money that it put 
into the general fund is today in a very different environment 
than it was simply a decade ago.
    Thank you.
    Senator Feinstein. Thank you very much, Senator Craig.
    I don't see Senator Bennett, but if he comes back we'll 
allow him some time, and I'd like to begin with Mr. Rey now for 
his testimony, and then the Forest Service.
    How long do you believe you need, Mr. Rey?
    Mr. Rey. Oh, I think that----
    Senator Feinstein. I beg your pardon?
    Mr. Rey [continuing]. I can be done in the usual 5 minutes.
    Senator Feinstein. That would be excellent if we could do 
that. I think for this hearing the questions, really, are the 
most beneficial, so thank you very much.
    Mr. Rey. Sure, and I will summarize for the record----
    Senator Feinstein. If we could begin the clocks, please. 
Thank you.

                 SUMMARY STATEMENT OF HON. MARK E. REY

    Mr. Rey. What I'll touch on in my testimony is three 
issues: First the Wildland fire programs and management 
reforms; second, the proposal for reauthorization of the Secure 
Rural Schools legislation; and, third, the State and Private 
Forestry programs.
    The 2009 budget proposes a total of $1.97 billion for 
Wildland Fire Management programs, including $994 million for 
suppression, $588 million for preparedness, and $297 million 
for hazardous fuels.
    Senator Feinstein. Could you speak up, please? I think your 
mike's on, it's just hard to hear you.
    Mr. Rey. I'm not sure that the mike is live, actually. Is 
it?
    Senator Feinstein. It's working.
    Mr. Rey. Okay.
    Senator Feinstein. We need you to----
    Mr. Rey. I'll try to get in to it closer.
    Senator Feinstein. Maybe because it's a bad budget, you 
don't want to speak too loudly.
    Mr. Rey. I'm speaking softly.
    Additionally, the Forest Service is adopting significant 
management reforms to ensure equitable fire suppression cost-
sharing between Federal and other firefighting entities. We are 
fully implementing the Risk Informed Appropriate Management 
Response and an acting cost-containment accountability 
throughout the Wildland Fire program.
    Despite having more fires in 2007 than we did in 2006 and a 
49 percent increase in acres burned, the cost of suppressing 
fires was $127 million lower in 2007 due to aggressive 
implementation of appropriate management response and other 
cost-containment measures.
    In southern California, you may recall that when we 
testified on December 13, we compared our experiences in the 
2007 southern California fire season with our experiences in 
the 2003 season, noting that in almost every available index 
our performance was superior in 2007 even given more dire 
circumstances.
    We have recently completed a draft of the annual report for 
the Fire and Aviation Management program, and I will submit 
that for the record.
    [The information follows:]

  Draft Fire and Aviation Management Year Review--Fiscal Year 2007 \1\
---------------------------------------------------------------------------

    \1\ The U. S. Department of Agriculture (USDA) prohibits 
discrimination in all its programs and activities on the basis of race, 
color, national origin, age, disability, and where applicable, sex, 
marital status, familial status, parental status, religion, sexual 
orientation, genetic information, political beliefs, reprisal, or 
because all or part of an individual's income is derived from any 
public assistance program. (Not all prohibited bases apply to all 
programs). Persons with disabilities who require alternative means for 
communication of program information (Braille, large print, audiotape, 
etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and 
TDD). To file a complaint of discrimination, write USDA, Direct, Office 
of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 
20250-9410, or call (800) 795-3272 (voice) or (202) 720-6382 (TDD), 
USDA is an equal opportunity provider and employer.
---------------------------------------------------------------------------

                    Letter From Director Tom Harbour

    The greatest accomplishment of fiscal year 2007 was being safe and 
successful. Human safety is, and always will be, our first priority as 
we strive to protect and manage the public lands entrusted to us. I am 
thankful every day that in 2007 we have not had to mourn the loss of 
any Forest Service firefighters on the fireline. We, in the Fire and 
Aviation Management program, have faced many challenges this year and 
made measurable accomplishments. We are strategically preparing for the 
years to come.
    Fire and Aviation Management is at a crossroads. Critical analysis 
of the program's function and purpose over the past 10 years has led to 
various documents, policies, management reviews and the integration of 
fire with ecosystem management. As the agency looks forward to the next 
decade, Fire and Aviation Management must significantly increase 
efficiency, manage organizational structure and lead the charge to 
improve land conditions.
    We are continually challenged by the growth of communities into 
previous wildland areas--80 percent of our population lives in urban 
environments; and as the Chief has pointed out, they need to understand 
the connection of natural resources to their homes and communities, as 
well as the effects of climate change, the importance of protecting 
water resources and of maintaining healthy forests. Fires are a natural 
part of forested landscapes; but each year, wildfires come earlier and 
last longer. Fires burn hotter and bigger; they have become more 
damaging and dangerous to people and property.
    As wildfires and their associated risks increase, controlling the 
cost of fighting wildland fire continues to be one of our greatest 
challenges. Gone are the days of ``throwing everything but the kitchen 
sink'' at each and every fire. We are making the transition from 
``overwhelming mass'' applied to every fire to using the doctrinal 
approach of speed, agility and focus. Make no mistake, I am not 
suggesting that overwhelming mass will cease to be an objective for 
some fires, but I am suggesting that a variety of wildland and 
prescribed fire will benefit from the application of a doctrine which 
considers speed, agility and focus.
    To accomplish this transition, we and our interagency partners have 
adopted management efficiencies, focused on wildfires, which were 
categorized into the areas of Leadership, Operations and Management. 
These management efficiencies were practiced with some great success 
during the 2007 fire season--realizing a savings of approximately $200 
million. This, coupled with the doctrinal approach to wildland 
firefighting, will allow us to create an organization guided by well-
stated doctrinal principles which represent the reality of the work, 
the environment and our mission.
    Finally, the basis for our accomplishment is anchored in people. 
Partnerships among Federal, State, tribal, and local firefighting 
agencies continue to expand and improve the efficiency and 
effectiveness of wildland fire management across agencies and 
boundaries. We need to incessantly build a strong, well-trained 
workforce who can teach others, think and react to the future in a 
professional, trustworthy manner, and always, with integrity.
    As public servants, we are accountable to those who trust we will 
do our jobs and do them prudently, professionally and effectively, in 
collaboration with our other Federal, State, tribal, and local 
partners. This publication is intended to be a reflection of the year 
past--a report card of sort, which will detail some of the challenges 
we've faced, as well as our accomplishments and successes. It will be 
centered on certain ``themes,''--the goals identified in our National 
Fire and Aviation Strategic Plan which ties back to the Forest Service 
Strategic Plan. Those goals include: technology and science; protection 
of life, property, natural and cultural resources; hazardous fuels and 
restoration; community assistance; effective communications; and 
promoting workforce capacity and diversity. We recognize our future is 
decided with people and that having strategic goals and a doctrinal 
approach to managing wildland fire is vital. We will continue to work 
toward those goals.
    The challenges are many; but with our talented, dedicated employees 
and the support of our partners, we will continue to progress. I look 
forward to working together to meet the challenges in the years ahead.
                                               Tom Harbour,
                                                          Director.

                  Part I.--2007 Fire Season Discussion

    Agency suppression expenditures have increased in recent years due 
to the effects of the wildland urban interface and climatic and 
ecological changes. As a result, protection of life, property and 
natural resources from wildland fire has become more complex, demanding 
and expensive.
    In fiscal year 2007, the Forest Service continued implementation of 
an aggressive hazardous fuel reduction program, accelerated the use of 
risk-informed management, initiated operational efficiencies and 
adopted rigorous management controls. More specifically, these actions 
included:
  --focus on hazardous fuels treatments in wildland urban interface 
        areas and in fire-adapted ecosystems that present the greatest 
        opportunity for restoration;
  --accelerated development and deployment of decision tools similar to 
        the Wildland Fire Decision Support System (WFDSS) to support 
        risk-informed incident management;
  --implemented operational efficiencies such as management of national 
        and critical resources for maximum flexibility and expanded the 
        use of Exclusive Use aviation contracts; and
  --the execution of management controls akin to the establishment of 
        the Inter-Deputy Group, the Chief Principle Representative, the 
        Line Officer certification process for incident management, and 
        the enhancement of fiscal monitoring and oversight.
    Fire and Aviation Management (FAM) has worked aggressively with 
other agency programs and cooperators to implement these strategies and 
manage suppression expenditures. These actions resulted in 
significantly lower suppression expenditures than would have occurred 
under previously implemented strategies.
Fire Suppression Expenditure Forecast
    Fire and Aviation Management utilizes a model developed by the 
Rocky Mountain Research Station to forecast fiscal year fire 
suppression expenditures. The model has been used since fiscal year 
1998 and relies on Predictive Services' forecasts, historical and 
current year-to-date expenditures to estimate future expenditures. A 
2005 analysis indicated this respective model does extremely well 
forecasting suppression expenditures. The fiscal year 2007 August 
forecast indicated a range of Forest Service expenditures from $1.4 to 
$1.75 billion with a median forecast of $1.57 million. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Forest Service expended $1.37 billion at the conclusion of 
fiscal year 2007--below the 1 percent probability forecast of $1.4 
billion and $200 million below the median forecast of $1.57 billion, 
achieving the agency's projected $200 million of savings in fiscal year 
2007. The savings were realized as a direct result of the agency's 
aggressive implementation of risk-informed management, operational 
efficiencies and management controls.
Fiscal Year 2007 Wildland Fire Management Appropriation Highlights
    In February 2007, the President signed the Revised Continuing 
Appropriations Resolution, 2007 (Public Law 110-5), which included 
funding for the Forest Service through September 30, 2007. The full-
year Continuing Resolution sustained all requirements, authorities, 
conditions, limitations and other provisions of the fiscal year 2006 
Appropriations Act with the exception of emergency funding. The act 
also stripped all earmarks from bill and report language.
    The full-year Continuing Resolution included specific amounts for 
Wildland Fire plus an additional amount for pay-costs--the total 
Wildland Fire appropriation was approximately $1.82 billion. In May 
2007, an Emergency Supplemental (Public Law 110-28) authorized $370 
million for Fire Suppression bringing the total available Wildland Fire 
funds to $2.29 billion. There were several other notable changes from 
fiscal year 2006:
  --Total funds for Preparedness increased by $5 million. Regional 
        allocations were increased $29 million to ensure readiness 
        capability was commensurate with congressional intent.
  --Funds for Hazardous Fuels increased by $21 million. Regional 
        allocations increased $14 million. These numbers do not reflect 
        funds from other programs or appropriations. The agency also 
        initiated use of a newly developed risk based allocation 
        process.
  --Total funds for Suppression Operations increased by $51 million. 
        This increase was based on the inflation-adjusted 10-year 
        moving average of suppression expenditures. An Agency Severity 
        fund limitation of $35 million was established which included 
        regional limitations.
  --The remaining funds for all other Wildland Fire accounts remained 
        relatively constant.
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    Wildland Fire Management represented 42.1 percent of the Forest 
Service's Discretionary budget in fiscal year 2007--a significant 
portion and a 1.4 percent increase over fiscal year 2006. The agency 
expended $1.374 billion on fire suppression in fiscal year 2007, 
necessitating a $100 million transfer of funds from other program 
areas.
    Fire and Aviation Management aggressively pursued budget planning 
strategies to enhance efficiency and cost effectiveness through risk-
informed allocation of preparedness resources (Fire Program Analysis), 
alternative methods of funding suppression activities (Fire 
Partitioning), risk-informed prioritization of hazardous fuel 
treatments (Ecosystem Management Decision Support), and prioritization 
of funds to States (State and Private Forestry Re-Design).

                    Part II.--Major Accomplishments

                                overview
    Fiscal year 2007 started where 2006 left off with a volatile, 
active fire season in southern California that extended well into the 
winter months. Predictive Services forecasted significant wildland fire 
potential throughout the 2007 season. Critical conditions influencing 
the wildland fire outlook were:
  --drought conditions expanding and intensifying across large portions 
        of the West and Southeast;
  --low snow pack, warmer-than-normal forecasted temperatures and 
        earlier snow melt over most of the West--likely to dry out 
        timber fuels and cause an early onset of fire season in some 
        areas;
  --the abundance of new and carryover fine fuels expected to green up 
        and cure early, leading to an active, prolonged grassland fire 
        season; and
  --a hotter than normal summer was projected for the West.
    These projections were realized early in the season when by the end 
of June 2007, drought and high temperatures resulted in wildfires 
burning of over 1.1 million acres in the southern area and more than 
161,000 acres in the eastern area of the United States and Canada. 
Preparedness Level 5 was declared on July 19, 2007, with 61 active 
large fires occurring across 9 geographic zones.
    For the 2007 fire season, the Forest Service secured firefighting 
forces comparable to those available during the 2006 season and added 
two interagency National Incident Management Organization (NIMO) teams 
ready to respond to wildland fire incidents.
    Escalating fire suppression costs continued to be a concern, as the 
wildland fire seasons in recent years have generally lasted longer and 
acreage figures have grown. In fiscal year 2007, the Wildland Fire 
Management Appropriation represented 42.1 percent of the Agency's 
Discretionary budget--a 1.4 percent increase over 2006.
    Over the past several years, various studies and assessments 
dedicated to fire suppression costs have been conducted. As a result of 
these reviews, several hundred recommendations were made. Fire and 
Aviation Management has taken those recommendations seriously; and this 
year, aggressively pursued cost efficiency and management strategies to 
enhance the efficiency and cost effectiveness of fighting fire. 
Management efficiencies were adopted that included cost control 
measures focused on leadership, operations, and aviation and general 
management practices. The implementation of these management 
efficiencies proved effective during the 2007 season, and their 
components and successes are discussed in further detail throughout 
this report.
The Successes
    Throughout the season, incident managers adopted risk-informed 
strategies to manage wildfires within the context of the geographic and 
national situation. They implemented long-term plans with established 
primary protection objectives, strategies and tactics to achieve those 
objectives in an efficient, effective manner within the limits dictated 
by individual fires. The Forest Service realized great successes in the 
areas of aviation efficiencies and contracting, hazardous fuels 
treatments--exceeding 3 million acres treated this year across 
boundaries, partnership accomplishments, international cooperation and 
input into the National Response Plan. Those endeavors are detailed in 
the sections that follow. As always, collaboration is expected. Other 
Federal, tribal, State, and local partners continue to be an integral, 
vital part of the Forest Service success in meeting the expectations of 
Congress, as well as those of the American people.
                  management controls and efficiencies
    Management efficiencies are the cost control measures focused on 
leadership, operations, aviation and general management practices. 
These efficiencies were developed after numerous reviews and 
evaluations centered round fire suppression and large fire costs were 
conducted by independent, outside sources and other Federal regulatory 
agencies. More than 300 recommendations were generated from these 
reviews. These suggestions were integrated into the current management 
efficiencies--a number were implemented in 2007 with good success, 
others will be implemented over the long term. When fully implemented 
they will serve to ensure the following:
  --Clear, concise understanding of Appropriate Management Response 
        (AMR) or choosing the best suppression strategy for the 
        resources and values at risk (Policy Transition to Risk-
        Informed Management).
  --Expanded knowledge, skills and abilities for agency administrators 
        responsible for managing large or nationally significant fires 
        (Line Officer Certification).
  --Increased oversight from the Regional and Washington offices on 
        incidents of national significance (Chief Principle 
        Representative).
  --Increased support in support of the agency administrator in the 
        development and implementation of decisions (Fire Suppression 
        Decision Support).
  --Severity funds are used within limits (Severity Authorization 
        Limitations).
  --Monitor expenditures and provide oversight on total cost of each 
        incident.
  --Critical, high demand resources such as Type 1 firefighting crews, 
        helicopters and heavy air tankers are managed in a more 
        centralized fashion to achieve more flexibility (National 
        Shared Resources).
  --Revision of the current aviation strategy ensuring the safe, 
        financially prudent use of firefighting aircraft (Aviation 
        Resource Cost Management).
    This segment of the report will strive to describe each of the 
management efficiencies implemented in 2007 and some of the success 
experienced by each.
Stratified Cost Index--Performance Measure for Large Fire Suppression 
        Costs
    Due to growing fire suppression costs and the lack of a 
quantifiable performance measure for suppression expenditures, 
congressional appropriation language in 2005 directed the Forest 
Service, in collaboration with the Department of the Interior, to 
develop an interim performance measure for suppression expenditures and 
to begin reporting on this measure in fiscal year 2006.
    The interim performance measure called for by Congress was a 
stratified cost index (SCI), originally specified in the appropriation 
language as cost per acre/energy release component. After discussions 
between the Forest Service, Department of the Interior representatives 
and economists at the Rocky Mountain Research Station (RMRS), the 
decision was made that the SCI would assess a variety of factors 
influencing suppression expenditures, rather than focusing solely on 
energy release component.
    Built using data over the past 10 years of nearly 2,000 large--
greater than 300 acres, Forest Service wildfires, the SCI calculates 
the expected suppression cost of a large fire considering each specific 
fire's characteristics. The cost calculated by SCI is subsequently 
compared to actual suppression expenditures.
    SCI was incorporated into the Wildland Fire Decision Support System 
(WFDSS) process during the 2007 fire season. Problems were encountered 
when SCI considers complexes--or multiple fires, because part of what 
the model uses is the ignition point. When you have a complex of fires, 
rather than a single fire, SCI loses that part of the equation. FAM is 
reviewing how to deal with complexes from both the management and data 
standpoint. Additionally, the incorporation of SCI in WFDSS created 
some concerns considering that the spatial data used for SCI is limited 
in history.
The Success
    Although refinement of SCI is needed, its use this season assisted 
agency administrators and the Chief's Principle Representatives with 
evaluating current costs of fires as compared to past fires with 
similar fuel types and ignition sources. SCI allowed officials to 
better evaluate the tactics and strategies from an historical cost data 
viewpoint as compared to today's costs. From that data, officials were 
able to see if the proposed approach was comparable. If the costs were 
higher, SCI afforded them the ability to determine the reasons.
    The Rocky Mountain Research Station is in the process of evaluating 
the SCI model and will provide Forest Service leadership feedback after 
a sensitivity analysis of the model concerning the use of ignition 
point.
                      federal wildland fire policy
    Federal Wildland Fire policy has changed greatly since 1935 when 
the agency instituted the ``10 a.m. Policy,'' under which all new fires 
were to be controlled by midmorning on the day after they were 
reported. Existing policy gives Federal fire managers a high degree of 
flexibility in managing wildland fire. Current implementation direction 
requires that fire managers apply an Appropriate Management Response 
(AMR) to every wildland fire event, allowing a common sense approach to 
the management of a fire by applying fire management resources at 
places and times where they can be effective and efficient. Beginning 
with the initial response and continuing throughout the incident, all 
decisions consider firefighter and public health and safety, fire 
cause, current and predicted weather and fire behavior, fire effects, 
values to be protected from fire, management priorities, resource 
availability, cumulative effects of the fire, and cost effectiveness.
    In 2007, Forest Service regions applied flexibility afforded by 
Federal Wildland Fire Policy to develop and implement wildland fire 
responses commensurate with availability of firefighting resources, 
protection and resource objectives, coupled with the probability of 
success. Regional application of the appropriate management response 
concept freed up firefighting resources for initial attack and focused 
fire management efforts on critical portions of wildland fire 
incidents.
Wildland Fire Decision Support System (WFDSS) Tools
    Recently, new tools were developed to assist fire managers and 
agency administrators in making decisions regarding strategies and 
tactics on wildland fires. The use of these tools has the potential to 
improve the understanding of wildland fire decisions and the rationale 
behind them. This year, they were available for priority fires.
WSDSS--Fire Spread Probability Model (FSPro)
    WFDSS-FSPro is a spatial model that calculates and maps the 
probability of fire spread, in the absence of suppression, from a 
current fire perimeter or ignition point for a specified time period. 
Combining data layers that include the standard fuel models, current 
weather projections, historical weather scenarios, fuel moisture 
classification, and wind speed and direction, WFDSS-FSPro can project 
probabilities of fire spread in specified increments of 7, 10, 13, 30, 
and 90 days. It is not a fire perimeter like a FARSITE map. WFDSS-FSPro 
assists managers prioritize firefighting resources based on 
probabilities of fire spread. The model helps to assess a fire's growth 
potential. Managers can then match appropriate strategies, tactics and 
resource allocations. The program can also aid in communications with 
affected partners and the public.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


WFDSS--Rapid Assessment of Values at Risk (RAVAR)
    WFDSS-RAVAR is also a spatial model, showing the primary resource 
values to be protected and/or at risk by ongoing large fire events. The 
program can be directly integrated with the WFDSS-FSPro model, as 
demonstrated above, to identify the likelihood of different resources 
being threatened. The most important data layer generated by the WFDSS-
RAVAR model is the structure layer, using local parcel records but is 
not limited to the assessment of threatened structures. Any resource 
value that has been spatially mapped may be included within a WFDSS-
WFDSS-RAVAR assessment including power lines, road networks, gas 
pipelines, recreation facilities, sensitive wildlife habitat, cultural 
heritage sites and municipal water intakes. WFDSS-WFDSS-RAVAR assists 
fire managers in the prioritization of firefighting resources based on 
values to be protected segmented by the risk categories from WFDSS-
WFDSS-FSPro.
    The WFDSS tools can be used on any fire. Use of these tools is 
mandated on fires anticipated to reach expenditures of $10 million or 
more and recommended for fires anticipated to reach, $5 to $10 million.
National Multi-Agency Coordination Group (NMAC) National Shared 
        Resources
    Managing of national shared resources such as aircraft, equipment, 
Type 1 crews, incident management teams and overhead, Fire Use Teams, 
smokejumpers, military and international assets and other national 
contract resources are now all being treated as national agency assets 
and managed in a centralized fashion. They are moved to areas and 
incidents based on Predictive Services and planning levels. The goals 
are to enhance responsiveness of the assigned resources and eliminate 
concentration of resources in a geographic area. Specifically, the 
National Multi-Agency Coordination Group implemented:
  --Management of Type 1 Crews, heavy and medium helicopters was done 
        in a more dynamic manner. Geographic Areas provided the 
        National Interagency Coordination Center (NICC) with specific 
        action points or priority objectives along with resource 
        requirements. Resources were then allocated and/or reallocated 
        to meet these objectives. This allowed successful actions on 
        multiple fires, rather than the standard practice of an 
        automatic 14-day commitment once they are on an incident.
      This management philosophy provided greater flexibility in the 
        command and control strategy of moving resources to the 
        critical areas through the draw down of geographic area 
        resources. The strategy engages a certain level of risk, placed 
        on the providing geographic area; however, the risk is 
        mitigated with the ability to quickly redeploy if the situation 
        changes.
  --The National Incident Management Organization (NIMO) was assigned 
        to manage large complex incidents and implement long-term fire 
        planning and response, where in prior years, the agency would 
        have had long Type 1 and Type 2 incident management teams 
        rotating in and out every 2 weeks with the same anchor and 
        flank strategy. Where possible, strategies, other than full 
        suppression, were implemented and were successful in mitigating 
        risk to lives, property and communities. The use of the NIMO 
        teams provided opportunities to allow other Type I teams to be 
        available for the shorter duration but highly complex 
        incidents. In addition, part of the cost savings generated 
        above the mobilization and demobilization costs is due to the 
        reduced size of the NIMO teams who operated with less than a 
        full incident management team compliment of personnel.
      The NIMO team also provided an opportunity for the New York Fire 
        Department Incident Management Team to shadow and assist on a 
        complex Type 1 incident. This not only provided support to the 
        NIMO team but also allowed the agency to build capacity in 
        support of all-hazard incidents in the future.
  --Incident Management Teams in many cases were assigned to manage 
        more than one or multiple fires using a range of wildland fire 
        and response strategies.
      The utilization of Fire Use Teams (FUMT) also changed this year 
        to allow for more flexibility in meeting the demand for teams 
        but also saving funds by implementing appropriate management 
        response strategies, whereas a Fire Use Management Team--fully 
        qualified to handle any Type 2 incident, already assigned to an 
        incident would also take on the management of a new incident 
        rather than filling the request with another Type 2 IMT. This 
        occurred several times throughout the season, but was utilized 
        to the largest degree on the Payette and Salmon-Challis 
        National Forests in Idaho.
  --Another strategy utilized by NMAC this year was to allow an 
        existing incident management team to manage fire use incidents 
        if they were already managing a wildland fire or multiple fires 
        with the addition of a Long-Term Analyst (LTAN) to their 
        personnel. This provided for increased flexibility in the 
        incident management teams use of existing resources and 
        eliminated the requirement for demobilization of the incident 
        management team and the mobilization of a FUMT and related 
        resources.
      The final piece worth noting is that NMAC required the geographic 
        area submit a detailed rationale when a team request was 
        submitted. NMAC would review the request and rationale, respond 
        back with not only the available resources to fulfill the 
        request, but also they would also suggest other items and 
        strategies for managing the situation. This allowed for 
        controlling the number of resources to be assigned in cases 
        where management of incidents/complexes and strategies could be 
        refined.
    In applying all the strategies and utilizing appropriate management 
response and long-term planning the following cost comparisons display 
the estimated cost savings:

                                          FISCAL YEAR 2007 FIRE SEASON
----------------------------------------------------------------------------------------------------------------
                                        Duration      Total                                            Cost per
            Incident \1\                 (days)       acres         Team  assigned       Total cost      acre
----------------------------------------------------------------------------------------------------------------
Ahron Fire..........................           25       41,260  Type I Team...........   $6,500,000         $157
Rattlesnake.........................           23       29,652  Type II Team..........    6,200,000          209
Poe Cabin...........................           14       54,500  Fire Use Team.........    5,400,000          99
----------------------------------------------------------------------------------------------------------------
\1\ The comparisons above display how utilizing the appropriate decision models, current predictive services
  information, managing resources on a geographic area basis versus incident only basis can contribute to
  reducing the costs of large fires. The same principles and development of long-term plans and protection
  points were incorporated into managing the large complexes in Idaho and California, as well.

         appropriate management response (amr)--success stories
Prioritizing Scarce Fire Management Resources to Mitigate Risk and 
        Minimize Loss Northern Rockies Geographic Area 2007
    The Northern Rockies Geographic Area experienced a fire season 
setting records for high temperatures, low relative humidity and 
extreme fire danger. Despite the conditions favoring the rapid spread 
and development of high intensity wildfires, initial attack efforts 
achieved a 98 percent success rate. Fires escaping initial attack due 
to fire behavior conditions and resource availability would require 
significant commitment of fire management resources to obtain perimeter 
control or be managed as long-duration events until a season ending 
weather event occurred. In order to minimize costs and maintain initial 
attack effectiveness, a regional strategy for managing these fires was 
implemented to ensure the safety of all fire management personnel and 
the public while deploying firefighting resources when and where they 
would be most effective in mitigating economic and natural resource 
loss.
    In 2007, at a strategic level, the Northern Rockies Multi-Agency 
Coordination Group (MAC) and the represented agencies adopted a primary 
strategy of cost effectiveness where learning how to work smarter was 
emphasized over a cost efficiency strategy of simply working harder. 
Using this regional strategy, they aggressively implemented the 
flexibility afforded them by Federal Wildland Fire Policy. The region 
applied a wide-range of strategic and tactical options to manage 
wildland fires which met protection and fire use management objectives 
as described in their respective land management plans.
    When planned conditions were met in areas where wildland fire use 
was allowed, after a Wildland Fire Implementation Plan (WFIP) was 
completed, lightning fires were managed as wildland fire use events to 
achieve resource benefit. In areas not appropriate for wildland fire 
use, after the Wildland Fire Situation Analysis (WFSA) was completed, 
long-term implementation plans were developed for fires where assigning 
additional resources would have little chance for successful perimeter 
control. Decision support system tools were critical elements used in 
both the WFIP and WFSA development.
    A key component of the Northern Rockies strategy was the approach 
taken to prioritize and allocate fire management resources. The 
prioritization process allocated critical firefighting resources to key 
management action points--not to individual fires. The use of 
management action points for both wildland fire use events and long-
duration events allowed the precise application of resources to key 
sections of a fire where the consequences of management actions were 
greatest and did not allow commitment of resources to the ``siege'' 
fire events where effectiveness and outcomes were uncertain.
    Priorities were established through the use of a decision model 
which used defined criteria, evaluated the relative importance of the 
criteria and rated potential management actions accordingly. Key 
criteria used in the evaluation included values at risk, probability of 
success and duration of commitment of firefighting resources. The 
decision model process enabled open discussion of evaluation criteria 
by leadership and facilitated documentation of decisions regarding 
prioritization and allocation of resources.
    Long-term management strategies were developed for over 20 
incidents, and Wildland Fire Implementation Plans were created for more 
than 64 wildland fire use events. The geographic area monitored fire 
management costs and accomplishments for individual wildfires and fire 
use events. This type of monitoring allowed further evaluation and 
understanding of the effectiveness of these strategies and the 
utilization of resources, thereby providing a basis for future fire 
management operations.
                 chief's principle representative (cpr)
    An incident becomes one of national significance when it has the 
potential to reach a magnitude and intensity that will capture national 
attention and/or could become a significant drain on response 
personnel, resources and budget. Wildfires, projected to exceed $10 
million in total cost, are generally considered to be of national 
significance.
    In the infrequent situation where an incident reaches national 
significance or when requested by a Regional Forester, a Chief's 
Principle Representative (CPR) is assigned and available to assist 
agency administrators in reaching incident management decisions that 
will achieve safe, effective and efficient operations commensurate with 
local protection objectives and national priorities. The CPR assists 
the agency administrator to assure appropriate management and fiscal 
controls are in place and functioning.
Roles and Responsibilities of CPR
    The agency administrator continues to carry incident decision 
authority associated with their respective position; however, the CPR 
is responsible for:
  --providing assistance and advice to the Regional Forester relative 
        to national policies, budgetary objectives and incident 
        management priorities;
  --sharing risks associated with incident decisions; and
  --providing advice to the Regional Forester relative to line officer 
        certification and incident management performance.
    The CPR reviews decisions made and decision support information 
previously developed on the incident. They review scarce or critical 
resources deployed on the incident along with the availability of or 
need for those resources nationally. The CPR will provide a national 
perspective to the risk-informed decision process and priority 
deployment of resources for consideration in future agency 
administrator decisions on the incident. They assist in development of 
public information products to ensure that risk-inform decision logic 
and discussions of national priorities are incorporated. Throughout the 
incident, the CPR will document activities associated with the 
incident, provide fiscal oversight, assist the Regional Forester in 
developing a budget for the incident and ensure that effective, 
positive communications occur across all levels of the agency and 
organization.
Deployment
    A flexible approach to meeting the needs of each individual 
situation applies to the deployment of a CPR. In some cases, the CPR 
will be sent to the incident to work directly with the agency 
administrator and Regional Forester. In other cases, the CPR may work 
remotely through telecommunication means. The CPR may be accompanied by 
a small decision support group staffed to provide support not already 
available on the incident.
    Chief's Principle Representatives were deployed to eight incidents 
of national significance during fiscal year 2007.
         chief's principle representative (cpr)--success story
    During fiscal year 2007, eight Chief's Principle Representatives 
were deployed to incidents of national significance throughout the 
United States. Each was responsible for preparing a report at the 
conclusion of their assignment. Collectively, these reports were 
reviewed and the following reveals some common observances by the 
Chief's Principal Representatives:
  --The CPR concept is an excellent idea. Assigning a member of the 
        National Leadership to represent the Chief and to assist agency 
        administrators in reaching incident management decisions that 
        will achieve safe, effective and efficient operations, 
        commensurate with local protection objectives and national 
        priorities and to help the agency administrator assure that 
        appropriate management and fiscal controls are in place and 
        functioning should be continued.
  --Appropriate Management Response and the use of Wildland Fire 
        Decision Support System tools are the keys to cost efficiency 
        when managing wildland fire.
  --The use of a CPR on incidents affords the opportunity for the 
        mentoring of line officers with limited fire experience.
                       line officer certification
    All line officers will meet enhanced qualifications prior to being 
designated as the responsible official for an incident. The 
certification process has been developed and is designed to improve 
decision-making and risk management on large fires. Certification will 
be at three levels. In addition, a mentoring network has been 
established of experienced line officers to provide training and share 
experience to enhance performance skills.
                 aviation efficiencies and contracting
    A full-time National helicopter coordinator is in place to provide 
interagency national oversight for the assignment and positioning of 
helicopters. This year, the Forest Service shifted to more ``exclusive 
use'' (EU) versus ``call when needed'' (CWN) contracts for helicopters. 
This change in contracting procedures greatly reduced large fire 
suppression costs with the potential cost savings in the tens of 
millions of dollars per year. The agencies are pursuing longer term 
aviation contracts for all aviation resources with increased 
performance-based contacting.
    The National Interagency Aviation Committee (NIAC) has prepared an 
overarching strategic plan to address the interagency strategic 
direction. The NIAC plan was constructed with input from participating 
interagency partners. This strategy contains an overview of aviation 
doctrine, mission requirements, currently available aviation assets, 
the role of Federal and State governments in the utilization and 
management of aviation assets, and future infrastructure and technology 
needs.
    The National Interagency Aviation Committee (NIAC) has prepared an 
overarching strategic plan to address the interagency strategic 
direction. The NIAC plan was constructed with input from participating 
interagency partners. This strategy contains an overview of aviation 
doctrine, mission requirements, currently available aviation assets, 
the role of Federal and State governments in the utilization and 
management of aviation assets, and future infrastructure and technology 
needs.
    The Forest Service and other agencies involved with the plan 
development realized the need for more specific strategies to address 
individual agency needs. The Forest Service has developed a supplement 
to this plan to bring the overall interagency strategic direction to 
the agency level. The Forest Service supports this national strategy 
with the following initiatives:
  --Safety remains the highest priority. A detailed plan to complete 
        airworthiness assessments for all Forest Service firefighting 
        aircraft in compliance with NTSB recommendation A-04-29 will be 
        formulated by January 31, 2009.
  --Control of the escalating cost of aviation assets is the second 
        priority. Centralized management of airtankers and Type 1 
        helicopters, pre-positioning of aircraft and a greater reliance 
        on speed and accuracy will be used to operate more efficiently 
        and maintain adequate delivery capacity without sacrificing 
        safety. Work together with other firefighting agencies to share 
        aircraft, intelligence and other resources in a more 
        collaborative manner.
  --Rebuild the aging fleet of firefighting aircraft is the third 
        priority. The Forest Service is measuring the loads incurred by 
        firefighting aircraft and developing structural specifications 
        that will identify appropriate aircraft sufficient to carry out 
        the mission in a firefighting environment for the long term. 
        Rebuilding toward a smaller, stronger and more agile fleet that 
        takes advantage of modern technology is a part of this 
        priority.
          aviation efficiencies and contracting--success story
Exclusive Use Contracting for Aircraft Saves $14,475,000
    The 2007 fire season was extremely active requiring activation of 
all aviation assets on contract. Exclusive Use (EU) helicopter 
contracts were utilized, yet there was a need for additional 
helicopters--requiring Call When Needed (CWN) helicopters to supplement 
the fleet of EU helicopters. The following demonstrates common 
practices utilizing EU helicopters before CWN and identifies points 
that indicate when and why CWN resources may be used.
  --Pre-season placement of EU helicopters in areas with higher fire 
        potential can lessen the need for last minute CWN resources. EU 
        Helicopters are utilized under their pre and post-season option 
        to limit the activation of the more costly CWN resources.
    The National Interagency Coordination Center (NICC) dispatches 
helicopters based on:
    date/time needed,
    emerging fire or existing large campaign fire, or preposition,
    estimated duration of incident,
    mobilization cost,
    daily availability rate, and
    hourly flight rate.
    The length of need is also addressed at each step of the ordering 
process to ascertain which resource could be utilized most efficiently 
for the lowest cost. The WildCad dispatch analysis program calculates 
cost of resource, length of need, proximity to the incident and 
determines the lowest cost option to meet the need. There are instances 
when ordering a CWN helicopter is significantly cheaper than activating 
an EU asset. In those instances, CWN helicopters were ordered.
    Incidents routinely cycle out CWN resources when EU helicopters are 
available if it provides a better value to the incidents needs--the 
NICC Helicopter Coordinator assisted in this transition.
    When the need reaches a level where nearly all helicopters on 
contract are required, EU resources were utilized first to assist in 
the success on initial attack incidents. The complement of personnel on 
an EU resource makes this an excellent use of the resource. On the 
other hand, CWN helicopters do not come with personnel and are better 
served on large incidents rather than initial attack if they are used 
at all.
    The Helicopter Coordinator position works to utilize EU helicopters 
whenever possible instead of CWN resources, finds aviation personnel to 
assist incidents, and tracks aircraft movements and utilization daily 
to ensure and realize the greatest efficiencies.
    Exclusive Use helicopters are contracted to guarantee their 
availability for the duration of the time period contracted. The 
average national EU contract period is 90 days. CWN aircraft have the 
ability to work for us one day and someone else the next; there is no 
commitment from the vendor under the CWN.
    The efficiencies identified above led to an estimated cost savings 
of $14,475,000 for the fiscal year based on utilizing the aircraft 
under exclusive use. Total cost savings estimate for entire life of the 
contracts is $26,441,486.
                    hazardous fuels accomplishments
    The hazardous fuels treatment and ecological restoration job that 
lies before Federal land management agencies, tribes, States, counties, 
and local communities is enormous. The best opportunity to protect 
communities and valuable resources in the event of a problem fire is to 
reduce hazardous fuel accumulations through active management, aligning 
programs and leveraging resources to bring the full capability of the 
agency and partners to bear on the problem. Despite an extremely busy 
fire season, the Forest Service was able to reduce hazardous fuels on 
over 3 million acres from all vegetation management programs in 2007.
    The Forest Service remains committed to the reduction of hazardous 
fuels adjacent to communities. Since the National Fire Plan was 
instituted in fiscal year 2001, nearly two-thirds of all hazardous fuel 
reduction funds have been invested in the wildland urban interface 
(WUI), treating more than 7 million acres directly adjacent to 
communities--an area comparable in size to the State of Maryland. In 
2007, the Forest Service treated 1.4 million acres of WUI. Fuel 
reduction in the WUI is the most complex, costly work done, balancing 
the risk, weather conditions, access, smoke concerns, and important but 
intricate, collaborative relationships with communities, stakeholders 
and partners.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                        Fiscal year
     Forest Service hazardous fuels reduction accomplishments     --------------------------------------------------------------------------------------
                                                                     2000       2001       2002       2003       2004       2005       2006       2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Acres Treated- HF..........................................   772,400  1,361,600  1,248,300  1,453,300  1,803,400  1,663,700  1,454,300  1,725,400
    WUI Acres....................................................  ........    611,600    764,400  1,114,100  1,311,000  1,187,900  1,045,100  1,138,500
    Non-WUI Acres................................................  ........    750,100    494,000    339,200    492,400    476,000    409,200    586,900
Other Programs:
    Restoration..................................................  ........  .........  .........  .........    550,200    730,300    839,500    821,200
    SFA Grants...................................................  ........  .........     40,100    136,300    146,000     76,600     82,000    216,000
    Wildland Fire Use............................................    37,900     62,600     59,400    290,900     60,900    251,100    171,700    264,100
--------------------------------------------------------------------------------------------------------------------------------------------------------

          hazardous fuels prioritization and allocation system
    Increased numbers and frequency of large fires have drawn attention 
to the agency's hazardous fuels reduction program and the method by 
which areas are prioritized for treatment and funding. In order to 
identify high priority areas and integrate hazardous fuels treatments, 
the agency developed a consistent, spatially relevant process to inform 
funding allocation decisions. By implementing this system, the Forest 
Service is able to more effectively implement hazardous fuels projects 
and funding in order to have the greatest impact.
    The prioritization and allocation methodology for the hazardous 
fuels reduction program is now used by both the Forest Service and the 
Department of the Interior. Nationally-consistent geospatial 
information is modeled to prioritize Regions for hazardous fuels 
funding. The following decision criteria determine the priorities:
  --wildfire potential (based on fuels potential, weather potential and 
        large fire occurrence potential);
  --negative consequence associated with catastrophic fire (values at 
        risk); and
  --past performance and other opportunities (other funding sources and 
        restoration objectives).
    LANDFIRE is a 5-year, multi-partner project producing the only 
consistent and comprehensive national vegetation and fuel maps covering 
all ownerships in the United States. In its fourth year of development, 
the project continues to make good progress with anticipated completion 
of the continental United States by fiscal year 2008. A contract will 
be awarded to continue the development process for Alaska and Hawaii. 
LANDFIRE products help land managers prioritize areas for hazardous 
fuel reduction and ecological restoration, and are routinely used to 
support wildland fire suppression decisions.
    LANDFIRE products are used by the Hazardous Fuels Prioritization 
Allocation System, Fire Program Analysis, Wildland Fire Decision 
Support System, and the State and Private Forestry Redesign Analysis 
Tool. It will also feed directly into the Southern States Wildfire Risk 
Assessment. The project has an approved Operations and Maintenance 
Plan, and is on time and on budget.
                    hazardous fuels--success stories
Fuel Treatments Help Firefighters Save 100 Homes on Tin Cup Fire, 
        Darby, Montana
    Hazardous fuel treatments on public and private lands significantly 
contributed to the success of firefighters when containing the Tin Cup 
Fire, outside Darby, Montana, during the 2007 fire season. The fuel 
reduction projects resulted from partnerships between the Forest 
Service, Montana Department of Natural Resources and Conservation, the 
Bitter Root Resource Conservation and Development Area, Incorporated, 
and private landowners. The locations of these treatments were guided 
by priorities established in the Bitterroot Valley's Community Wildfire 
Protection Plan.
    The Bitterroot National Forest treated 214 acres during the months 
preceding the fire; and the Bitter Root Resource Conservation and 
Development, working through grants from the Forest Service and the 
Montana Department of Natural Resources and conservation, assisted five 
landowners in treating an additional 102 acres during the previous 5 
years.
 preparation spares community during grass valley fire, san bernardino 
                      national forest, california
    Tammy Hopkins awoke just after 4:30 a.m., on Monday, October 22, 
2007, to hear her 8-month-old son crying and realize the power was out 
to her home. As the Lake Arrowhead area resident scooped her son out of 
his crib, flashlight beams raked her darkened walls; and she heard the 
honking of a neighbor coming down the road. Back in the master bedroom, 
the sliding glass doors, normally opened to a panoramic view of the 
canyon, revealed a red glow that could only mean one thing--a fire and 
a big one at that.
    The firefighter's wife was only concerned with protecting the young 
couple's two sons. She knew she had to do it alone. Her husband had 
been called to a fire that began earlier in the recent siege of 
southern California fires. She gathered her things and headed to her 
husband's grandparents down the block to help them.
    In the 15 minutes it took to alert the elderly couple and get them 
into the car, a power line had fallen across the exit route; and the 
group had to retreat, heading back toward the fire in order to reach 
another roadway. ``At that point, I could see flames from the canyon 
below my house,'' Tammy relates. ``But the engines were coming down the 
street, and we had the fuel break.''
    The fuel break Tammy makes reference to was a 150-foot wide 
clearance, or ground fuels treatment, funded by the Forest Service 
through the California Fire Safe Council. It had been something of an 
experiment. Fire Chief George Corley summarized the project by saying, 
``We wanted to use our grant to show that you could do a little work 
along the edge of the interface and get paid extensive dividends. We 
trimmed up trees and removed ground fuels on the slope beneath the 
homes.''
    The experiment worked. In the aftermath of the 1,247-acre Grass 
Valley Fire, Chief Corley recounted, ``What we did gave fire crews 
enough time to anchor off it (the fire from the fuel break). 
Firefighters didn't have to struggle with fires in the backyards, so 
the structure protection units were able to keep moving down the 
street. Unfortunately, the first house outside the project area burned 
to the ground. But that's how you know this works; you can stand here 
and see it. This project only cost $40,000, but it saved millions of 
dollars worth of homes.''
    CAL FIRE's San Bernardino Unit Chief Tom O'Keefe added, Arrowhead 
Fire Safe Council and San Bernardino County Fire ``prevented these 
losses 6 months ago.''
williams trail fuel break tested during the galion fire, huron-manistee 
                       national forest, michigan
    In an effort to protect a small subdivision from wildfire, a shaded 
fuel break was constructed adjacent to homes along Williams Trail in 
2002. The fuel break was about one-half mile long and 200 to 300 feet 
wide. The construction consisted of tree thinning to increase the 
distance between the tree crowns, and several homeowners prepared for 
potential wildfire events by establishing defensible space around their 
homes and thinning flammable tree species such as jack and red pine.
    On August 30, 2007, the Galion Fire erupted to the south of the 
Williams Trail subdivision. The fire quickly transformed into a running 
crown fire heading toward the Williams Trail subdivision; however, once 
the fire hit the fuel break, its intensity reduced to a ground fire. 
Although the ground fire continued through the fuel break and into the 
subdivision and destroyed several structures, most remained damage 
free; home owners who had prepared ahead of time suffered little or no 
damage to their homes or outbuildings.
    The fire stopped later that day as the weather moderated and ran 
into the moister, riparian area of Silver Creek. In total, 557 acres 
burned. Two homes were lost in the subdivision adjacent to the fuel 
break.
    The fire was controlled with assistance from the Michigan 
Department of Natural Resources; the Grant Township; Tawas City, East 
Tawas and Plainfield Township Fire Departments; Michigan State Police; 
Iosco County Sheriff; United States Fish and Wildlife Service and the 
United States Forest Service.
Camp Caloosa Project, Lee County, Florida
    Camp Caloosa is an 80-acre property located in Lee County, Florida, 
and is designated as a high wildfire risk area. The camp is owned by 
the Southwest Florida Girl Scouts and is used as a residential camp and 
instructional retreat. Most of the 80 acres are pine flatwoods with a 
significant accumulation of dense palmettos reaching 10 to 12 feet tall 
and areas with dense melaleuca growth.
    Efforts to reduce the hazardous fuels began in the area following a 
request by the local fire department in 2006. The fire department 
responded to a small wildfire and experienced difficulty accessing the 
property. They were concerned about the dense vegetation and the need 
for additional fuels management of the camp. Following a meeting with 
Scout staff at the camp, a management plan for the property was 
developed that included a comprehensive mitigation plan.
    During the initial phase of the mitigation plan, walking trails 
through the camp were widened by the Intermountain Region Mitigation 
Team. The widened trails were used to define prescribed burn units for 
the next phase of the work.
    On April 4, 2007, a wildfire burned into the northwest boundary of 
the camp. The widened trails served as firebreaks that stopped or 
slowed the fire enough for suppression equipment to work effectively. 
The trails were also wide enough for brush truck access. As a result, 
the fire burned only eight acres before it was contained.
    The cost of this project, including Intermountain Region team 
personnel, equipment and local district personnel working jointly on 
the mitigation project was approximately $9,000; however, the project 
protected 21 structures with an estimated value of $3,675,000 in the 
face of wildfire. The per structure cost in order to provide this 
additional protection was only $426.
effects of vegetation treatments on the vincent fire, apache-sitgreaves 
                        national forest, arizona
    The Vincent Fire started on the morning of May 29, 2007, outside 
the treatment units contained in White Mountain Stewardship Projects 
Dutch Joe A and Dutch Joe B. These projects were designed to reduce the 
threat of wildfire to adjacent private lands. Aggressive thinning and 
slash removal had been completed in 2006 under the Dutch Joe A project; 
similar actions were in progress under the Dutch Joe B project.
    In each project unit, the understory was thinned and trees up to 18 
inches in diameter were removed. Remaining slash was chipped and 
transported to be burned at a 24 mega-watt biomass plant. Large 
diameter trees were retained, but tree spacing was increased and ladder 
fuels (branches in the lower part of the trees) were removed.
    Once ignited, the Vincent Fire grew rapidly in size due to dense 
forest conditions, low humidity and moderate winds. The ground fire 
quickly moved into the canopy of untreated ponderosa pine stands, and 
tree torching and running crown fires were observed.
    Once the fire reached the area treated by the Dutch Joe A and B 
projects, it dropped from the tree crowns (upper portions of the trees) 
to the ground, demonstrating that thinning and slash treatments are 
effective tools to moderate fire behavior--far easier and safer to 
control.
                      partnership accomplishments
    The Partnerships program identifies, develops and coordinates with 
other organizations to achieve shared goals. The result is a 
synergistic approach to issues such as wildland urban interface fire, 
national emergency response, fire prevention, fire in the ecosystem, 
State and local unit cooperation and coordination, and many other 
issues that affect a wide variety of national interest groups.
    By collaborating with groups such as the National Association of 
State Foresters, International Association of Fire Chiefs, Federal 
Emergency Management Agency, National Fire Protection Association, and 
many others, the agency facilitates a cooperative course of action that 
yields integrated solutions to common issues.
    The Partnerships Program includes Cooperative Fire Protection which 
deals with Volunteer Fire Assistance, State Fire Assistance, and 
Federal Emergency Personal Property. It also includes Fire Prevention, 
Firewise, the Wildland Urban Interface Fire program, and All-Hazard 
Emergency Answer. The Partnerships program also coordinates any 
requests for international programs and cooperation for Fire and 
Aviation Management.
                      partnership--success stories
Cooperative Fire
    The Forest Service Cooperative Fire program provides support and 
grant opportunities to assist State and local agencies prepare for and 
respond to wildland fire. The two most important grant opportunities 
include the State Fire Assistance and Volunteer Fire Assistance 
programs. Many other important initiatives are supported either through 
collaborative efforts or grants. Examples include grants provided to 
the National Association of State Foresters, International Association 
of Fire Chiefs, The Advertising Council, and National Fire Protection 
Association, as well as collaboration with the Federal Emergency 
Management Agency. The Forest Service is continuing our commitment, as 
detailed in a Memorandum of Understanding, to work with the Department 
of Homeland Security and the Department of the Interior to coordinate 
wildland fire grant programs. Another important achievement of the 
Cooperative Fire program was the coordination with interagency partners 
to gain approval of an updated template for preparing cooperative 
wildland fire agreements with the States. The new template was approved 
by the National Fire and Aviation Executive Board in January 2007 and 
will help improve efficiency and facilitate coordination during 
wildland fire and also Stafford Act emergency responses.
State Fire Assistance
    Forest Service funding in 2007 provided in excess of $79 million 
for technical and financial assistance to the States for all fire 
management activities, including training, planning, hazardous fuel 
treatments, and the purchase and maintenance of equipment. State Fire 
Assistance funding assisted 33,332 communities in the form of risk 
assessments, fire prevention programs, fire management planning, and 
hazardous fuel mitigation projects. An emphasis in funding was placed 
on wildland-urban interface (WUI). The State Fire Assistance program 
provides key support to successful community programs such as Firewise 
Communities/USA and Fire Safe Councils, as well as support for an 
expanded national public service fire prevention program. In addition, 
many communities and local fire departments, in collaboration with 
State foresters, developed community wildfire protection plans (CWPP's) 
to prioritize hazardous fuels treatments and reduce structural 
ignitability in communities that receive support from State Fire 
Assistance funding. State Fire Assistance grants treated approximately 
215,000 acres of hazardous fuels in the WUI, helping to protect over 
6,000 communities at risk from catastrophic wildfire.
Community Wildfire Protection Plans and Communities at Risk
    In fiscal year 2007, assistance was provided for hazard assessments 
and funding was provided for Community Wildfire Protection Plans 
(CWPP's) for communities at risk (CAR). CWPP's address issues such as 
wildfire response, hazard mitigation, community preparedness, and 
structure protection. They provide communities with a tremendous 
opportunity to influence where and how Federal agencies implement fuels 
reduction plans on Federal lands and how additional Federal funds may 
be distributed for projects on non-Federal lands. State Foresters 
evaluate the progress made at reducing risk in communities at risk 
(CAR). A CAR may be considered at reduced risk by the State Forester if 
the community has mitigated high priority fuels according to the CWPP, 
has achieved Firewise or equivalent recognition, or has enacted 
mitigation or fire prevention ordinances. The following chart 
illustrates the current status of CWPP's, as well as Communities at 
Risk.

                       STATUS OF COMMUNITY WILDFIRE PROTECTION PLANS--COMMUNITIES AT RISK
----------------------------------------------------------------------------------------------------------------
                                                                                    Communities
                   NASF region                      States with      Total CAR      covered by    CAR at reduced
                                                   CAR list/map                       CWPP's           risk
----------------------------------------------------------------------------------------------------------------
West............................................              17           6,169           3,145           1,412
South...........................................              13          40,984           1,160             888
Northeast.......................................              19           4,459             457           1,514
                                                 ---------------------------------------------------------------
      Total.....................................              49          51,612           4,762           3,814
----------------------------------------------------------------------------------------------------------------

Volunteer Fire Assistance
    The Volunteer Fire Assistance (VFA) program provides grants to 
rural and volunteer fire departments which serve communities of fewer 
than 10,000 people. The grants are made by the State foresters and 
funded at a 50/50 cost share. Generally, most grants are for less than 
$5,000 and average $2,000 for a fire department. The grants are used 
for training, firefighting equipment, and safety equipment, including 
personal protective equipment. They are also used for organizing fire 
departments. Application for these funds is made by the fire 
departments to the respective State Forester. In fiscal year 2007, the 
VFA program accomplished the following:
  --increased firefighting capacity by providing technical assistance, 
        training, supplies, and equipment to approximately 10,157 
        small, rural communities;
  --provided nearly $14 million for technical and financial assistance 
        to States to enhance firefighting capacity at State and local 
        levels; and
  --supported the organization or expansion of 53 fire departments.
                              vfa success
West Virginia uses Volunteer Fire Assistance Funding to Train Wildland 
        Firefighters
    Rural fire protection in the 20 States served by the U.S. Forest 
Service Northeastern Area State and Private Forestry relies heavily on 
volunteer fire departments (VFDs) and their members. While State 
forestry agencies are legally responsible for the prevention and 
suppression of wildland fires, local VFDs provide the initial attack 
capabilities on most wildland fires. For the local communities and the 
State forestry agencies, a well-trained, equipped workforce is critical 
to the suppression of these fires.
    In 2003, the West Virginia Division of Forestry (WVDOF) developed a 
program to train volunteer firefighters in the suppression of wildland 
fires. Using funding from the Volunteer Fire Assistance Program, the 
WVDOF trains VFP personnel and university students in three courses 
that will enable them to fight wildland fires more safely and 
effectively--Basic Incident Command, Fire Weather Behavior and Basic 
Firefighter training. Upon successful completion of these courses, 
firefighters each receive a set of personal protective equipment--Nomex 
yellow shirt and green trousers. Firefighters are also eligible to take 
the work capacity test; and if successful, they receive an incident 
qualifications card--``red card,'' enabling them to participate on out-
of-state fires with the WVDOF.
    Since 2003, the WVDOF has trained more than 390 wildland 
firefighters under the VFA Training Grant. This includes members from 
more than 83 fire departments, 49 students from the Forestry Department 
of the West Virginia University and 28 members of the West Virginia Air 
National Guard. The WVDOF has been able to increase its firefighting 
workforce while instilling proper wildland firefighting techniques and 
safety procedures in their firefighters.
    This training program has increase personnel available for the 
WVDOF's wildland fire crews for both in and out-of-state fire 
assignments. Since 2003, the WVDOF has conducted eight pack tests and 
issued more than 180 ``red cards.'' In addition, the firefighter 
training program has become a permanent part of the West Virginia 
University's School of Forestry curriculum.
Prevention
    Smokey turned 63 years old in 2007, and his message is still 
needed. Many wildfires are carelessly started by humans each year, 
including the Angora Fire near Lake Tahoe, California, during the 2007 
fire season. The Angora fire ignited when an illegal warming fire was 
left unattended. It burned more than 3,100 acres, cost $12.7 million to 
suppress, and destroyed more than 250 homes.
    Fire Prevention Education Teams were deployed throughout the Nation 
before and during the 2007 fire season. The Southern Region leads the 
Nation with more than 400 trained prevention team members.
    The teams produced public service announcements (PSA's) for 
television and radio, created fliers and posters, and conducted 
Firewise Awareness workshops. One of the most notable team achievements 
was the PSA developed Georgia for national comedian Jeff Foxworthy who 
stated ``Even a 5th grader knows you shouldn't start a wildfire. Cut it 
out!'' The PSA's were aired throughout the Southern Region during their 
busy fire season.
    The prevention message across the country stressed the role of 
individuals in protecting homes and public lands from wildland fires. 
Prevention teams worked with partners at the University of Nevada--Reno 
Extension, to develop a `one-stop-shopping' website to educate 
residents on creating defensible space.
    The Fire Prevention Branch continued the partnership with the Ad 
Council and Radio Disney to increase the awareness of the Ad Council 
campaigns. The Smokey Bear Fire Prevention Campaign remained at the top 
of Radio Disney's list of campaigns.
    More than $12.9 million in media services were donated in the first 
quarter of 2007. Radio and outdoor/transit (billboards, bus signs, 
etc.) media accounted for 62 percent of total donated media support. 
Highlights of the media campaign's first quarter, when compared to the 
same quarter a year ago, include the following:
  --378 percent increase in newspaper-donated media;
  --187 percent increase in magazine-donated media;
  --687,801,976 impressions (each time a target audience member is 
        exposed to the message) on the internet, including the New York 
        Times, National Geographic, and Google websites; and
  --Spanish and English radio activity dominated air play with the 
        public service announcements Smoke :60 and Sprinkler :60.
    Smokey Bear was the only PSA costumed icon at the ``Move it! Summer 
2007,'' mall tour, in 42 major markets during July through August. 
Smokey Bear was one of only six PSA campaigns featured at the Eisner 
Museum of Advertising and Design in Milwaukee. The exhibit continues 
through March 2008 and is estimated to be viewed by over 20,000 
visitors.
    The Southern Region, with help from Eastern and Pacific Southwest 
Regions, coordinated the Smokey Bear advertisement campaign for the 
Little League World Series. This Advertisement--American Traditions 
(Apple pie, the American flag, and Smokey Bear)--was spearheaded with 
help from the Virginia Department of Forestry; and the ad was located 
in each region's souvenir program guide. The National Gardens Clubs and 
the Forest Service annual poster contest reached 300,000 students.
restoring fire adapted ecosystems: a forest service, department of the 
              interior and nature conservancy partnership
    The Forest Service, Department of the Interior and Nature 
Conservancy continue to partner to accelerate fire restoration across 
the country. Restoring Fire Adapted Ecosystems is designed to advance 
the common goals of the sponsoring partners, while focusing on 
collaborative outreach, education, training, and community-based 
conservation. In 2007, the program centered on developing and promoting 
a common national fire education message that emphasizes the role of 
fire in the ecosystem. Fire and Aviation Management funded the public 
education campaign stressing fire's natural and beneficial role. The 
campaign complements Smokey Bear's message of preventing unwanted 
human-caused wildfires. This partnership supports the 10-Year Strategy 
Implementation Plan and the philosophies behind the Chief's program, 
``Kids in the Woods,'' which encourages the education of youth in order 
for them to understand the link between their homes and the natural 
resources.
                 wildland urban interface fire program
    The 2007 fire season started early and got big fast with the Sweat 
Farm and Bugaboo fires in the Southern Region. Once again, wildland 
urban interface issues took the forefront. Development in the WUI 
continues to grow exponentially and along with it the cost of fire 
suppression and the danger to private property. The growth vastly 
outpaces available resources to protect the structures from wildland 
fire threats.
    Firewise is the best tool for homeowner mitigation of risk from 
wildland urban interface fires. Partnerships' grant and cooperative 
agreement with the National Fire Protection Association (NFPA) supports 
the program. Its principles, when implemented, significantly increase 
defensible space and survivability. It provides a layer of safety for 
structures, homeowners and firefighters. Through this program, the 
Forest Service encourages and teaches property owners to take 
responsibility for mitigation on private land. Every dollar invested in 
the Firewise program yields $14 in matching funds or in-kind 
contributions.
    In 2007, Firewise principles were implemented in every State of the 
Nation, and Firewise Communities were in place in 36 States. There are 
Firewise liaisons in 45 States, and over 300,000 people live in 
Firewise communities.
    Overall visibility and awareness of Firewise and its principles has 
increased nationwide as a result of targeted outreach to media. Print 
and broadcast media reached over 30 million people with the Firewise 
message in 2007 alone. NFPA provided over 150,000 printed or audio-
visual items, mostly free of charge, to fulfill orders received through 
the on-line catalog.
    The Firewise web site received an average of 40,000 individual hits 
per month during the peak of fire season, and those individuals visited 
an accumulated total of a million times on the site after logging in. 
More than 8,400 people are registered on the site to receive monthly 
Firewise Alerts--e-mails with items of interest and upcoming events 
such as chat sessions which are held monthly. Online learning 
enrollment for fire related topics is also increased.
    Assessing Wildfire Hazards in the Home Ignition Zone (HIZ) training 
sessions reached many more with train-the-trainer sessions in five 
locations across the country. The HIZ training sessions were so 
successful that they will be continued in 2008.
    Partnerships piloted a Firewise Hazard Mitigation Team during the 
2007 fire season. The concept concentrated on addressing issues 
resulting from increased growth in the wildland urban interface.
Federal Excess Personal Property Program (FEPP)
    The Federal Excess Personal Property (FEPP) program allows the loan 
of Forest Service owned property, including high demand equipment and 
supplies, to State foresters in order to assist State and rural 
agencies and volunteer firefighters in preparedness for suppression and 
pre-suppression missions on Federal, State, and community lands. The 
FEPP program provides items from gloves to fire trucks, thereby 
effectuating substantial savings to the taxpayers.
FEPP Success
    In 2007, a total of 393 trucks and 218 trailers were assigned to 
State cooperators. In most instances, these items were equipped with 
tanks, generators and pumps to assist firefighters on wildland and 
brush fires. Approximately 17 pieces of heavy equipment were loaned to 
State cooperators to help maintain and build fire roads. In fiscal year 
2007, the State forestry agencies have acquired nearly $30 million 
worth of FEPP. Currently, 49 States and 5 territories participate in 
the FEPP program.
Department of Defense Firefighter Property Program (FFP)
    The Firefighter Property Program (FFP) is a new authority that 
began in March of 2006. The FFP allows a State to acquire title to 
excess military equipment and then assign that equipment to rural fire 
departments. The Department of Defense (DOD) authorized the Forest 
Service FEPP program to manage the transfer of DOD property through a 
Memorandum of Agreement.
    The major difference between the FFP and the FEPP program is the 
ownership of the items acquired. All items acquired in the FEPP program 
remain the property of the Forest Service, while items acquired under 
the FFP are transferred to the recipient. The FFP property is screened 
at a higher level, therefore, making better quality and larger quantity 
of property available for the firefighting agencies. The program also 
acquires items for emergency services such as search and rescue, 
hazardous material spills and emergency medical services (EMS) 
equipment in addition to firefighting equipment, making it beneficial 
to participating agencies. These functions often fall within the 
firefighting agencies' responsibilities but are not applicable to the 
FEPP program.
FFP Success
    Currently, 23 States are able to acquire FFP through the program--
Alabama, Arkansas, Colorado, Connecticut, Florida, Idaho, Kansas, 
Kentucky, Maine, Massachusetts, Michigan, Minnesota, Missouri, Montana, 
Nebraska, North Carolina, North Dakota, Ohio, Oklahoma, Pennsylvania, 
South Dakota, Texas, and Washington. New agreements between other 
States and the Forest Service are in the process, with most States 
expected to be signed up within the next 1 to 2 years.
    In 2007, more than $38 million in equipment went to 23 States. 
North Carolina Division of Forest Resources acquired two backhoes for 
clearing fire roads, providing a cost savings of more than $6 million 
to the State agency and its taxpayers.
    The FFP has allowed State cooperators to acquire more than 400 
refurbished trucks, equipped with pumps and generators to assist in 
rural in wildland firefighting in 2007. With an original acquisition 
cost of over $18 million, these free-issue vehicles provided an 
enormous savings to rural and volunteer fire departments not only in 
resources to fight fire but in the level of protection and safety there 
are able to provide their communities.
Fire Management Today
    Founded in 1936, Fire Management Today has served the wildland fire 
community for more than 70 years by providing information on new 
techniques, technologies and ideas. In 2007, a new column was added 
``Anchor Point,'' penned by Tom Harbour, Director of Fire and Aviation 
Management. This column focuses on the challenges and changes to Fire 
and Aviation Management. Another landmark event occurred in 2007 for 
Fire Management Today--the initiation of the Forest Service website 
(http://www.fs.fed.us/fire/fmt/) which has been updated with many 
previous issues bookmarked to provide ease in finding information.
                         national response plan
    The Forest Service is a land management agency with a unique 
combination of people, skills and resources that add significant value 
to the agency's national all-hazard response capability. The agency 
accepts their all-hazard role under the National Response Plan (NRP) as 
complimentary to its overall land management mission. In recent years, 
there has been a major increase in the number and complexity of all-
hazard incidents resulting in unprecedented demands on Forest Service 
employees and its partners in emergency response.
    The NRP has been revised and the new draft is called the National 
Response Framework (NRF), which establishes a comprehensive all-hazards 
approach to enhance the ability of the United States to manage domestic 
incidents. It forms the basis of how the Federal Government coordinates 
with State, local, tribal governments and the private sector during 
incidents. Partnerships staffs took the lead for agency participation 
in the revision of the NRP by the Department of Homeland Security/
Federal Emergency Management Agency (DHS/FEMA).
    The Forest Service is the Primary Agency and coordinator for 
Emergency Support Function 4, Firefighting (ESF4) under the NRP, and 
this role continues under the NRF. The function of ESF4 is to enable 
the detection and suppression of wildland, rural, and urban fires 
resulting from, or occurring coincidentally with, an incident of 
national significance. ESF4 manages and coordinates firefighting 
activities, including the detection and suppression of fires on Federal 
lands, and provides personnel, equipment, and supplies in support of 
State, tribal, and local agencies involved in rural and urban 
firefighting operations.
    To successfully accomplish this function, the Forest Service has 
close working relationships with partner departments and agencies. 
Department of the Interior agencies provide staffing support for ESF4, 
and wildland fire resource support for mission assignments during all-
hazard responses. The U.S. Fire Administration (USFA) provides subject-
matter experts and expertise regarding structural/urban/suburban fire 
and fire-related activities. The Forest Service, in conjunction with 
USFA, is developing a standardized training program for ESF4 personnel 
and the production of job aids and other ancillary materials for use 
during ESF4 activations.
    There have been many changes to Federal disaster response based on 
lessons learned from the 2004 and 2005 hurricane seasons. ESF4 
personnel participated in exercises to test the procedures resulting 
from the changes. Several exercises, involving many Federal departments 
and agencies, were held during 2007. The Forest Service was an active 
participant in these exercises at both the national and regional 
levels.
                national response plan--success stories
    Some highlights of the Forest Service's all-hazard support to the 
National Response Plan during fiscal year 2007 include:
  --Kansas tornados--when a tornado destroyed the town of Greensburg, 
        Kansas, in May 2007, FEMA activated ESF4 regionally at the RRCC 
        in Kansas City. ESF4 deployed a Forest Service National 
        Incident Management Organization (NIMO) incident management 
        team and an Interagency Hotshot Crew to establish and manage a 
        base camp for emergency responders.
  --Micronesia floods--when salt water intrusion from storm surge and 
        unusually high tides in May 2007 wiped out the subsistence food 
        crops in Chuuk, Micronesia, FEMA activated ESF4 regionally to 
        deploy Forest Service personnel as part of a preliminary damage 
        assessment team and later to establish and manage a food 
        distribution program, providing quality assurance and technical 
        assistance to a USDA feeding program.
  --Hurricane Dean--Hurricane Dean was one of the strongest hurricanes 
        on record; and at one point, threatened several U.S. 
        territories and States. As a precaution, FEMA activated ESF4 
        regionally at the Regional Response Coordination Centers (RRCC) 
        in New York (for Puerto Rico) and Denton, Texas; and at the 
        National Response Coordination Center (NRCC) in Washington, 
        D.C. Logistics Section personnel were deployed to provide 
        expertise, quality assurance and technical assistance to FEMA 
        for the establishment of a base camp.
           national incident management system (nims) support
    The NIMS outlines a standard approach to incident management and 
response that follows the wildland fire model--one used by the Forest 
Service and other fire agencies for years. It integrates effective 
practices in emergency response into a comprehensive national framework 
for incident management. In addition, it enables responders at all 
levels to work together more effectively and efficiently to manage 
domestic incidents no matter what the cause, size or complexity.
    Partnerships took the lead for agency's participation in the 
upgrade of the National Incident Management System (NIMS) by the DHS/
FEMA. Partnership subject matter experts were embedded in the senior 
steering committee for NIMS and chaired the working group which 
developed guidelines for resource typing, credentialing, multi-agency 
coordination, emergency operations centers and an emergency response 
guide book.
    NIMS is of supreme importance for national incident management, but 
its update will have minimal impact on the agency since the Forest 
Service's current system is grounded in the NIIMS and has been for 
years. Impact to the agency includes:
  --training of agency personnel (IS-700 and IS-800);
  --review of Emergency Plans at the District, Forest, and Regional 
        levels;
  --review of agreements to ensure NIMS compliance; and
  --resource typing of non-fire assets for disaster service.
    Each Region has identified a NIMS contact to assist in coordination 
of information and to ensure compliance.
    Over 600 Federal, State, local, tribal, non-profit, and private 
company representatives assisted in the process. Partnerships staffs 
were part of the ten-person final adjudication committee. The upgraded 
NIMS document was ready for release by the June 1, 2007, timeframe 
established by the White House. The NRP is awaiting final review and 
comment.
         fire and aviation management international activities
    Over 100 years of wildland firefighting experience has earned the 
U.S. Forest Service a worldwide reputation. This experience, along with 
the technical and professional expertise of fire specialists in the 
Forest Service, provides the basis for FAM's international involvement.
    Partnerships staff both coordinate and manage fire requests for 
international programs. FAM builds and maintains strategic national 
alliances through emergency firefighting arrangements with Canada, 
Mexico, Australia, and New Zealand.
    Some examples of the success experienced by this program are as 
follows:
  --When firefighting resources became scarce during the 2007 western 
        wildland fire season, Canada provided support through the 
        Canada/United States Reciprocal Forest Fire Fighting 
        Arrangement. The United States also provided firefighting 
        support to Australia in January and February 2007 through the 
        United States/Australian Participating Agencies Arrangement.
  --FAM employees traveled to Greece as part of a Disaster Assistance 
        Support Program (DASP) wildfire technical assessment team in 
        September 2007. The team provided technical assistance and 
        support to the government of Greece during their disastrous 
        fire season.
  --FAM employees provided instruction in all aspects of fire 
        management on assignments to Mexico, India, Jamaica, and 
        several countries in the Association of Southeast Asian Nations 
        (ASEAN).
  --Fire and Aviation Management has been an active member of the 
        Forest Commission (NAFC) Fire Management Working Group (FMWG) 
        for over 40 years. The NAFC is one of six regional forestry 
        commissions of the Food and Agriculture Organization of the 
        United Nations (FAO). NAFC, which was established in 1958, 
        provides a forum for fire policy and technical information 
        sharing for member nations (Canada, Mexico and the United 
        States) to discuss and address North American forest and fire 
        issues. The FMWG, established in 1962, is one of nine working 
        groups under the NAFC.
  --In May 2007, Fire and Aviation Management supported the NAFC-FMWG 
        by co-sponsoring the 4th International Wildland Fire Conference 
        in Seville, Spain. FAM and NAFC-FMWG supported the exchange of 
        experiences and technological advances by hosting a study tour 
        Australians and New Zealanders. The tour visited sites and 
        studied current fire management issues throughout Canada and 
        the western and southern United States during September 2007.

                   Part III.--Looking Ahead for 2008

    In fiscal year 2008, Fire and Aviation Management will continue to 
support the Chief's initiatives through the deployment of a program 
with specific focus areas and planned activities. These emphasis areas 
and activities, highlighted below, will enhance the program and 
agency's performance and efficiency. They, and others, will be integral 
components in Fire and Aviation Management's Strategic Plan.
                           chief's initiative
    Fire and Aviation Management will continue to support the Chief's 
``Climate, Water and Kids'' initiative through an integrated program 
which includes:
  --reduced hazardous fuels and the integration of fire within 
        ecosystems;
  --expanded use of Appropriate Management Response and Wildland Fire 
        Use;
  --protection of vital watersheds during wildland fires and through 
        the restoration process; and
  --an education program, reaching all ages, that emphasizes fire 
        prevention, the natural role of fire in fire-adapted 
        ecosystems, and the connection of natural resources to the 
        homes and communities surrounding the national forests and 
        grasslands.
                              focus areas
Management Controls and Operational Efficiencies
    Fire and Aviation Management (FAM) will maintain its emphasis on 
management controls and operational strategies which improve program 
oversight, delivery, effectiveness and efficiency. Utilizing rigorous 
management controls such as the Chief's Inter-Deputy Group to provide 
Executive level fiscal leadership and oversight; the Chief's Principle 
Representative for fires of national significance; and the Line Officer 
certification process for incident level oversight will emphasize cost 
containment. Strategic use and deployment of firefighting resources and 
implementation of aviation efficiencies such as centralizing aviation 
services and assets will be underscored.
Risk-Informed Management
    The Forest Service will continue to accentuate the importance of 
decision support technology development for risk informed management 
strategies to support implementation of Appropriate Management Response 
and prioritization of hazardous fuels. Development and refinement of 
systems and services such as the Wildland Fire Decision Support System, 
the Ecosystem Management Decision Support System and Predictive 
Services are essential to the agency's success. These systems and other 
tools will support managers in making informed decisions, thereby 
increasing the likelihood of success and potentially reducing costs.
Integrated Fuels Management
    The Forest Service will continue to work collaboratively with other 
Federal, State, local, tribal, government and non-governmental 
organizations, and other partners to ensure the accomplishment of 
mutual objectives. Program funding will be prioritized and integrated 
to accomplish Healthy Forests Initiative (HFI) and Healthy Forests 
Restoration Act (HFRA) objectives, efficiently and effectively. 
Continued emphasis will be placed on the integration of Community 
Wildfire Protection Plans (CWPP) with Federal hazardous fuels 
mitigation priorities.
                           planned activities
Readiness Capability and Mobilization
    The Forest Service will provide readiness resources comparable to 
fiscal year 2007, including approximately: 10,480 firefighters, 120 
helicopters and 20 airtankers. The agency will use Predictive Services 
and other resources to analyze potential fire activity to guide 
strategic placement of resources. All actions will occur with 
firefighter and public safety as the primary consideration.
Fire and Aviation Management Strategic Planning
    FAM continues to develop a Fire and Aviation Management Strategic 
Plan linked in part to the current Program Assessment Rating Tool 
(PART) Improvement Plan. The strategy will define program components 
relative to incentives, accountability and cost containment while 
considering risks and establishing objectives to evaluate if strategies 
are being achieved in an effective and efficient manner.
Reduce Hazardous Fuels
    The Forest Service will continue hazardous fuels reduction efforts 
by treating approximately 2.9 million acres of hazardous fuel and 
reducing flammability of the forests, woodlands, shrublands and 
grasslands including 2 million acres in the wildland urban interface 
(WUI) and 868,000 acres in areas outside the WUI areas. Additionally, 
fuel loads will be reduced on approximately 1.5 million acres as a 
secondary benefit through other vegetation management activities, 
wildland fire use events, Hazardous Mitigation Grants awarded under the 
State Fire Assistance program, and activities of southern Nevada Public 
Lands Management Act.
    The Forest Service will continue participation in the Federal Woody 
Biomass Utilization Working Group to promote and support the 
utilization of woody biomass and woody biomass products from forest and 
woodland treatments.
Restoration and Post-Fire Recovery of Fire Adapted Ecosystems
    The agency will continue to promote the increase of wildland fire 
use consistent with land and resource management plans and public and 
firefighter safety. These acres will be reported annually. On lands 
that are severely burned by wildland fire in fiscal year 2008, 
emergency stabilization, rehabilitation and restoration treatments will 
be implemented. Burned areas will continue to be reforested through a 
5-year cost-share agreement with American Forests for Wildfire ReLeaf. 
Additionally, the Interagency Program to Supply and Manage Native Plan 
Materials--a long-term strategy to improve nursery and plan material 
center infrastructure and monitor restoration effects and public/
private partnerships, will be continued.
Promote Community Assistance
    FAM will partner with the National Fire Protection Association, 
State, Federal and nonprofit partners to encourage community 
responsibility for hazard mitigation through land use planning, 
building codes, landscaping codes, zoning and community fire protection 
planning through the Firewise Communities Program.
    Technical assistance, training, supplies and equipment will be 
provided to more than 6,500 small rural communities and 5,075 volunteer 
fire departments. Firefighting capacity will be increased by providing 
technical assistance, training, supplies and equipment to rural 
communities through Volunteer Assistance Fire Assistance (USDA Forest 
Service) program.

    Mr. Rey. I will also submit for the record of the hearing 
continued progress in over 40 other areas of cost containment, 
and, finally, concluding the remarks on fire, we will submit 
for the record of this hearing the Firefighting Retention Study 
that the committee requested that we do and that we made 
available to your staffs earlier this week.
    [The information follows:]

               MANAGEMENT CONTROLS AND OPERATIONAL EFFICIENCIES: LEADERSHIP UPDATED--APRIL 9, 2008
----------------------------------------------------------------------------------------------------------------
    Management controls and                            Parties involved
       efficiencies \1\              Benefits \2\             \3\         Action required \4\        Status
----------------------------------------------------------------------------------------------------------------
L-1
Appropriate Management          Decision-maker has     Fire and          Clearly articulate     Letter from the
 Response (AMR).--Promote AMR    the greatest           Aviation          the policy for         Chief sent to
 provisions of 2005 Federal      flexibility in         Management        consistency across     field units
 Wildland Fire Management        management of          (FAM),            all units.             regarding
 Policy in a clear, concise      incident from the      Ecosystem        Develop                 policy and AMR
 manner. Reaffirm leaders'       onset, which can be    Management        accountability         ,on April 19,
 intent for full                 supported through      Coordination      standards for IMT      2007.
 implementation of AMR--enable   decision-making        (EMC),            and Line Officer      On March 24,
 full range of tactical          tools.                 interagency       performance.           2008, WFLC
 options.                       Consistent              partners.        Review policy with      approved the
                                 implementation of                        interagency partners   next step in
                                 AMR will lead to                         to allow movement      AMR development
                                 greater flexibility                      between suppression    to establish
                                 in wildland fire                         and WFU as needed.     WFDSS prototype
                                 management.                              Remove the             units for the
                                                                          distinction between    2008 fire
                                                                          WFU and suppression.   season.
                                                                         Develop an AMR          Information
                                                                          Guidebook              collected and
                                                                         FAM and budget should   lessons learned
                                                                          modify handbook        from those
                                                                          direction for          prototypes will
                                                                          suppression            be used in the
                                                                          authority to support   consideration
                                                                          WFU.                   of national
                                                                                                 policy
                                                                                                 adjustments for
                                                                                                 2009.
                                                                                                Agency Savings
                                                                                                 est. at $200M
                                                                                                 total all
                                                                                                 items.
L-2
Land and Fire Management        Enhanced decision      FAM, EMC........  Decision by NLT to     Interagency
 Plans.--Land and Fire           making environment                       have FAM and           group developed
 Management Plans (LMP and       provides support for                     planning work          a FMP template,
 FMP) for each unit should       decision makers who                      together on FS         which includes
 consider a full range of AMR,   select AMRs that may                     Manual changes.        AMR. Template
 including point protection as   entail higher risk.                     Provide decision        will be used in
 an equally acceptable                                                    criteria to allow      revision or
 approach to perimeter control.                                           for consideration of   future
                                                                          investments in         development of
                                                                          reducing or            FMP's.
                                                                          maintaining fuel      The template
                                                                          profiles rather than   will be
                                                                          simply the cost of     distributed to
                                                                          suppression.           the field for
                                                                                                 their use May
                                                                                                 2008.
L-3
Line Officer Certification.--   Improved decision-     Line Officer      LOT team work in       Developed and
 Enhance skills in incident      making ability at      Team (LOT), FAM.  conjunction with FAM   implemented an
 decision making in high risk    the onset of a new                       to reevaluate          interim
 environments. Line Officers     incident when the                        current policies in    certification.
 (LO) core competencies should   greatest benefits                        manual.               Letter to RF's 6/
 be certified on criteria        can be achieved.                        Develop Line Officer    01/07.
 including:                     Enhanced skills in                        Certification
  --Cost containment and         the preparation of                       Process.
   Delegation of Authority       DOA, specifically in                    Develop a template
   (DOA).                        development of                           for RFs (Regional
  --Incident management and      language on how to                       Foresters) to use
   processes.                    manage the incident.                     for interim
  --Wildland Fire Situation     Line Officers are                         certification,
   Analysis/Wildland Fire        certified                                available for
   Implementation Plan (WFSA/    commensurate with                        implementation prior
   WFIP) and other decision      the complexity of                        to 2007 fire season.
   support tools.                the incident.                            (see core
  --Situational awareness of                                              competencies
   resource availability and                                              framework developed
   allocation.                                                            in R9). This interim
  --Working knowledge of fire                                             certification will
   ecology and behavior.                                                  be used until
  --Safety....................                                            certification
  --IMT (Incident Management                                              procedures are in
   Team) review and                                                       place.
   evaluations.
L-3a
Line Officer Simulation.--      Better informed        LOT team working  FAM to develop         Under
 Build Line Officer competency   decision-makers at     with  FAM.        proposals for          consideration
 through the use of simulation/  the local level.                         approval by LOT team.  with LO items
 sandtable exercises.           Practice high risk                       Consider LO             for AAR (xxxxx)
                                 decisions in low                         certification with     of successes
                                 risk environment.                        420/520 type           and gaps.
                                                                          simulations.
L-3b
Shadow Assignments.--Organize   Provide for better     LOT team,         LOT team is            Shadow and
 and manage a program to         decision-making in     Regional          developing shadow      mentoring
 provide support and training    early phases of        Foresters, FAM.   protocols.             program
 for inexperienced agency        incident, as well as                    Regions should          implemented in
 administrators.                 increased experience                     develop and maintain   2007.
                                 base for future Line                     a list of qualified
                                 Officer assignments.                     line officers for
                                                                          implementation.
                                                                          Incorporate the LO
                                                                          items for increasing
                                                                          their skills and
                                                                          abilities.
L-3c
WFSA Training.--Ensure          Consistent             FAM.............  FAM to work with       Regions
 adequate WFSA training for      application of WFSA                      research.              accomplished
 line officers and fire          development and                         Identify and develop    WFSA training
 management personnel,           alternatives with                        an implementation      using
 focusing on capturing           better decision                          strategy to            centralized
 ``commanders' intent'' in the   making and long-term                     accomplish WFSA        methods.
 development of alternatives     reduction of costs.                      training. Consider    Training is
 as opposed to the technical                                              distance learning      incorporated
 use of WFSA program \5\.                                                 and web-based          into Fire
                                                                          training               Management
                                                                          opportunities.         Leadership
                                                                         Develop a mandatory     (FML) for Local
                                                                          one-day module for     Line Officers.
                                                                          line officer and      Focused on WFDSS
                                                                          fire management        implementation.
                                                                          personnel.
L-4 (recommendation linked to
 GO-3)                          Local units would      LOT, National     LOT to develop         Complete.
Chief's Principle                receive decision       Leadership Team   criteria for roles    CPR's were
 Representative (CPR).--         support from the       (NLT).            and responsibilities   assigned by the
 Assigned by the Chief to        national and                             of CPR.                W.O. to all
 provide decision support on     regional level                                                  fires over $10
 incidents of national           including the use of                                            million.
 significance. This position     a decision support                                             8 CPR's assigned
 would be assigned to any fire   team of experts.                                                in fiscal year
 exceeding or projected to       Provides opportunity                                            2007.
 exceed $10 million of Forest    for mentoring of
 Service (FS) expenditures.      line officers with
Regional Foresters               limited fire                                                   Anything to add
 Representative (RFR):           experience. Goal is                                             about RFRs for
 Assigned by the Regional        to reduce the cost                                              2007 season.
 Forester to provide decision    of long term fires
 support. RFR would be           projected to cost
 assigned to any incident        over $10 million.
 exceeding $5 million of FS
 expenditures.
L-5
Line Officer Authority.--Use    Current WFSA process   LOT, NLT........  FAM develop policy     Approving levels
 current benchmarks of $2        is only authority to                     and criteria for       were not
 million, $10 million and $50    spend--once                              manual change to be    changed.
 million for Line Officer        approved, authority                      approved by NLT.      RFR's were
 approval. Tie this to the       still stays with                                                assigned for
 development of Line Officer     local agency                                                    fires over $5
 competencies in L-3.            administrator.                                                  million.
                                Consistent with                                                 LO training
                                 current chain of                                                provided for
                                 command established                                             complex fire
                                 in the manual.                                                  situations.
                                Ensures
                                 organizational
                                 authority
                                 commensurate with
                                 incident
                                 significance.
                                Improve decision-
                                 making ability at
                                 the onset of an
                                 incident.
L-6
Decision Support (Current).--   Improved decision-     FAM, research,    WO letter to the       The April 19,
 Ensure units develop a fully    making process at      LOT, NLT.         field directing        2007 letter
 considered Most Cost            all phases of                            units to do pre-       from the LOT
 Effective Alternative in the    incident, which will                     season work for WFSA/  included key
 WFSA \6\.                       reduce costs through                     WFIP requirements.     points for the
Emphasis pre-season work for     the duration of the                     Emphasize designation   Line Officers
 WFSA and WFIP development       incident.                                of analysts and pre-   which included
 such as fire costs, historic                                             season updates of      their
 costs and other data layers.                                             WFSA data during       involvement
 This is necessary in order to                                            preparedness reviews.  with WFSA.
 make initial decisions under                                            At a minimum,           Manual
 AMR.                                                                     revalidate WFSAs and   modifications
Ensure WFSA strategy                                                      traditional cost       are ongoing.
 implemented is achievable.                                               benchmarks when team
                                                                          rotations occur.
                                                                          Ensure that IMTs
                                                                          adequately reflect
                                                                          the selected WFSA
                                                                          alternative and DOA
                                                                          as they report daily
                                                                          in the ICS-209.
                                                                         FAM and LOT work
                                                                          toward FSM
                                                                          modifications.
                                                                         Tie in direction set
                                                                          in WO letter into
                                                                          proposed training
                                                                          module.
L-7
Decision Support (Future).--    Improved decision-     FAM, research,    FAM working with LOT   WFDSS and other
 Continue investment and         making process at      LOT.              team and research to   tools were
 expansion of decision support   all phases of         Integrate DOI      ensure decision        available to
 system technologies; FSPro,     incident will reduce   into this         making support is      the field and
 RAVAR, and SCI for use with     costs through the      project.          supported (WFDSS)      used
 Wildland Fire Decision          duration of the                          and provide more       extensively
 Support System (WFDSS).         incident.                                opportunity to         throughout
WFDSS needs to equally          Provides well                             utilize new tools      fiscal year
 consider Fire Use for           documented and                           such as FSPro early    2007.
 resource benefit with other     repeatable protocols                     on.                    Investment is
 suppression-oriented portions   that demonstrate the                    Establish Decision      ongoing. WFDSS
 of AMR. WFSA and WFIP need to   cost effectiveness                       Support Teams to       development is
 be integrated into one          of suppression                           assist units with      continuing.
 product \7\.                    strategies.                              development of        The Forest
                                                                          incident strategies.   Service begins
                                                                          Require FS PRO and     transitioning
                                                                          RAVAR on fires         from WFSA to
                                                                          projected to cost      WFDSS during
                                                                          over $10 million.      fiscal year
                                                                                                 2008 for full
                                                                                                 implementation
                                                                                                 in fiscal year
                                                                                                 2009.
L-8
Stratified Cost Index.--Make    Sets specific          FAM, NLT, LOT,    FAM develop policy     SCI is under
 full use of the SCI for IMT/    benchmarks for cost    research.         and criteria for       development.
 Line Officer evaluations for    containment                              manual change to be    SCI highlighted
 cost efficiency,                regardless of the                        approved by NLT.       problems with
 effectiveness and performance.  socio-political                         Review and develop a    reporting and
Utilization of SCI to            environment.                             guide for              tracking
 establish an incident budget   Data used comes                           implementation of      dollars.
 is required for fires           directly from units                      SCI.                  DOI will begin
 projected to cost over $5      Provides true                            Establish a system to   using SCI in
 million.                        incentive for using                      address the need for   the future as
                                 least cost option                        additional authority   well. Should
                                 under WFSA.                              and provide for        develop an
                                Provides the ability                      incentives and         interagency
                                 to analyze spending                      disincentives.         guide if this
                                 trends of IMTs.                                                 occurs.
                                                                                                 Development of
                                                                                                 performance
                                                                                                 standards for
                                                                                                 line officers
                                                                                                 and Incident
                                                                                                 Management
                                                                                                 Teams is in
                                                                                                 progress.
L-9
Incentives.--Provide            Line Officer           LOT, NLT,         FAM and LOT with       Interagency task
 incentives related to getting   decisions resulting    research.         concurrence of NLT     group
 ``credit'' for acres burned     in lower costs                           to work on policy      established to
 that meet management            should have the                          development.           develop policy.
 objectives whether WFU or       capability of                           Stratified Cost Index   WFLC approved
 suppression. IA effectiveness   directing a                              should be              the shift to
 should also be a measurement    percentage of the                        incorporated.          managing
 based on the Stratified Cost    savings back to                                                 wildland fire
 Index for a particular unit.    their home unit.                                                as wildland
 Federal Fire Policy must be                                                                     fire use and
 changed.                                                                                        suppression
                                                                                                 concurrently 3-
                                                                                                 24-2008.
L-10
Predictive Services for Line    Improved early and     FAM, interagency  FAM to propose study   An interagency
 Officers.--Make Line Officers   successive decision    partners.         on Predictive          review of the
 aware of current tools and      making, leads to                         Services through       predictive
 decision models. Expand the     lower costs on large                     (NFLT). Commit         Services
 use of new decision models,     fires. Better                            resources to expand    organization
 including FSPro, earlier in     effectiveness for                        predictive             was completed.
 the decision-making process.    initial attack.                          capabilities, make     A national
                                 Improved national                        services widely        program is
                                 mobilization of                          available.             developed and a
                                 resources.                              Expand and redefine     charter was
                                Also relates to                           the objective of       signed this
                                 operational                              Predictive Services.   year.
                                 recommendations.                         Include operations    FSPro was used
                                                                          staff in discussions.  widely in
                                                                                                 fiscal year
                                                                                                 2007.
L-11
Comptroller.--Developed as a    Assists Line Officers  Associate Deputy  Establish policy and   Complete.
 National Inter-Deputy Command   in managing            Chief S&PF, NLT.  roles for the Inter-   Implemented in
 Group to provide large fire     suppression costs.                       Deputy Command Group.  fiscal year
 and transactional oversight.   Transactional                            The position will       2007 and
Inter-Deputy group is            oversight will                           develop a set of       continuing in
 comprised of Deputy Chief for   result in cost                           accountability         fiscal year
 State and Private Forestry      savings associated                       measures to be         2008.
 (SPF), Deputy Chief for         with ABCD                                reviewed at all       Developed as a
 National Forest System (NFS),   miscellaneous funds,                     levels..               National Inter-
 Director of Fire and Aviation   DOI/FS offset, etc.                                             Deputy Command
 Management (FAM), and                                                                           Group to
 Director of Program and                                                                         provide large
 Budget Analysis (PBA).                                                                          fire and
                                                                                                 transactional
                                                                                                 oversight.
                                                                                                Inter-Deputy
                                                                                                 group is
                                                                                                 comprised of
                                                                                                 Deputy Chief
                                                                                                 for State and
                                                                                                 Private
                                                                                                 Forestry (SPF),
                                                                                                 Deputy Chief
                                                                                                 for National
                                                                                                 Forest System
                                                                                                 (NFS), Director
                                                                                                 of Fire and
                                                                                                 Aviation
                                                                                                 Management
                                                                                                 (FAM), and
                                                                                                 Director of
                                                                                                 Program and
                                                                                                 Budget Analysis
                                                                                                 (PBA)
L-12
Cost Containment Reviews.--     Implementation of SCI  FAM, fiscal.....  FAM request fiscal to  Cost containment
 Modify current cost             and AMR may                              drop requirement.      review begins
 containment review team         eliminate the need                                              when the
 process. Begin the process at   for post-event cost                                             incident begins
 onset of the incident.          containment reviews.                                            by utilizing
                                                                                                 decision
                                                                                                 support tools
                                                                                                 and predictive
                                                                                                 modeling, RFR,
                                                                                                 and CPR.
                                                                                                Forest Service
                                                                                                 developed and
                                                                                                 utilized a
                                                                                                 Large Fire Cost
                                                                                                 Review
                                                                                                 Guidebook in
                                                                                                 fiscal year
                                                                                                 2007. An
                                                                                                 interagency
                                                                                                 guidebook is in
                                                                                                 review.
L-13
Cost Containment Training.--    Ensures consistency    Interagency       FAM (AD for risk       Regional pre-
 Assess existing training to     of cost containment    training          management) review     season meetings
 ensure cost containment is a    training nationwide    groups.           LFML curriculum for    held discussing
 focus, particularly among       which translates                         appropriate level of   cost
 cadres currently working on     into clearer                             cost containment.      containment and
 revisions to curriculum.        expectations in the                                             decision making
                                 DOA to the IMT from                                             specific to
                                 the Line Officer.                                               fire. Two
                                                                                                 training
                                                                                                 sessions for
                                                                                                 OIG reviewers
                                                                                                 were held in
                                                                                                 fiscal year
                                                                                                 2007. Two more
                                                                                                 were held in
                                                                                                 fiscal year
                                                                                                 2008.
L-14
Structure Protection.--         Consistent             USDA-FS, USDI,    WO FAM policy          A letter was
 Evaluate current structure      understanding of       State, and        discussion with NWCG.  sent to the
 protection policies to          roles and              local            Develop National        field
 determine better utilization    responsibilities in    governments.      Wildland Fire          transmitting
 of local rural fire             the Wildland Urban                       Policy.                the policy in
 departments for increased       Interface.                              Define the mission in   the FSM on
 capacity.                                                                the Wildland Urban     August 13,
                                                                          Interface as defined   2007. This will
                                                                          in the National Fire   be discussed at
                                                                          Plan.                  NWCG in fiscal
                                                                                                 year 2008.
L-15
MAFFS.--Over the past 5 years,  The new MAFFS units    Department of     Chief discuss with     Task group
 Modular Airborne Firefighting   will provide for an    Defense (DOD),    Secretary of           associated with
 Systems (MAFFS) operations      opportunity to         FAM,              Agriculture for        the aviation
 have continued to increase in   streamline             interagency.      potential              feasibility
 cost due to military adding     operations on both                       implementation.        study is
 requirements. Explore           sides and would                         Initiate discussion     reviewing this.
 utilization of MAFFS through    facilitate                               with DOD to identify   Information
 different venues such that      additional cost                          potential              will be
 cost savings can be realized.   efficiencies.                            efficiencies in the    submitted by
 Pursue cost sharing with       Potential Cost                            mobilization,          the end of
 military rather than full       Savings: $5 million.                     support, and           2007.
 reimbursement.                                                           demobilization of     MAFFS were not
                                                                          the MAFFS operations.  utilized in
                                                                         Explore venues in the   2007--discussio
                                                                          private sector for     ns occurred at
                                                                          use with MAFFS.        National Multi-
                                                                                                 Agency
                                                                                                 Coordination
                                                                                                 Center (NMAC)
                                                                                                 to ensure cost
                                                                                                 savings
                                                                                                 remained a
                                                                                                 focus item.
                                                                                                Estimated
                                                                                                 savings of
                                                                                                 $955,000 per
                                                                                                 week for a
                                                                                                 period of at
                                                                                                 least 8 weeks.
----------------------------------------------------------------------------------------------------------------


                                 MANAGEMENT CONTROL AND EFFICIENCIES: OPERATIONS
----------------------------------------------------------------------------------------------------------------
    Management controls and
         efficiencies                  Benefits        Parties involved     Action required          Status
----------------------------------------------------------------------------------------------------------------
                                              Aviation OperationsAO-1
National Helicopter             Immediate savings      Dispatch,         Assistant Director     Completed.
 Coordinator.--Lack of real      through utilization    aviation          for Operations to      Employee start
 time field intelligence for     of appropriate         community, end    NICC Coordinator.      date 04/27/
 appropriate tracking and        helicopter resources.  users.           Establish a permanent   2008.
 assignment of helicopter       Potential Cost                            full-time position    Total savings
 resources.                      Savings: $2-3                            for helicopter         estimated $15-
                                 million annually \8\.                    oversight and to       20 million by
                                                                          manage the             managing the
                                                                          Helicopter Cost        exclusive use
                                                                          Efficiency Program     and limiting
                                                                          (HCEP) database.       Call When
                                                                                                 Needed (CWN).
AO-1a
Performance-Based Aircraft      Best performing        Dispatchers,      FAM will modify        HCEP program
 Dispatching.--Frequently,       resource for field     Acquisition       current aircraft       updates
 dispatched aircraft do not      conditions will        Management        dispatching            identified
 meet operational performance    provide most           (AQM), Agency     practices to           after beta test
 needs in the field.             efficient and cost     Aircraft          implement best-value   currently
                                 effective              Inspectors, end   aircraft dispatching   underway. New
                                 utilization.           users.            tool called            version
                                Potential Cost                            Helicopter Cost        scheduled for
                                 Savings.--$1.5                           Efficiency Program     field use in
                                 million annually \9\.                    (HCEP). Develop        2008.
                                                                          communication
                                                                          strategy to gain
                                                                          field acceptance
                                                                          immediately.
AO-1b
Centralization (C&C) of         Reduction in severity  FAM, dispatch,    FAM Director will      Type 1 and Type
 Exclusive Use Helicopters.--    costs by linking       Predictive        initiate decision      2 helicopters
 Utilization of aircraft will    resources to           Services,         and begin              are now
 be based on Predictive          Predictive Services.   Assistant         implementation         consolidated
 Services. All helicopters       This would also        Director for      strategy.              into two
 will be considered national     reduce the use of      Operations.      Remove regional         national
 resources rather than           CWN resources.                           boundaries for         contracts.
 National Fire Management       Potential Cost                            aircraft utilization.  Managed as
 Analysis System (NFMAS) model   Savings.--$1.5                                                  national shared
 of Most Efficient Level         million based on                                                resources.
 resources \10\.                 reduction of CWN
                                 aircraft
                                 mobilization under
                                 severity needs.
AO-2
Exclusive Use Helicopters.--    The addition of        FAM, AQM........  Review Type III costs  Completed.
 Utilize the ``Wildland Fire     exclusive use                            with intent to add     Appropriate
 Management Aerial Application   helicopters will                         additional Type III    number of Type
 Study'' (August 2005) to        increase                                 helicopters for        1 and 2
 determine the number of Type    preparedness costs,                      exclusive use.         helicopters
 I and Type II Exclusive Use     but will result in a                    Reduce CWNs.            determined for
 helicopters to be added to      substantial                                                     maximum cost
 the system.                     reduction in                                                    efficiency
                                 suppression costs                                               based on actual
                                 due to fewer CWN                                                use statistics.
                                 helicopters.                                                    Aircraft have
                                Potential Cost                                                   been contracted
                                 Savings: $39.8                                                  under AO-1b
                                 million ($6.1                                                   recommendation.
                                 million for Type II
                                 aircraft, $33.7
                                 million for Type I
                                 aircraft) \11\.
AO-3
Performance-Based Contracts.--  Improved               AQM, Department   Revise the             Completed.
 Helicopter contracts are        effectiveness of the   of the Interior   contracting system     Linear
 currently awarded based on      airframes in the       (DOI), vendors.   by implementing the    optimization
 antiquated aircraft typing      field, resulting in                      best value             model developed
 criteria.                       cost reductions in                       helicopter             for technical
                                 price/lb delivery.                       performance-based      evaluation and
                                 We would obtain more                     contracting.           best-value
                                 modern aircraft with                    FAM submit request      award for
                                 better safety                            for contract action    national
                                 features. Improved                       and performance        helicopter
                                 customer service and                     based requirements     contracts.
                                 support during                           to AQM.
                                 dispatching process.
                                Potential Cost
                                 Savings: $581,000
AO-4
Long-Term Aviation Contracts.-- Services will cost     FAM, AQM,         FAM submit request     Completed. 2008
 Develop long term contracts     less due to greater    industry,         for contract action    large airtanker
 to achieve an overall           availability of        interagency.      and requirements to    contract is a 5
 reduction in helicopter and     aviation resources.                      AQM. Look at adding    year fixed
 airtanker costs.                Longer contracts are                     additional Exclusive   length.
                                 more cost effective.                     Use helicopters.       National
                                 Provides industry                       Explore partnerships    helicopter
                                 stability, thereby                       across regional and    contracts are
                                 creating a greater                       agency boundaries as   transitioning
                                 incentive to invest                      well as multi-         to a 4 year
                                 in new technology.                       mission capability.    cycle.
                                Potential Cost
                                 Savings: $4.8
                                 million for 180 day
                                 contracts, $24
                                 million for 5 year
                                 contracts.
AO-5
Limiting Aviation Resources.--  More resources for     FAM, Incident     FAM will establish     Geographic Multi-
 Consider limiting/re-           initial attack or      Management        benchmarks for long    Agency
 evaluating use of aviation      reassignment. Forces   Teams, NLT.       term aviation use.     Coordination
 resources as an incident        consideration of                         Justify extended use   Center (GMAC)
 increases in scale and          aviation needs/costs                     under WFSA             managed
 duration and costs approach     in strategy                              alternative.           helicopters at
 benchmarks.                     development on long                                             the geographic
                                 term incidents.                                                 area level in
                                Potential Cost                                                   fiscal year
                                 Savings: $3 million                                             2007. Also,
                                 per \1/4\ incident                                              utilized
                                 time \12\.                                                      priority
                                                                                                 setting
                                                                                                 criteria for
                                                                                                 moving
                                                                                                 helicopters
                                                                                                 around.
                                                                                                 Established
                                                                                                 long-term fire
                                                                                                 plans for
                                                                                                 incidents to
                                                                                                 efficiently
                                                                                                 utilize all
                                                                                                 resources.
                                                                                                 Ongoing.
AO-6
Airtanker Base Efficiency.--    Cost savings as a      FAM, airtanker    Identify appropriate   Airtanker base
 Airtanker base infrastructure   result of reduced      base personnel,   blend of aircraft      efficiency
 has not changed with the        facility expenses      retardant         types for year-round   study completed
 decrease of available large     and a decrease in      contractors.      versus partial         in 2007.
 airtankers.                     FTEs.                                    contract. Convert      Awaiting
                                                                          bulk contracts to      decision on
                                                                          full-service           implementation.
                                                                          contracts for
                                                                          existing bases.
                                                                          Evaluate existing
                                                                          bases for re-
                                                                          designation as
                                                                          mobile or reload
                                                                          bases.                                               Ground OperationsGO-1
Severity Funds.--Consider       Allows for longest     Fiscal, FAM.....  FSM, Letter of         Letter to the
 applying a cap to approvals     distribution of                          Instruction.           field Limiting
 of no more than $1 million      severity funds over                     Review use of ABCD      severity
 per pay period or a             season nationally                        Miscellaneous          authorizations
 percentage of the WFPR          and displays                             Accounts in lieu of    by Region May,
 allocation for each Regional    assertive management.                    severity requests.     2007.
 severity request.              Review of ABCD                           Pre-positioned NSRs    Allocated a
                                 Miscellaneous                            in lieu of severity    ceiling of $30
                                 accounting will                          when available.        million and
                                 bring everyone to                                               moved authority
                                 parity and                                                      around as
                                 consistent                                                      needed.
                                 implementation.                                                Actual severity
                                Potential Cost                                                   spent about \2/
                                 Savings: $21 million                                            3\ of $35
                                 \13\                                                            million
                                                                                                 ceiling.
GO-2
National Shared Resources       Consistent definition  Mobilization      Strategy Operations    Included the
 (NSR).--Treat these resources   of NSRs. Efficient     System, Fire      Plan, National         utilization of
 without regional boundaries,    process of             Operations, MAC   Operations Plan.       national shared
 and move to areas based on      mobilization.          Group. While     Reconsider definition   resources in
 projections by Predictive       Process provides for   interagency in    of National Shared     the national
 Services. Depending on          consistent use of      scope, can be     Resources.             operations
 planning Levels, hold a         ABCD Miscellaneous     implemented FS-- Centralize funding      plan. NMAC
 percentage of NSRs at each      funds and reduced      only through      and management of      moved IHC's
 level for IA rather than        severity needs.        Assistant         national cache         when needed due
 large fire support.            Simultaneous increase   Director for      system.                to potential
                                 in percentage of       Operations.      Hold funding for NSRs   activity or
                                 resources held for                       at the national        critical fire
                                 IA with increased                        level instead of       needs.
                                 planning levels.                         distributing to       Funding has not
                                National level                            local units.           been held at
                                 funding ensures                          Establish agreements   the national
                                 consistent use of                        with host units to     level yet for
                                 NSR funds across                         cover fixed costs.     these resources
                                 regions.                                                        or the caches
                                Increases National                                               due to the
                                 flexibility in the                                              issue of WO
                                 assignment of                                                   ceiling.
                                 resources.                                                      Discussions
                                Increases                                                        need to take
                                 availability of                                                 place between
                                 resources by                                                    FAM and PBA.
                                 eliminating                                                    DOA from Chief
                                 concentration of                                                of FS, Deputy
                                 resources in a                                                  Secretary of
                                 geographic area.                                                Interior,
                                                                                                 Administrator
                                                                                                 of U.S. Fire
                                                                                                 Administration,
                                                                                                 and President
                                                                                                 of National
                                                                                                 Association of
                                                                                                 State Foresters
                                                                                                 to NMAC on 6/19/
                                                                                                 07.
GO-3 (recommendation linked to
 L-4)                           Provides additional    FAM, Predictive   Immediate direction    Decision Support
National Operational             expertise to local     Services,         to NIMO Incident       Group was
 Oversight.--Provide review of   Line Officers in       National          Commanders (ICs)       assigned with
 incident strategy from          making strategic       Incident          from WO.               the RFR and the
 organizational level above      decisions on           Management       Develop a national      CPR. NMAC
 the Line Officer.               potential mega         Organization      operations decision    utilized a
                                 fires. Early           (NIMO).           support group.         support group
                                 strategic decisions                      Supply Chiefs          to provide
                                 significantly                            Principle              intelligence
                                 influence long term                      Representative as      for decision
                                 fire costs.                              decision support       making.
                                                                          with team.
GO-4
Incident Complexity.--Many      Keeping an incident    Type III          Letter from WO,        NWCG engaged the
 incidents can be managed        at Type III can        organization:     through NLT,           IOSWT to review
 safely and effectively under    reduce costs.          FAM, NLT.         mandating each         complexity and
 a Type III organization.       Potential Cost         Complexity         Forest/sub-            team typing.
 Current complexity analysis     Savings: $1.5 to 10    analysis:         geographic area        NWCG will
 occasionally leads to a         million per incident   National          establish a Type III   continue to
 higher level incident           that does not go to    Wildfire          organization.          work on this.
 management team than needed.    T1/T2.                 Coordinating     FAM request to NWCG     Will review the
                                                        Group (NWCG).     to revise current      capability in
                                                                          complexity analysis    each region
                                                                          to reduce ambiguity    this winter.
                                                                          and better
                                                                          differentiate
                                                                          between various
                                                                          incident levels.
GO-5
Length of Assignment.--The      Reduces mobilization   NWCG, LOT, FAM..  FS recommend through   Area Commands
 current 14-day rotation is      costs, improves                          NWCG changes to        assigned this
 not optimal for NSRs and        transition-related                       Redbook,               season will
 IMTs, including Area Command.   safety issues and                        Mobilization Guide,    recommend a
 Manage fatigue in order to      promotes better                          FSM, and FSH.          review at the
 gain optimal utilization of     local community                         IMTs adopt methods to   NMAC/GMAC end
 resources assigned to an        relations.                               monitor accidents,     of year
 incident.                      Potential Cost                            illnesses, and other   meeting.
14-day rotation policy will      Savings: $1.7                            safety concerns       Pacific
 continue to apply to other      million annually                         throughout             Northwest (PNW)
 resources.                      \14\.                                    incidents. Safety      used longer
                                                                          Council would assist   assignments.
                                                                          in monitoring         NIMO 30 days
                                                                          accidents, trends      <greek-e> 3.
                                                                          and near misses and
                                                                          facilitate peer-
                                                                          reviews.
GO-6
Constrained Resources.--        Increased efficiency   FAM, NLT, NMAC..  Request development    Have not
 Constrain resources to an       by requiring a true                      and implementation,    officially
 incident to eliminate           prioritization of                        through GMAC, of a     initiated this
 concentration of resources on   actions and                              ``Stratified           request.
 a few incidents and increase    assignment of                            Resource Index.''     However
 resource availability to a      resources by the IMT/                    Analysis would         Geographic
 wider range of incidents.       Line Officer.                            determine the          Areas utilized
Assign a set number of          Equalizes the use/                        ``average'' number     long term
 resources based on planning     availability of                          of resources that      planning
 levels to an incident.          resources during                         would be assigned to   relative to
Assignment of additional         major weather events                     an incident            their incidents
 resources would be approved     across geographic                        commensurate with      and implemented
 at GMAC or NMAC levels and      areas.                                   conditions and         this philosophy
 only after an analysis         Increases National                        resource values.       by moving
 assisted by FS Pro and RAVAR    and geographic area                     Develop and implement   resources
 that develops an alternative    flexibility in                           a ``constrained        internally to
 in the WFSA for the specific    assignment of                            resource approach''    assist in
 conditions and duration of      resources.                               in the assignment of   managing fires
 use.                           Develops a                                firefighting           during peak/
                                 suppression resource                     resources to           critical times.
                                 baseline to serve as                     incidents that        Area Commanders
                                 a foundation for                         progress beyond the    will develop a
                                 constraining the                         extended attack        recommendation
                                 number of resources                      stage.                 on a process to
                                 made available to an                                            be adopted
                                 incident.                                                       nationally.
GO-7
Coordination Centers.--With     Fewer intermediate     Mobilization      Related to fiscal      Dispatch
 full implementation of ROSS,    stops in dispatch      system,           year 2008 Dispatch     Feasibility
 is the need for the current     system may reduce      interagency       Feasibility Study.     Study was
 number of Geographic Area       cost as well as        partners.        Consider re-            completed. No
 Coordination Centers            provide for resource                     engineering of         decision as of
 necessary?                      order filling                            mobilization system    3/1/08. Outcome
                                 efficiencies.                            from 3 Tier to 2       of study will
                                Potential Cost                            Tier Mobilization.     help determine
                                 Savings: $650,000                                               where
                                 per unit \15\.                                                  efficiencies
                                                                                                 will be gained
                                                                                                 and
                                                                                                 implemented.
GO-8
Standardization.--Identify      Standardization will   Engineering, FAM  FAM to work with       The Fleet
 efficiencies that may be        reduce long term                         engineering to         Feasibility
 gained through engine           costs of fleet                           establish a national   Study is
 standardization. All            management, due to                       policy for engine      completed, but
 geographic area needs will be   standardization of                       standardization and    has not been
 considered in the selection     equipment.                               develop a series of    released.
 of standard models.                                                      common models to be   FAM will
                                                                          used nationally.       establish a
                                                                                                 small task
                                                                                                 group to
                                                                                                 develop
                                                                                                 recommendations
                                                                                                 for fleet make-
                                                                                                 up and
                                                                                                 standardization
                                                                                                 for engines.
GO-9
Review Traditional              Allow all resources    NWCG or consider  Formal FAM request to  A request has
 Operations.--Review             to be configured in    contracting the   NWCG.                  not been made
 traditional organization, use   the most cost          development and  Establish a study       yet to NWCG.
 and structure of Area           efficient manner       review or         group to perform
 Command, IMTs and NSRs.         possible.              utilize NIMO.     review. Consider
                                                                          multi-mission, year-
                                                                          round capability,
                                                                          size, configuration,
                                                                          etc. Consider
                                                                          contracting the
                                                                          development and/or
                                                                          the review.
GO-10
Local Resources.--Incorporate   Using local resources  USFS leadership   WO FAM policy          Geographic Areas
 local fire agencies into the    would reduce costs     with  NASF.       discussion with NWCG.  utilized local
 IA and extended attack          related to                              Develop strategy to     resources per
 organization for each           mobilization of                          pilot initial attack   their
 National Forest.                national resources.                      support through        established
                                 Local resources                          local government.      agreements.
                                 provide immediate                                              FAM strategy
                                 and often less                                                  development is
                                 expensive support                                               on-going.
                                 \16\.
GO-11
Contract for Contingency        Contracting provides   AQM, GSA, NICC..  FAM should identify    FAM is working
 Resources.--Look into           for additional                           critical shortages     with
 development of contracting      resources where                          and needs--            contracting to
 buying teams, logistics and     critical shortages                       coordinate with AQM    develop the
 planning modules,               exist. This relates                      to develop contract    requirements.
 particularly for all-hazard     more to resource                         packages.              Will be
 support.                        availability than to                                            submitting a
                                 direct cost savings.                                            request for
                                                                                                 contract action
                                                                                                 in 2008.
GO-12
Smokejumper Program.--          Greater efficiency     FAM, DOI........  Annually update        ADFF was
 Reevaluate smokejumper          for Initial Attack                       National Operations    completed in
 program and all its support     would promote long-                      Plan.                  December 2007.
 requirements for cost/          term savings.                           Complete and            Results will
 benefits. Include the number                                             Implement ADFF         feed the NIAC
 of bases necessary to support                                                                   Phase 3 and the
 a national program with                                                                         aviation
 delivery systems.                                                                               feasibility
                                                                                                 study group for
                                                                                                 potential
                                                                                                 strategies and
                                                                                                 recommendations
                                                                                                 .
----------------------------------------------------------------------------------------------------------------


                                MANAGEMENT CONTROLS AND EFFICIENCIES: MANAGEMENT
----------------------------------------------------------------------------------------------------------------
    Management controls and
         efficiencies                  Benefits        Parties involved     Action required          Status
----------------------------------------------------------------------------------------------------------------
M-1
Hazardous Fuels Support.--      Increased              FAM, fire         Identify internal and  Have not begun
 Support hazardous fuel          productivity,          operations,       interagency            this.
 treatments among agencies       standardization, and   fuels, and        capability to form
 with internal and interagency   efficiencies to both   interagency       and mobilize
 resources. Identify more        suppression and        partners. FS-     resources. Expand
 efficient business practices    hazardous fuels        only: implement   ROSS capability to
 to facilitate this.             organizations.         through           meet this need.
                                Reduced overhead        Assistant        Initiate discussions
                                 costs                  Director for      with DOI and FS Fire
                                Increased               Operations and    Directors to review
                                 coordination among     Assistant         cross billing policy
                                 interagency partners   Director for      to allow for better
                                 at the local level.    Fuels.            utilization of
                                                                          resources as the
                                                                          local level.
M-2
Return on Training              Reduced reliance upon  Interagency       Risk management AD     Initiated review
 Investment.--Focus training     administratively       community, but    begin needs analysis   of training
 dollars to meet the needs of    Determined (AD)        can be started    for FS in 2007.        curriculum and
 critical shortage positions.    personnel and          FS-only          Develop requirement     qualifications.
Assign mobilization targets      contractors to         immediately.      for personnel to       Began gathering
 (e.g. 50 percent of red-        compensate for lack                      utilize completed      data relative
 carded personnel respond to     of available                             training. Require      to number
 incidents).                     resources.                               trainees to complete   qualified and
                                Better utilization of                     training assignments   what positions.
                                 training funds for                       as early in the       Utilized the
                                 target positions                         season as possible.    qualifications
                                 based on needs                          GACCs will work with    system and ROSS
                                 analysis.                                their partners to      in fiscal year
                                                                          ensure adequate        2007 to assist
                                                                          training               the regions
                                                                          opportunities on       with personnel
                                                                          IMTs.                  for
                                                                                                 assignments.
M-3
Long Term Fire Behavior         Provide skills         FAM, HR.........  FAM work with HR to    LTANs were
 Analyst (LTAN).--Currently a    necessary to                             consider possibility   provided with
 critical shortage of LTANs.     evaluate the latest                      of incentives to       in the national
 Long term planning skills are   technology for                           encourage additional   and regional
 critical for the successful     consideration of                         LTAN training.         support groups
 implementation of AMR.          long term strategies.                                           to assist with
 Operational decision-making    Increased decision                                               decision
 needs to consider the full      support for AMR.                                                making.
 range of AMR.                   Decision makers will                                           Have not
                                 be able to quantify                                             initiated
                                 values, costs and                                               anything with
                                 benefits, as well as                                            HR. Depending
                                 short and long term                                             on M-2 and the
                                 effects.                                                        success of
                                                                                                 fiscal year
                                                                                                 2007 season
                                                                                                 practices, may
                                                                                                 move forward
                                                                                                 with HR.
M-4
Mega Fires.--Work with          Potential cost         Research, FAM...  FAM to request         On-going
 research to evaluate past       savings if early                         research focus.        project.
 mega-fires to compare           stage decisions can                                             Results of
 investments to resource         be identified that                                              report will be
 protection to identify and      contribute to mega-                                             shared and
 establish the thresholds for    fire status.                                                    evaluated for
 diminishing returns.                                                                            implementation.
M-5
Fire and Aviation Facility      Eliminate costly       National Fire     Proposal developed     Although haven't
 Realignment.--Develop a         facilities that no     and Aviation      and presented to       started this
 process similar to the          longer meet our        Executive Board   WFLC for action.       process, some
 military's Base Realignment     primary needs of       (NFAEB),                                 is related to
 and Closure (BRAC) to           rapid mobilization     engineering,                             the aviation
 evaluate on an interagency      of NSRs.               legislative                              feasibility
 basis needed facilities and    Potential Cost          affairs.                                 study and the
 recommend realignment and       Savings.--$50                                                   priority
 closures for cost saving        million estimated                                               setting for
 benefits.                       initial reduction.                                              funding
                                                                                                 requests for
                                                                                                 facility
                                                                                                 maintenance.
M-6                                                                                             ................
Cost-Benefit of IFPM.--Better   Potential cost         Training          FAM..................
 understand the true long term   savings of training    Officers, FAM.   Conduct a cost
 costs and benefits of IFPM.     dollars with long                        benefit analysis of
                                 term cost savings                        IFPM
                                 possible.                               Assess continuing
                                                                          education needs
                                                                          relative to job
                                                                          function. e.g., fire
                                                                          management,
                                                                          Emergency
                                                                          Coordination Center
                                                                          (ECC) managers,
                                                                          safety
                                                                          professionals, etc.
M-7
Contracting.--identify the      Reduce overall cost    FAM, AQM........  Continue work already  FESSA group
 appropriate procurement tool    of obtaining                             started by Fire        established a
 for obtaining contracted        equipment and                            Equipment Services     procurement
 resources in order to           services through pre-                    and Supplies           plan for
 influence costs by              planning, formal                         Acquisition (FESSA)    standardization
 competition and best value.     competition and                          and NWCG through the   of equipment
                                 standardization.                         Incident Business      for procurement
                                                                          Practices Working      procedures. New
                                                                          Team (IBPWT).          program is
                                                                          Establish standards,   being developed
                                                                          specifications and     to facilitate
                                                                          requirements in        hiring and
                                                                          order to gain          utilization of
                                                                          efficiency in          contracted
                                                                          procurement and        services/
                                                                          tactical utilization.  equipment.
                                                                         Develop Virtual
                                                                          Incident Procurement
                                                                          System (VIPR).
M-8
Medical Standards.--Review      Reduce potential       Interagency,      AD for Risk            The program is
 Medical Standards Program       redundancy for         Unions.           Management discuss     being reviewed
 with an emphasis on reducing    measuring health                         combining              on an
 costs and complexity.           capacity.                                requirements to        interagency
 Evaluate the possibility of                                              eliminate              basis. Some
 including the work capacity                                              duplication with       changes are
 test under MSP.                                                          Medical Standards      being
                                                                          Team.                  implemented
                                                                                                 during the 2008
                                                                                                 season.
M-9
ASC/ISO Impacts.--With the      Mitigations conducted  Business          Evaluate the true      The Branch Chief
 centralization of the ASC,      by fire management     Operations,       needs of an incident   for Incident
 support to fire for critical    are costly and could   FAM, ISO.         for communication      Business worked
 positions has become a          be reduced through                       and finance support    with ASC to
 concern (particularly           greater partnership                      needs.                 facilitate
 communications and finance      with ASC.                               Preparation of          personnel
 support).                                                                service level          support on
ASC--Albuquerque Service                                                  agreement              incidents. ASC
 Center                                                                                          staff toured a
ISO--Information Solutions                                                                       couple of fires
 Organization                                                                                    to gain an
                                                                                                 understanding.
                                                                                                 The IBPWT will
                                                                                                 submit a
                                                                                                 proposal to
                                                                                                 NWCG requesting
                                                                                                 they evaluate
                                                                                                 current
                                                                                                 business
                                                                                                 practices in
                                                                                                 the Finance
                                                                                                 section, and
                                                                                                 identify
                                                                                                 methods to
                                                                                                 change the
                                                                                                 business where
                                                                                                 efficiencies
                                                                                                 can be gained.
----------------------------------------------------------------------------------------------------------------
\1\ Briefly describe the issue followed by the proposed control and/or efficiency. With this protocol other
  solutions or opportunities might become apparent.    \2\ Describe the benefits. Actual cost savings may be
  known or possible to gather in this venue but describe how the actual dollar savings would be determined.
  \3\ Who has ownership and who needs to be involved with the coordination?    \4\ Include who, what, and when
  any documents or manuals, handbooks etc. that would have to be changed would be here.    \5\ All WFSA
  recommendations can be cross-referenced to TriData report.    \6\ Congressional Intent from 2005
  Appropriations language.    \7\ Dependent upon changes in Federal Wildland Fire Policy as identified in the
  AMR management efficiency description.    \8\ Implementing this position as an FTE would also save $50,000
  annually in salary, travel and lodging for detailers to maintain the helicopter database.    \9\ Based on
  historic utilization of local CWN and Exclusive Use Type 3 helicopters, each region could save $100,000 to
  $150,000.    \10\ This links to the discussion of NSRs in Operations section.    \11\ Based on conversion of
  25 Type I and 25 Type II contracts.    \12\ Estimate based on reducing aviation resources every one-quarter of
  incident time. Figures utilized from Tripod incident.    \13\ Calculated using a 2 percent cap per Regional PR
  budget.    \14\ Estimate based on 51 rotations total with 50 people per team. Estimated cost per mobilization/
  demobilization is $100,000.    \15\ Estimate based on salary/support costs of $400,000 and $250,000 rent/
  utilities.    \16\ See 12/2003 NAPA Report ``Utilizing Local Firefighting Forces.''

    Fire and Aviation Management Recruitment and Retention Analysis

                         [USDA Forest Service]

                              introduction
    This report is in response to the following language in the 
Explanatory Statement accompanying the Consolidated Appropriations Act 
of 2008 (Public Law 110-161).

    ``The Appropriations Committees are aware that the Forest Service 
is facing challenges to recruit and retain wildland firefighters in 
Region 5, particularly on southern California forests, due to the 
agency's vastly different pay scales and personnel policies and the 
high cost of living in the region. The Forest Service should examine 
Federal firefighter pay and personnel policies and provide the House 
and Senate Committees on Appropriations with a proposal to increase 
recruitment and retention for southern California forests no later than 
February 1, 2008.''

    The Forest Service (FS) appreciates the patience of the 
Appropriations Committees in allowing Region 5 and the national 
headquarters to develop a thorough analysis of this complex set of 
issues. The dynamics studied in this proposal are controversial and 
will not be solved quickly or easily. For that reason, our proposal 
includes a series of long term suggestions to address the issues 
identified above.
    It is important to note two things about the national context 
surrounding this report. First, the efficacy of Forest Service initial 
attack response has not diminished. The success continues to stay 
around 98 percent for all initial attack incidents. The agency is 
committed to maintaining this high level of success. Second, recent 
increases in Fire Suppression expenditures have been well documented, 
as has the resulting impact on other agency programs. In response, 
Forest Service leadership has aggressively implemented cost containment 
measures, resulting in decreased Suppression costs in fiscal year 2007. 
It is essential that the proposals related to Region 5 firefighter 
recruitment and retention support both continued initial attack success 
and cost containment efforts.
    The issues highlighted by this report will continue to be closely 
monitored.
                            issues examined
    The issues examined in the report are widely circulated and are 
frequently polarizing; therefore the methods used to complete the 
analysis relied on data from a variety of sources. Rates of attrition 
were from Region 5 records, Forest Service Human Capital records and 
the Office of Personnel Management. Pay data was from employees' W-2's 
both CAL FIRE and U.S. Forest Service. The reasons for leaving were 
provided from exit interviews in Region 5.
    Forest Service Human Capital Management staff reviewed pay act and 
authorities and determined there are actions available locally, 
regionally and nationally. The Regional Forester and other line 
officers have discretion in the application of these authorities.
    There is a perception, as noted by the Appropriations Committees 
and confirmed through informal employee sensing, the Forest Service 
faces recruitment and retention challenges in southern California. 
While a detailed analysis shows the region has some retention 
challenges, it also suggests the problems are manageable.
    A 10-year analysis of permanent fire workforce in Region 5 reveals 
several important trends.
    (1) The total number of permanent Fire and Aviation Management 
staff in the region nearly doubled between 1997 and 2007, from 1,257 to 
2,290. An 82 percent increase indicates successful recruitment efforts, 
not the opposite.
    (2) In 2007 the Region 5 Fire and Aviation Management staff 
experienced 370 retirements, resignations and transfers. However, 
recruitment resulted in a net gain of 68 employees, or 3 percent.
    (3) The overall Forest Service attrition rate in southern 
California (9.4 percent) is actually lower than the national Federal 
attrition rate (13.4 percent).
    These statistics indicate that recruitment is outpacing attrition 
in Region 5. Furthermore, attrition within southern California is well 
within national averages. Based on these trends, it appears that 
recruitment and retention are within expected norms. However, there are 
areas within the statistics cited above which deserve closer 
examination, and which the proposals of this report will address.
    First, the largest component of separations within the Region 5 
Fire and Aviation Management organization come at the GS-4 level, where 
the attrition rate is 46.6 percent. Attrition rates above the GS-4 
level do not differ significantly from regional or national averages.

    FIGURE 1.--ATTRITION RATES BY GRADE IN SOUTHERN CALIFORNIA, REGION 5, FOREST SERVICE AND FEDERAL SERVICE
                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                                             Pacific       Forest
                            Grade                               Southern    Southwest     Service      Federal
                                                               California     Region        wide       service
----------------------------------------------------------------------------------------------------------------
GS-04.......................................................         46.6         32.1         23.6      ( \1\ )
GS-05.......................................................          8.7         10.9         12.3      ( \1\ )
GS-06.......................................................          3.9          2.9          2.1      ( \1\ )
GS-07.......................................................          4.2          2.4          1.5      ( \1\ )
GS-08.......................................................          1.1          0.7          0.3      ( \1\ )
GS-09.......................................................          1.1          1.2          0.9      ( \1\ )
GS-11.......................................................          0.2          0.6          0.6      ( \1\ )
Overall.....................................................          9.4          7.2          6.3        13.4
----------------------------------------------------------------------------------------------------------------
\1\ UNK
Notes:
    Includes series only 0462 and 0401 both fire and non fire positions.
    Data retrieved from NFC Reporting Center.
    Southern California includes Angeles, Cleveland, Los Padres, and San Bernardino National Forests.
    The rate of attrition for Cal Fire is currently unknown.

    Second, a higher percentage of separations are due to resignations 
(as opposed to retirement or transfers) than the regional or national 
average (Figure 2). Exit interviews indicate that 44 percent of those 
leaving the Forest Service went to CAL FIRE or local fire departments 
(Figure 3).
Figure 2: Resignations as a Percentage of Total Separations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Third, these trends are most pronounced on the Angeles National 
Forest and the San Bernardino National Forest, which saw the most 
resignations of any Region 5 forests. Of the resignations on these two 
forests in 2007, 45 percent were at the GS-4 level, and 61 percent went 
to State, county or local fire departments. The attrition rates for the 
two forests were 12.2 percent and 9.3 percent in 2007, according to 
Region 5 data.
Figure 3. Reason for Leaving Forest Service

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          pay scales, cost of living , and personnel policies
    Local perception, as noted by the Appropriations Committees, is 
Forest Service pay scales and personnel policies, coupled with the high 
cost of living in southern California, make it difficult to attract and 
retain Fire and Aviation Management workforce in the region. Upon 
closer examination, the perception of the effects of pay scale and 
personnel policy discrepancies and high cost of living appears to be 
unsupported by the data.
Pay Scales
    Comparison of Forest Service and CAL FIRE payment and hours worked 
data for 2007 suggests that actual hourly rates of pay are comparable. 
It was difficult to determine the appropriate metric for comparison as 
the pay, staffing and personnel policies differed greatly. Wages as 
shown on W-2 forms were chosen as a measure. Cal Fire employees on 
average for the three positions examined worked about 62 percent more 
hours (4,457 v. 2,768) than their Forest Service counterparts. The 
comparison of pay and hours is not straight forward due to personnel 
policy differences, such as portal-to-portal pay and planned overtime 
that guarantee Cal Fire firefighters more total hours annually.
    Nonetheless, when accounting for all hours worked, overtime and 
hazard pay rates (see Figure 4):
  --Average pay of Firefighter II is $2.81/hour higher in FS than CAL 
        FIRE
  --Average pay of Fire Engineer is $5.36/hour higher in FS than CAL 
        FIRE
  --Average pay of Fire Captain is $7.08/hour higher in FS than CAL 
        FIRE
    Although Forest Service hourly pay is equal or higher, staffing 
plans guarantee CAL FIRE employees more hours and consequently more pay 
annually. In addition, Cal Fire employees work a 72 hour, three day 
shift, benefit from 24 hour pay while on fire assignments, and have a 
more generous retirement plan. Federal wildland fire staffing is 
closely tied to the threat of wildland fire activity, which occurs 
within a defined season. To ensure initial attack success and public 
safety during the fire season at the most reasonable cost to taxpayers, 
the Forest Service uses variable staffing, seasonal aviation 
contracting and seasonal employees.

                       FIGURE 4.--PAY COMPARISON CAL FIRE AND U.S. FOREST SERVICE (HOURS)
----------------------------------------------------------------------------------------------------------------
                                                     Additional                                          Average
                                         Base pay    base hours     Planned    Unplanned     Annual      hourly
                                                    included \1\   overtime    overtime   compensation    rate
----------------------------------------------------------------------------------------------------------------
Cal Fire FFTR II \2\..................     (2,080)    \1\ (676)        (988)       (561)      (4,305)     $15.04
                                           $33,324                   $16,973     $14,463      $64,760
USFS SoCal FFTR II \3\................     (2,080)  ............  ..........       (838)      (2,918)      17.85
                                           $35,014                               $21,082      $56.096
Cal Fire Engineer.....................     (2,080)    \1\ (676)        (988)       (734)      (4,478)      18.50
                                           $39,900                   $20,322     $22,633      $82,855
USFS SoCal Engineer...................     (2,080)  ............  ..........       (548)      (2,628)      23.86
                                           $44,987                               $17,716      $62,702
Cal Fire Captain......................     (2,080)    \1\ (676)        (988)       (844)      (4,588)      20.63
                                           $43,776                   $22,296     $28,572      $94,644
USFS SoCal Captain....................     (2,080)  ............  ..........       (679)      (2,759)      27.71
                                           $51,360                               $25,078      $76,438
----------------------------------------------------------------------------------------------------------------
\1\ Included.--Means money is included in base salary number. Cal Fire calculates base pay and overtime (planned
  and unplanned) in accordance with their bargaining unit agreement.
\2\ Full Time Employee.
\3\ Seasonal Employee.

    The data in the table above (figure 4) was developed from actual 
2007 W-2 data randomly selected from a sample of Forest Service 
employees in southern California. It includes overtime and hazard pay. 
The Cal Fire data is actual 2007 compensation provided by their agency. 
Cal Fire employees do not receive hazard pay. The average hourly rate 
is computed by dividing the total compensation by the total hours 
worked. Unplanned overtime is highly variable for employees of both 
agencies.
    Forest Service employees at the GS-04 and 05 grades are Permanent 
Seasonal employees either 13/13 or 18/08 (guaranteed at least 13 pay 
periods or 18 pay period of employment out of a total of up to 26). Cal 
Fire employees are all full time employees.
    Cal Fire employees work a 72 hour schedule each week which is paid 
as 53 base hours and 19 planned overtime hours. Any time in excess of 
212 in a 28 day period is paid as unplanned overtime.
    It should be noted the two agencies have very different work 
schedule expectations and pay rules therefore actual compensation was 
averaged to determine the unplanned overtime.
Cost of Living
    Analysis performed by the Office of Personnel Management (OPM) 
indicates that Federal employees in southern California do experience 
pay disparities compared to non-Federal workers. However, Los Angeles 
and San Diego are not the only localities where this is true, nor do 
they experience the most severe disparities. In fact, the pay disparity 
in Los Angeles is below the national average, and San Diego's is 
comparable. Below is a table of 2007 pay disparities for comparison.

------------------------------------------------------------------------
                                                             Disparity
                        Locality                              Percent
------------------------------------------------------------------------
Atlanta.................................................           23.21
Boston..................................................           25.35
Chicago.................................................           23.06
Dallas..................................................           22.42
Los Angeles.............................................           21.82
New York................................................           26.67
Phoenix.................................................           25.02
San Diego...............................................           25.20
San Francisco...........................................           28.62
Seattle.................................................           23.39
Washington DC...........................................           36.30
Average (all of United States)..........................          22.97
------------------------------------------------------------------------
(http://www.opm.gov/oca/payagent/2007/PayDisparities.asp

Personnel Policies
    Comparing personnel policies of Federal wildland fire agencies with 
local and State fire agencies is complex. While it is natural for 
employees to compare their job descriptions, compensation, and benefits 
with those of similar workers in close proximity, there are also 
important distinctions and valid differences between them. Forest 
Service fire management personnel in southern California and across the 
Nation are Forestry Technicians. This title reflects their land 
management orientation. In the course of their work, they collaborate 
with State and local employees of fire departments. This is a subtle 
but key difference. Even though both Federal wildland firefighters and 
fire department firefighters focus on fire, the mission purposes of the 
agencies differ, and so too do the roles and responsibilities of their 
respective personnel. Fire departments generally have an emergency 
responder role that includes traffic collisions, medical calls and 
other actions that are not wildland fires. That is to say, the Forest 
Service is a land management agency that employs wildland firefighters 
to accomplish land management objectives, while the mission of fire 
departments personnel focus on preserving life and property. Because of 
differing responsibilities, it is both impossible and inappropriate for 
the Forest Service to pay and staff the same way as these fire 
departments. For example the Forest Service does not allow fire 
fighters to enter structures to suppress these fires.
    The tendency of our employees, partners and the public to compare 
Forest Service fire management responsibilities to State and local fire 
departments points to a larger issue the agency is facing regarding the 
need for a clear mission and definition of responsibilities for our 
firefighters in the wildland urban interface. Fires in recent years 
have become larger and more difficult to control due to a variety of 
factors, including climate change, historic fire suppression efforts 
resulting in increased density of hazard fuels, and expansion of 
residences in the wildland urban interface (WUI). This situation is 
acutely felt in southern California where over 189,000 new homes have 
been built since 2003 in the Wildland/Urban interface. This growth 
poses a higher level of complexity on Wildland firefighting in fire 
adapted ecosystems. Therefore, the agency must clearly express its 
emergency response role, and clarify distinctions between State and 
local fire department.
                            proposed actions
    The analysis outlined above suggests that the perceptions around 
recruitment and retention in southern California are hard to 
substantiate based on data. An analysis of available data confirms that 
while issues regarding perceptions around recruitment and retention in 
southern California may exist, they cannot be objectively 
substantiated. Absent such substantiation, recommendations that the 
Office of Personnel Management depart from standard Federal pay rates 
or the agency seek other special personnel authorities are unwarranted. 
Further, such actions may have the unintended consequence of negatively 
affecting recruitment and retention elsewhere in the Nation.
    Accordingly, key actions to be undertaken immediately by the Forest 
Service will be internal and external communication around these 
findings:
  --Region 5's Fire & Aviation Management recruitment rate is greater 
        than its attrition rate.
  --The attrition rate in southern California is below national 
        averages.
  --On average, Forest Service hourly pay rates are actually greater 
        than those for comparable CAL FIRE positions.
  --Federal workers in southern California are paid less than their 
        counterparts in the private sector, but other parts of the 
        country experience similar or worse rates of disparity.
    In the course of this analysis, additional issues outside the scope 
of the requested report have become evident; clearly there are morale 
issues which need leadership's attention and action. We refrained from 
making recommendations addressing these in the report as it is outside 
the scope of the committee's request. Additionally, these morale issues 
will take more time to review, validate and resolve. Leadership will 
focus attention on this important area and will keep the committees 
apprised of the situation and the progress to resolve the issues.
    In addition to increased communication around key issues, the 
Forest Service will consider specific long-term actions. These 
recommendations will consider potential morale and budget impacts 
resulting from providing special benefits solely to firefighters in 
southern California. Changing public and agency perceptions and 
ensuring employee morale will require active management over years. The 
recommendations below may be tools in that process.
  --Review and strengthen commitment to Wildland fire mission with 
        Federal, State, and local partners.
  --Strategically apply individual retention allowances and/or special 
        pay authorities within the discretion of the agency.
  --Encourage use of optional work schedules and tours of duty.
  --Improve employee housing and working facilities.
  --Improve communications connectivity, training, and access.
  --Determine cost and feasibility of special pay in identified high 
        cost areas.
  --Renegotiate cooperative agreements to provide more equity for 
        Forest Service employees.
  --Monitor issues identified and adjust as necessary.

    Mr. Rey. The Secure Rural Schools and Community Self-
Determination Act of 2000 was enacted to provide transitional 
assistance to rural counties affected by the decline in revenue 
from timber harvests in Federal forests. That legislation was 
extended for an additional seventh year under the terms of 
Public Law 110-28.
    The 2009 budget of the Forest Service includes a 
legislative proposal that provides $200 million above the 
current baseline for a 4-year extension of the legislation, and 
that proposal was included with our budget. The 2009 budget 
focuses resources on national forest and grassland 
responsibilities, which we've talked about at length already 
today, but it also reflects redesigned State and Private 
Forestry program approach.
    Funding is proposed in the 2008 farm bill in addition for 
purposes and activities similar to those supported by the State 
and Private Forestry program. The Conservation, Forestry, and 
Energy titles of the farm bill authorize nearly $10 billion in 
incentives to State and local governments and nonindustrial 
private forest landowners to pursue conservation, forest 
restoration, and biomass energy.
    I will submit for the record a summary of what's included 
in each, the administration, the House, and the Senate farm 
bill proposals.
    [The information follows:]

          2008 FARM BILL USDA/HOUSE/SENATE SIDE BY-SIDE SUMMARY
------------------------------------------------------------------------
 Item  USDA proposal summary      House summary        Senate summary
------------------------------------------------------------------------
 T8-1 No comparable         Sec. 8001 National    Sec. 8001 National
       provision.            Priorities for        Priorities for
                             Private Forest        Private Forest
                             Conservation.--Amen   Conservation.--Very
                             ds Cooperative        similar language to
                             Forestry Assistance   House version.
                             Act (CFAA) to
                             establish 3
                             priorities:
                              (1) Conserving and
                               managing working
                               forests.
                              (2) Protecting and
                               restoring forests
                               from a range of
                               threats.
                              (3) Enhancing
                               public benefits
                               from private
                               forests.
                              Secretary must
                             submit report on
                             outcomes to
                             Congress by 2011.
 T8-2 Sec. 8002             Sec. 8002 Long-Term,  Sec. 8004.
       Comprehensive         State-wide            Comprehensive
       Statewide Forest      Assessments and       Statewide Forest
       Planning.--Authoriz   Strategies for        Planning.--Directs
       es up to $65          Forest Resources.--   States to do
       million for States    States must do        assessments of
       to produce            assessments of        forest resource
       comprehensive         forest resource       conditions as a
       forest plans that     conditions as a       requirement to
       identify critical     requirement to        receive funds for
       forest landscapes     receive funds for     CFAA programs.
       and set management    all CFAA programs.    Similar to House
       priorities            Assessments           language, but
                             coordinated among     includes:
                             State forester or     Establishment
                             equivalent, State     clause directing
                             forest stewardship    Secretary to create
                             coordinating          the planning
                             committee, State      program; specifies
                             wildlife agency and   that community
                             State technical       wildfire protection
                             committee. Can use    plans should be
                             up to $10 million     considered in the
                             in available funds.   assessment; a plan
                                                   for achieving the
                                                   national priorities
                                                   (sec. 8001);
                                                   clarifies that the
                                                   Statewide plan
                                                   replaces all CFAA
                                                   planning and
                                                   assessment
                                                   requirements; must
                                                   also coordinate
                                                   with Federal land
                                                   management agencies
                                                   and the State lead
                                                   agency for the
                                                   Forest Legacy
                                                   Program. Authorizes
                                                   $10 million.
 T8-3 Sec. 8001 Community   No comparable         Sec 8002 Community
       Forests Working       provision.            Forest and Open
       Lands Program.--                            Space Conservation
       Authorizes up to                            Program.--Provides
       $65 million per                             financial support
       year in technical                           for acquisition of
       and financial                               community forests
       assistance for                              and emphasized
       local communities                           technical
       to purchase and                             assistance to
       manage community                            communities.--The
       forests.                                    program would be a
                                                   competitive grant
                                                   process open to
                                                   tribes, local
                                                   governments, or non-
                                                   profit land trusts.
                                                   There is a 50
                                                   percent cost-share
                                                   requirement. The
                                                   community forests
                                                   should provide
                                                   economic,
                                                   environmental,
                                                   educational
                                                   technical
                                                   assistance, and
                                                   recreational
                                                   benefits. The
                                                   program requires
                                                   that community
                                                   forests are open to
                                                   public access and
                                                   managed consistent
                                                   with the purposes
                                                   of the program. Up
                                                   to 10 percent of
                                                   program funds are
                                                   available to State
                                                   foresters or
                                                   equivalent tribal
                                                   officials for
                                                   program
                                                   administration and
                                                   technical
                                                   assistance.
 T8-4 No comparable         Sec. 8003 Assistance  Sec. 8005 Assistance
       provision.            to the Federated      to the Federated
                             States of             States of
                             Micronesia, the       Micronesia, the
                             Republic of the       Republic of the
                             Marshall Islands,     Marshall Islands,
                             and the Republic of   and the Republic of
                             Palau.--Amends CFAA   Palau.--Identical
                             by striking, ``the    language to House
                             Trust Territory of    version.
                             the Pacific
                             Islands'' and
                             inserting, ``the
                             Federated State of
                             Micronesia, the
                             Republic of the
                             Marshall Islands,
                             the Republic of
                             Palau''.
 T8-5 No comparable         Sec. 8004 Changes to  No comparable
       provision.            Forest Resource       provision.
                             Coordinating
                             Committee.--Modifie
                             s and expands the
                             Forest Resource
                             Coordinating
                             Committee at
                             Secretary level to
                             include the chiefs
                             of FS and NRCS and
                             administrators of
                             FSA and CSREES. Non-
                             Federal reps with 3-
                             year terms include
                             3 State foresters
                             or equivalent, a
                             representative from
                             a State technical
                             committee State
                             fish and wildlife
                             agency, NIPF owner,
                             Industry,
                             conservation orgs.,
                             land grant
                             university,
                             consultants, and
                             others. Coordinates
                             national efforts to
                             NIPF landowners.
                             Clarifies roles and
                             responsibilities--a
                             dvises on
                             allocation of
                             competitive funds,
                             and provides annual
                             report to Secretary
                             and Congress.
 T8-6 No comparable         Sec. 8005 Changes to  No comparable
       provision.            State Forest          provision.
                             Stewardship
                             Coordinating
                             Committees.--Replac
                             es requirement for
                             a statewide forest
                             stewardship plan
                             with statewide
                             assessment and
                             strategies for
                             forest resources.
                             State committees
                             make
                             recommendations on
                             the statewide
                             assessment. Adds a
                             representative from
                             the State technical
                             committee.
 T8-7 No comparable         No comparable         Sec. 8003 Forest
       provision.            provision.            Legacy
                                                   Applications.--Amen
                                                   ds CFAA by stating
                                                   applications
                                                   submitted by Indian
                                                   tribes do not have
                                                   to pass through the
                                                   State coordinating
                                                   committee.
 T8-8 No comparable         Sec. 8006             No comparable
       provision.            Competition in        provision.
                             Programs Under
                             Cooperative
                             Forestry Assistance
                             Act of 1978.--
                             Requires a portion
                             of CFAA funds, as
                             determined by the
                             Secretary, be
                             available
                             competitively to
                             State foresters.
                             State foresters are
                             the only eligible
                             entity. Secretary
                             to consult with new
                             forest resource
                             coordinating
                             committee to
                             determine
                             competitive
                             allocation of funds.
 T8-9 Sec. 8003 Landscape   Sec. 8007             No comparable
       Scale Competitive     Cooperative Forest    provision.
       Grant Program.--      Innovation
       Authorizes up to      Partnership
       $30 million per       Projects.--No more
       year in competitive   than 5 percent of
       grants for large,     CFAA funding for
       landscape scale       innovative
       forest conservation   national, regional,
       and restoration       or local education,
       projects.             outreach, or tech-
                             transfer projects
                             to meet the
                             national
                             priorities. Must
                             have 50 percent
                             cost share,
                             including in-kind
                             donations. Funds
                             eligible to States,
                             tribes, local
                             gov't, land-grant,
                             or private entities.
T8-10 No comparable         Subtitle B--          Conservation Title
       provision.            Amendments to Other   Sec. 2331 Healthy
                             Laws                  Forest Reserve
                            Sec. 8101 Healthy      Program.--Reauthori
                             Forest Reserve        zed through 2012.
                             Program               Changes language
                             Reauthorized until    from ``an easement
                             2012. Sec. 508.       of not more than 99
                             Funding. Authorizes   years'' to ``a
                             $10,000,000 in        permanent
                             funding.              easement.''
                                                   Authorizes ``such
                                                   sums as are
                                                   necessary''.
T8-11 No comparable         Subtitle B--          Conservation Title
       provision.            Amendments to Other   Sec. 2398 Emergency
                             Laws                  Landscape
                            Sec. 8102 Emergency    Restoration
                             Forest Restoration    Program.--Available
                             Program.--Provides    to NIPF owners to
                             Emergency Forest      restore landscapes
                             Restoration Program   damaged by fire,
                             for development and   drought, flood,
                             implementation        hurricane force or
                             plans of NIPF         excessive winds,
                             owners who have       ice storms or
                             sustained loss or     blizzards, or other
                             damage to forest      resource-impacting
                             from fire,            natural events.
                             hurricanes, storms,   Priority for
                             drought, insects,     activities
                             disease, or           protecting human
                             invasive species.     health and safety.
                             Plan addresses        Funding subject to
                             reforestation,        appropriation. Up
                             restoration, BMPs     to 75 percent cost
                             and stewardship. Up   share.
                             to 75 percent cost-
                             share, but not more
                             than $50,000/year
                             per owner. Owner
                             has 10 years to use
                             funds. Allows NIPF
                             lands to be
                             eligible for
                             emergency
                             restoration funds
                             if the Secretary
                             determines that
                             insects or diseases
                             pose an imminent
                             threat of loss or
                             damage to those
                             lands. Funding
                             would be through an
                             emergency
                             supplemental.
T8-12 Sec. 8202 Office of   Sec. 8101 Office of   Sec. 8202 Office of
       International         International         International
       Forestry.--Extends    Forestry.--Reauthor   Forestry.--Reauthor
       the authorization     ized through 2012.    ized through 2012.
       for appropriations
       (does not specify
       amount) through
       2012 for the Office
       of International
       Forestry
       (International
       Programs).
T8-13 Sec. 8203 Rural       Sec. 8104 Rural       No comparable
       Revitalization        Revitalization        provision.
       Technologies.--Auth   Technologies.--Iden
       orizes                tical Language--
       appropriations of     reauthorized
       $5 million for each   through 2012. This
       fiscal year 2008-     authority is used
       2012 for the Forest   to administer the
       Products Lab to       biomass utilization
       accelerate adoption   grants..
       of technologies
       using biomass and
       small-diameter
       materials and
       provide assistance
       and information to
       small businesses.
T8-14 Sec. 8201 Renewable   Included in Research  Sec. 8201 Renewable
       Resources Extension   Title. Extends        Resources Extension
       Activities.--Author   authority through     Activities.--Reauth
       izes $30 million      2012.                 orized through 2012
       for each fiscal                             at $30 mil each
       year 2008-2012 for                          fiscal year.
       the Renewable
       Resources Extension
       Program
       administered by
       CSREES through
       State universities
       to provide
       technical
       assistance to
       landowners.
T8-15 No comparable         No comparable         Sec. 8101
       provision.            provision.            Definitions.--Provi
                                                   des definitions for
                                                   Indian, Indian
                                                   tribe, and National
                                                   Forest System that
                                                   will be used under
                                                   Subtitle B of this
                                                   bill--Tribal-Forest
                                                   Service Cooperative
                                                   Relations.
T8-16 No comparable         No comparable         Sec. 8111 Forest
       provision.            provision.            Legacy Program.--
                                                   Amends CFAA to
                                                   allow include
                                                   Indian tribes to
                                                   participate in the
                                                   Forest Legacy
                                                   Program. Tribes are
                                                   eligible to receive
                                                   grants to carry out
                                                   FLP projects.
T8-17 No comparable         No comparable         Sec. 8112 Forestry
       provision.            provision.            and Resource
                                                   Management
                                                   Assistance for
                                                   Indian Tribes.--
                                                   Authorizes the
                                                   Secretary to
                                                   provide assistance
                                                   to tribes to access
                                                   NFS land for
                                                   religious and
                                                   cultural reasons,
                                                   and coordinate
                                                   resource
                                                   management.
                                                   Authorizes
                                                   conservation
                                                   education projects
                                                   and technical
                                                   assistance on
                                                   Indian forest
                                                   lands. Directs
                                                   Secretary to
                                                   develop rules
                                                   within 18 months in
                                                   coordination with
                                                   tribes and DOI.
T8-18 No comparable         No comparable         Sec. 8121. Purposes--
       provision.            provision.            Cultural and
                                                   Heritage
                                                   Cooperation
                                                   Authority (Secs.
                                                   8121-27).--Authoriz
                                                   es reburial of
                                                   tribal remains on
                                                   NFS lands, provides
                                                   access to NFS land
                                                   and forest products
                                                   for cultural
                                                   purposes, and
                                                   prevents the
                                                   disclosure of
                                                   burial site
                                                   locations and other
                                                   sensitive
                                                   information.
                                                   Authorizes the
                                                   temporary closure
                                                   of NFS land for
                                                   cultural purposes.
T8-19 No comparable         No comparable         Sec. 8122.
       provision.            provision.            Definitions.--Provi
                                                   des definitions for
                                                   terms used in this
                                                   Subsection.
T8-20 No comparable         No comparable         Sec. 8123 Reburial
       provision.            provision.            of Human Remains
                                                   and Cultural
                                                   Items.--Authorizes
                                                   the reburial of
                                                   human remains and
                                                   cultural items,
                                                   including those
                                                   repatriated under
                                                   NAGPRA (25 USC 3001
                                                   et seq.) on NFS
                                                   land. Prevents
                                                   unauthorized
                                                   disclosure of
                                                   information on
                                                   burial sites.
T8-21 No comparable         No comparable         Sec. 8124 Temporary
       provision.            provision.            Closure for
                                                   Traditional and
                                                   Cultural Purposes.--
                                                   The Secretary shall
                                                   ensure access by
                                                   Indian tribes to
                                                   NFS land. The
                                                   Secretary may, to
                                                   the maximum extent
                                                   practicable and for
                                                   the minimum period
                                                   of time,
                                                   temporarily close
                                                   from public access
                                                   specifically
                                                   designated NFS land
                                                   to protect the
                                                   privacy of tribal
                                                   activities for
                                                   traditional and
                                                   cultural purposes.
T8-22 No comparable         No comparable         Sec. 8125 Forest
       provision.            provision.            Products for
                                                   Traditional and
                                                   Cultural Purposes.--
                                                   Authorizes the
                                                   Secretary to allow,
                                                   to the maximum
                                                   extent practicable,
                                                   access to NFS land
                                                   by Indians and
                                                   Indian tribes for
                                                   traditional and
                                                   cultural purposes.
T8-23 No comparable         No comparable         Sec. 8126
       provision.            provision.            Prohibition on
                                                   Disclosure.--Author
                                                   izes Secretary to
                                                   protect
                                                   confidentiality of
                                                   certain
                                                   information,
                                                   including
                                                   information this
                                                   culturally
                                                   sensitive to Indian
                                                   tribes.
T8-24 No comparable         No comparable         Sec. 8127
       provision.            provision.            Severability and
                                                   Savings
                                                   Provisions.--Preser
                                                   ves all existing
                                                   tribal rights, all
                                                   existing agreements
                                                   among tribes and
                                                   the FS, existing
                                                   trust
                                                   responsibilities,
                                                   and other
                                                   outstanding rights
                                                   to use of NFS
                                                   lands.
T8-25 No comparable         Sec. 8201 Hispanic-   No comparable
       provision.            Serving Institution   provision.
                             Agricultural Land
                             National Resources
                             Leadership
                             Program.--Competiti
                             ve grants to
                             Hispanic serving
                             institutions for
                             undergraduate
                             scholarship
                             programs in
                             forestry. Promotes
                             professional work
                             in Federal and
                             State agencies in
                             natural resources.
                             Authorized ``such
                             sums as may be
                             necessary''.
T8-26 No comparable         No comparable         Sec. 8203 Green
       provision.            provision.            Mountain National
                                                   Forest Boundary
                                                   Adjustment.--Author
                                                   izes small
                                                   modification of the
                                                   boundary of Green
                                                   Mountain National
                                                   Forest.
T8-27 No comparable         No comparable         Sec. 8204 Prevention
       provision.            provision.            of Illegal Logging
                                                   Practices.--Amends
                                                   the Lacey Act
                                                   Amendment to
                                                   include trees in
                                                   the definition of
                                                   ``plant''.
T8-28 No comparable         No comparable         Sec. 8205 Sale and
       provision.            provision.            Exchange of
                                                   National Forest
                                                   System Land,
                                                   Vermont.--Authorize
                                                   s sale/exchange of
                                                   certain parcels of
                                                   land on the Green
                                                   Mountain NF in
                                                   Vermont.
T8-29 No comparable         No comparable         Sec. 8301 Qualifying
       provision.            provision.            Timber Contract
                                                   Options.--Allows
                                                   the Secretary to
                                                   cancel or re-
                                                   determine
                                                   qualifying timber
                                                   contracts if the
                                                   rate at which a
                                                   qualifying contract
                                                   would be advertised
                                                   on the date of an
                                                   enactment of this
                                                   language is at
                                                   least 50 percent
                                                   less than the
                                                   original purchased
                                                   rate of the
                                                   contract.
      Sec. 8201 Forest
       Wood to Energy
       Program.--Mandates
       $15 million per
       year for
       accelerating the
       development of
       renewable energy
       from woody biomass--
       including
       cellulosic ethanol
       and other
       bioenergy.\1\
------------------------------------------------------------------------
      \1\ Energy Title.--Similar provisions included in House and Senate
        Energy Titles.


    Mr. Rey. I think the point I'm trying to draw here is that, 
in evaluating the State and Private Forestry budget, you have 
to put it alongside the farm bill proposal, because what we are 
proposing to do is to broaden the reach of some of the 
conservation title programs to make them accessible to serve 
some of the interests that the State and Private Forestry 
functions of the Forest Service serve.
    So just looking at the 2009 Forest Service budget proposal 
doesn't give you the full picture of all of that proposed 
activity.

                           PREPARED STATEMENT

    In closing, then, I'd like to respond to Senator 
Alexander's question. We have, as have our colleagues at the 
Department of the Interior, evaluated in the past whether it 
makes sense to try to establish a separate firefighting agency. 
What we have concluded is that doing that then separates the 
firefighting function from the land management function, and 
probably doesn't buy you much in the way of program reforms or 
advantages. The issue of appropriate funding for firefighting 
would still remain even if that kind of change was made.
    With that, I'll turn the podium over to Chief Kimbell.
    [The statement follows:]
                   Prepared Statement of Mark E. Rey
                                overview
    Madam Chairman and members of the subcommittee, I appreciate the 
opportunity to discuss the President's fiscal year 2009 budget for the 
Forest Service during today's hearing. I am pleased to join Forest 
Service Chief Gail Kimbell at this hearing today.
    In my testimony, I will discuss three issues that relate to the 
2009 budget. First, I will address Wildland Fire programs and 
management reforms. Next, I will address the need to provide 4 years of 
further transitional assistance to rural counties that received 
benefits under Secure Rural Schools and Self-Determination Act of 2000. 
Finally, I will discuss the redesign of Forest Service State and 
Private Forestry programs and related Federal investments proposed in 
the 2008 farm bill.
                             wildland fire
    The 2009 budget proposes a total of $1.977 billion for Wildland 
Fire Management programs, including $994 million for Suppression, $588 
million for Preparedness, $297 million for Hazardous Fuel Reduction, 
and continued funding for other National Fire Plan activities. 
Additionally, the Forest Service is adopting significant management 
reforms to ensure equitable fire suppression cost sharing between 
Federal and other firefighting entities, fully implement risk-informed 
Appropriate Management Response, and enact cost containment 
accountability throughout Wildland Fire programs.
    The 2007 fire season illustrated the continued success of the 
Forest Service fire organization, but also the challenges we face. 
Fires in recent years have become larger and more difficult to control 
due to a variety of factors, including climate change, historic fire 
suppression efforts resulting in increased density of hazard fuels, and 
expansion of residences in the wildland urban interface (WUI). As a 
result, fire activity in 2007 was above normal by many standards. 
Across all jurisdictions, wildland fires totaled more than 78,000 
incidents burning over 9 million acres. Thirteen different fires burned 
over 100,000 acres each, and the Nation was in Preparedness Level 5 for 
33 days--the highest level of fire activity during which several 
geographic areas are experiencing simultaneous major incidents. Despite 
more fires than in 2006 and a 49 percent increase in acres burned, the 
cost of suppressing Forest Service fires was $127 million lower in 2007 
due to aggressive implementation of Appropriate Management Response and 
other cost containment measures.
    The southern California fires at the end of the 2007 fire season 
further exemplified the successful coordination and risk mitigation 
activities that have made the Forest Service fire organization a model 
the world over. Compared to similar events in 2003, the 2007 fires had 
more fire starts (271 compared to 213) and more large fires that 
escaped initial attack (20 compared to 14), yet much less resulting 
damage. Only 65 percent as many acres were burned, 60 percent as many 
structures were destroyed, 60 percent as many firefighters were 
injured, and 40 percent as many civilian fatalities occurred compared 
to 2003. Improvements are attributable to pre-positioning efforts, 
investments in hazardous fuels treatments and community capacity, and 
coordination with other Federal, State, and local entities.
    In spite of these signs of success, the 2007 fire season still 
resulted in nearly $1.4 billion of expenditures on fire suppression. As 
application of Federal firefighting resources on both Federal and non-
Federal land has grown, annual suppression expenditures escalate, as 
does the 10-year average of annual fire suppression expenditures, which 
determines the program's budget request. The 2009 Fire Suppression 
request is $994 million, over $250 million higher than it was just 2 
years ago, and nearly $150 million more than the current enacted level. 
The total Wildland Fire Management program, including continued focus 
on the National Fire Plan, makes up over 48 percent of the agency's 
discretionary budget request. The Forest Service is adopting 
substantive management reforms to mitigate this cost trend.
    In fiscal year 2009, the Wildland Fire Management program will 
continue to improve performance through attention to policy, training, 
oversight, decision support tools, and after action performance 
analysis. Management policy is set at the national level, and provides 
clear guidance for the role of Federal firefighters in the Wildland 
Urban Interface. Management policy also provides strategies of 
Appropriate Management Response, expectations concerning national 
shared resources and aviation resource cost management, and limitations 
to Severity funding. Mandatory training keeps agency administrators up 
to date on national policy. During an incident, the Chief's Principal 
Representative provides oversight, while decision support tools such as 
RAVAR and FSPro offer the incident commander information on fire spread 
probability, resource values at risk, and historic costs for similar 
fires. After action reviews, including use of the Stratified Cost 
Index, provide lessons and best practices to include in subsequent 
updates to management policy. This performance improvement process 
resulted in lower than projected suppression expenditures in 2007, and 
will enable the agency to maintain Fire Preparedness resources within a 
$588 million program budget, a decrease of $77 million from 2008.
    Several additional wildfire management reforms are based on 
recommendations of a USDA Office of Inspector General report that 
examined large fire suppression costs. The report documented 
inequitable apportionment of fire protection responsibilities between 
Federal and local entities in residential areas that abut national 
forests. In response, the Forest Service is renegotiating master 
protection agreements to clarify roles and ensure equitable and 
appropriate allocation of wildland urban interface firefighting costs 
between the agreement parties. Additionally, the Forest Service will 
implement a science-based methodology to encourage the cost-effective 
practice of using unplanned wildfires to reduce hazardous fuels when 
appropriate.
    We expect that the management improvements implemented and underway 
will make managers better prepared for wildfires; facilitate better 
decision making during firefighting operations; and provide the tools 
necessary to analyze, understand and manage fire suppression costs. 
While the factors of drought, fuels build-up in our forests and 
increasing development in fire prone areas have the potential to keep 
the number of incidents and total cost of wildfire suppression high for 
some time to come, we are confident in our strategy to address wildland 
fire suppression costs and are committed to action. We believe that the 
measures discussed today promise to expand efficiency and reduce 
suppression costs. We look forward to continued collaboration with our 
Federal, State, local, tribal, and other non-Federal partners to 
address our shared goal of effectively managing wildfire suppression 
costs.
continuing transitional support to rural communities through extension 
                    of secure rural schools payments
    The Secure Rural Schools and Community Self-Determination act of 
2000 (SRS) (Public Law 106-393) was enacted to provide transitional 
assistance to rural counties affected by the decline in revenue from 
timber harvests in Federal lands. Traditionally, these counties relied 
on a share of receipts from timber harvests to supplement local funding 
for school systems and roads. Funding from SRS has been used to support 
more than 4,400 rural schools and to help maintain county road systems. 
In addition SRS has authorized the establishment of over 55 Resource 
Advisory Committees (RAC) in 13 States, which has increased the level 
of interaction between the Forest Service, local governments, and 
citizens--resulting in greater support and understanding of the 
agency's mission. The Forest Service has distributed more than $2.5 
billion under this legislation since 2001 to assist counties in 
maintaining and improving local schools and roads. Of this amount, $213 
million have been used by RACs to implement more than 4,400 resource 
projects on national forests and grasslands and adjacent non-Federal 
lands.
    Though the Secure Rural Schools Act expired in 2006, Congress 
extended payments for a 7th year under Public Law 110-28. The final 
year of payments were made in December 2007, and included distribution 
of more than $389 million in Forest Service revenue to 41 States and 
Puerto Rico for improvements to public schools, roads and stewardship 
projects.
    The 2009 budget underscores the President's continuing commitment 
to States and counties impacted by the ongoing loss of receipts 
associated with lower timber harvests on Federal lands. The Budget 
includes a legislative proposal that provides $200 million above the 
current baseline for a 4-year extension of USDA and Department of the 
Interior forest county safety net payments, which will be targeted to 
the most affected areas, capped, adjusted downward each year, and 
phased out. For administrative convenience, USDA will make the payments 
on behalf of both agencies. Offsets for the administration's proposal 
are provided within the topline of the President's Budget throughout 
the Department of Agriculture and elsewhere. For the 2008 payment (to 
be made in 2009), the administration continues to be prepared to work 
with Congress to identify mutually agreeable offsets.
              state and private forestry program redesign
    The 2009 budget focuses resources on national forest and grassland 
responsibilities, but it also reflects a redesigned State and Private 
Forestry program approach.
    The State and Private Forestry program connects the agency's 
research and public lands-based programs to those of States and private 
individuals and entities. Through a coordinated effort in management, 
protection, conservation education, and resource use, State and Private 
Forestry programs help facilitate sound stewardship across lands of all 
ownerships on a landscape scale, while maintaining the flexibility for 
individual forest landowners to pursue their objectives.
    In fiscal year 2007, the Forest Service and the National 
Association of State Foresters agreed to redesign State and Private 
Forestry. The intent of the redesign is to focus and prioritize 
resources to better shape and influence forest land use on a scale and 
in a way that optimizes public benefits from trees and forests for 
current and future generations. The foundation for the redesign 
approach is a national assessment of conditions, trends, and 
opportunities relevant to forests of all ownerships. The initial phase 
of national implementation has begun, including a new competitive 
process for a portion of S&PF funds. The Forest Service has committed 
to monitor implementation of the redesign approach, facilitate an 
annual review, and implement changes as needed.
    As a result, the Forest Service will prioritize work using the best 
available technology and information focused on three national themes: 
(1) Conserve working forest landscapes; (2) Protect forests from harm; 
and (3) Enhance benefits from trees and forests. Comprehensive 
assessments will be conducted at the State and national levels to 
identify conditions, threats, and ecosystem services. The assessments 
will then be used to integrate program delivery with partners through a 
variety of tools and approaches and ensure appropriate skills and 
organizational structures are in place to support priority work.
    In addition, funding is proposed in the 2008 farm bill for purposes 
and activities similar to those supported by State and Private Forestry 
programs. The Conservation, Forestry, and Energy titles of the farm 
bill authorizes nearly $10 billion in incentives to States, local 
governments, and nonindustrial private forest landowners to pursue 
conservation, forest restoration, and biomass energy. The products and 
process of State and Private Forestry redesign have helped focus 
collaborative efforts around important national priorities which will 
also receive significant attention and support in the 2008 farm bill.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

    Senator Feinstein. Thank you very much, Mr. Rey. Chief 
Kimbell, welcome.
    Ms. Kimbell. Thank you.

                  SUMMARY STATEMENT OF ABIGAIL KIMBELL

    Ms. Kimbell. Madam Chairman, Mr. Allard, members of the 
subcommittee, it's a privilege to be here today to discuss with 
you the President's proposed budget for fiscal year 2009 for 
the U.S. Forest Service. Each of you have in your packets my 
full testimony, and I'd like to just cover some of the comments 
from that, but I'd like my full testimony added into the 
record, if I could, please.
    Senator Feinstein. Without objection.
    Ms. Kimbell. Thank you. First I'd like to describe the 
general context that this budget is presented in. I certainly 
recognize the Forest Service is just one small part but a very 
important part to me and to many of you of the Federal budget, 
and that our requests have to be balanced against competing 
needs and opportunities across Government for limited funds.
    It's important to explain how we, as an agency, crafted the 
budget proposal in front of you now. It is helpful for me to 
visualize things in a tangible, practical way, so I see our 
budget as a bucket. A bucket only has a certain size, it only 
holds so much, and in our case the bucket is decided after the 
Nation's highest priorities are taken care of such as 
supporting the war on terror, strengthening Homeland Security, 
and promoting sustained economic growth.
    With support of those priorities in mind, the Forest 
Service bucket is $4.1 billion in size, about the same size as 
last year's request, and about $380 million below what was 
appropriated for 2008. Our bucket starts a little smaller, but 
it also has to hold some programs that are bigger this year. 
The fire suppression request is decided by the 10-year average 
of fire suppression costs, an arrangement agreed to by both 
Congress and the administration.
    The 10-year average this year is $994 million, $250 million 
higher than it was just 2 years ago, and nearly $150 million 
higher than the current enacted level. Because fire suppression 
is the first thing in the bucket, and because it is 
considerably bigger than the past years, and because the bucket 
in only so big, other programs are reduced to make up the 
difference. Rather than simply ratchet all programs down by a 
similar percentage to make up that difference, this budget 
reflects a very difficult strategic decision. We are focusing 
limited resources on core National Forest System programs since 
we are the sole landlord for these lands. As a consequence, 
there is significant reductions in the requests for State and 
Private Forestry programs.
    In spite of these difficult cuts, I strongly believe that 
the Forest Service continues to be a good investment for the 
funds we receive. In 2007, we received our sixth clean audit in 
a row. That was no small feat. We have reduced indirect cost to 
less than 10 percent of our total expenses. We increased 
partnership contributions to challenge car-share projects by 35 
percent over that of 2006. We collected over $700 million in 
revenue and receipts.
    Forest Service scientists filed two patents. Thirteen 
Forest Service scientists were recognized with a share of the 
Nobel Peace Prize for their contributions to climate change 
research. We maintained 60,000 miles of road and another 26,000 
miles of trail. We sold 2.5 billion board feet of timber. We've 
reduced hazardous fuels on 3 million acres, and we provided 
fire assistance grants to 62,000 communities. We protected over 
88,000 acres of forest land from conversion through the Forest 
Legacy Program, and the list goes on.
    We are positioned to make the most of the resources we 
receive. Our agency is in the midst of a difficult but 
necessary transformation which will ensure a higher percentage 
of funds going into project work. We are encouraging our 
managers to focus on integrating programs and working with 
partners to achieve multiple objectives, and we are proposing 
innovative ecosystem services demonstration projects that will 
forge important partnerships with States, local governments, 
tribes, or nonprofit organizations to restore, enhance, and 
protect ecosystem function on national forests.
    The Forest Service is relevant, and we have a leading role 
in issues affecting the Nation and the world. We have 
dedicated, professional, and very hard-working employees who 
come to work every day looking for better ways to solve complex 
problems. I am confident we add value to the resources with the 
taxpayer funds you invest in us.

                           PREPARED STATEMENT

    Thank you for the opportunity to describe how our budget 
was formulated and why I am optimistic about our future. I'm 
happy to answer any questions that you may have.
    Senator Feinstein. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Abigail Kimbell
    Madam Chairman and members of the subcommittee, it is a great 
privilege to be here today to discuss the President's budget for the 
Forest Service in fiscal year 2009. One year ago, sitting here before 
you discussing the fiscal year 2008 budget was one of my first public 
acts as Chief of the Forest Service. I am grateful for the support this 
committee has shown the Forest Service, and over the past year I have 
been able to see firsthand many of the issues raised by its members. I 
look forward to our dialogue today.
    I can report to you that the state of the Forest Service is sound. 
The agency continues to sustain and restore the national forests and 
grasslands. Our researchers continue to push the frontiers of 
knowledge, and 13 have been recognized by the Nobel Prize panel for 
their efforts. Our partnerships with other Federal agencies, States, 
communities, and tribes have broadened and deepened, as together, we 
have faced growing threats from fire and other disturbances. The 
outstanding competence and professionalism of our employees is admired 
by forestry organizations around the world. Entering the second century 
of service, the Forest Service can reflect with pride on its 
accomplishments.
    Yet for all these achievements, the Forest Service faces 
significant issues, and can do better. The issues are every bit as 
challenging as those faced by our predecessors. America's population 
will likely increase by 50 percent in the next 50 years, and pressures 
on the land will increase and change. In an era of globalization, the 
world is shrinking, jobs are growing more complex, and the value of 
forests and grasslands is greater than ever.
    Among the challenges and opportunities facing our agency, three 
themes stand out in particular: climate change, water issues, and the 
loss of connection to nature, especially for kids. I truly believe that 
history will judge my leadership of the Forest Service by how well we 
as an agency respond to these challenges, and the 2009 budget is 
crafted with that in mind.
    The fiscal year 2009 Forest Service budget request totals $4.109 
billion in discretionary appropriations, an 8 percent decrease from the 
fiscal year 2008 enacted level. The President's Budget reflects our 
Nation's highest priorities, including supporting our troops, 
strengthening our homeland security, and promoting sustained economic 
growth. The administration's pro-growth economic policies, coupled with 
spending restraint, are key to keeping us on track to continue to 
reduce the deficit in the coming years.
    Within the framework of the agency's 2007-2012 Strategic Plan and 
the themes I've laid out, the Forest Service budget for 2009 focuses on 
core responsibilities, maintaining program effectiveness, and 
addressing on-going management challenges. The 2009 budget aligns 
Forest Service spending to reinforce the agency's commitment to caring 
for the 193 million acres of national forests and grasslands, and 
providing for the highest priority activities that can demonstrate 
performance in a transparent manner.
                        wildland fire management
    The responsibility to protect people and property from wildfire is 
one the Forest Service performs professionally and honorably. Fires in 
recent years have become larger and more difficult to control due to a 
variety of factors, including climate change, historic fire management 
practices resulting in an increased density of hazardous fuels, and 
residential developments expanding in the wildland urban interface 
(WUI). As application of Federal firefighting resources on both Federal 
and non-Federal land has grown, these costs escalate, and so too does 
the 10 year average of annual fire suppression expenditures, which 
determines the program's budget request. The 2009 Fire Suppression 
request is $994 million, over $250 million higher than it was just 2 
years ago, and nearly $150 million more than the current enacted level. 
The total Wildland Fire Management program, including the National Fire 
Plan, makes up over 48 percent of the agency's discretionary budget 
request. The Forest Service is adopting substantive management reforms 
to mitigate this cost trend.
    Several wildfire management reforms are based on recommendations of 
USDA Office of Inspector General report that examined large-fire 
suppression costs. The report documented inequitable apportionment of 
fire protection responsibilities between Federal and local entities in 
residential areas that abut national forests. In response, the Forest 
Service is renegotiating master protection agreements to clarify roles 
and ensure equitable and appropriate allocation of wildland urban 
interface firefighting costs between the agreement parties. 
Additionally, the Forest Service will implement a science-based 
methodology to encourage the cost-effective use of unplanned wildfires 
to reduce hazardous fuels when appropriate.
    In fiscal year 2009, the Wildland Fire Management program will 
continue to improve performance through attention to policy, training, 
oversight, decision support tools, and after action performance 
analysis. Management policy is set at the national level, and provides 
clear guidance for the role of Federal firefighters in the Wildland 
Urban Interface and the strategies of Appropriate Management Response 
(AMR). Mandatory training keeps agency administrators up to date on 
national policy. During an incident, the Chief's Principle 
Representative provides oversight, while decision support tools such as 
Rapid Assessment of Values at Risk (RAVAR) and Fire Spread Probability 
(FSPro) offer the incident commander information on fire spread 
probability, resource values at risk, and historic costs for similar 
fires. After action reviews, including use of the Stratified Cost Index 
(SCI), provide lessons and best practices to include in subsequent 
updates to management policy. This performance improvement process will 
enable the agency to maintain Fire Preparedness resources within a $588 
million program budget, a decrease of $77 million from 2008.
                            healthy forests
    The fiscal year 2009 Forest Service budget focuses resources on 
maximizing the effectiveness of core national forest and grassland 
programs. Implementation of the Healthy Forests Initiative and the 
Northwest Forest Plan are key initiatives which receive increased or 
similar levels of funding compared to fiscal year 2008 enacted--Forest 
Products is requested at $323 million, Hazardous Fuels at $297 million, 
and Vegetation & Watershed Management at $165 million. These 
investments will yield over 4.9 million CCF (2.5 BBF) of timber volume 
sold, including 1.6 million CCF (0.8 BBF) of timber volume offered from 
full implementation of the Northwest Forest Plan. Other priority 
program outputs include establishing or improving over 2 million acres 
of forest and rangeland vegetation, and 1.5 million acres of hazardous 
fuel reduction with an additional 800,000 acres of treatments 
accomplished by other land management activities to reduce fire risk. 
Capital Improvement and Maintenance of Roads is requested at $227 
million to provide the necessary infrastructure to support priority 
program activities and manage the roads system on national forest 
lands.
               organizational efficiency & transformation
    The Forest Service is continuing its restructuring process that 
will improve its organizational structure and maximize resources 
available for on-the-ground mission delivery. Our current 
organizational structure, designed in the 1950s, does not take 
advantage of the communication technologies and integrated operating 
systems available in today's business environment. By the end of fiscal 
year 2009, the Forest Service will reduce operating costs by 
approximately 25 percent in the regional offices, the national 
headquarters, and the Northeastern Area. This will result in a higher 
proportion of funds going to the field and an organizational structure 
better equipped to meet the natural resource management challenges of 
the 21st century.
     recognizing integrated program and partnership accomplishments
    Another strategy to ensure maximum on-the-ground achievements 
relates to accomplishment tracking. In fiscal year 2008 the Forest 
Service is changing reporting rules to incorporate accomplishments 
achieved through integration between program areas and/or partnerships 
with external groups. This change is designed to shift from a program-
by-program approach to one that aligns programs and partner 
organizations to achieve multiple goals. By changing how 
accomplishments are counted, the agency hopes to change how managers 
plan and implement their work, increase incentives for working with 
partners, and ensure maximum value per dollar of Federal expenditure.
    I will now discuss the program budget requests for the Research, 
State and Private Forestry, National Forest System, Capital Improvement 
and Maintenance, and Land Acquisition accounts.
                      forest & rangeland research
    The Forest Service Research Program is a globally recognized leader 
developing scientific information and technologies that address the 
ecological, biological, social, and economic issues challenging natural 
resource management and conservation in the modern era. Approximately 
500 Forest Service scientists conduct this research at 67 sites located 
throughout the United States. The 2009 budget funds research at $263 
million. This is equal to the 2008 President's budget, and an 8 percent 
decrease from the enacted level of $286 million. The budget eliminates 
funding for congressional earmarks, employs investment criteria to 
align research projects with strategic priorities, and retains support 
of the Forest Inventory and Analysis program at $62.3 million.
    Forest Service Research & Development is a world leader on the 
global climate change issue. Thirteen Forest Service scientists 
participated in the Intergovernmental Panel on Climate Change (IPCC), 
which shared the 2007 Nobel Peace Prize with former Vice President Al 
Gore.
    The fiscal year 2009 budget includes $31 million for research on 
how climate change, air and water pollution, land use, and extreme 
events affect forest and rangeland sustainability and the associated 
benefits they provide to society. In addition, the program prioritizes 
research in the areas of Resource Management and Use ($79 million), 
Invasive Species ($30 million), and Wildland Fire and Fuels ($23 
million).
                        state & private forestry
    The State and Private Forestry program connects the agency's 
research and public lands-based programs to those of States and private 
individuals and entities. Through a coordinated effort in management, 
protection, conservation education, and resource use, State and Private 
Forestry programs help facilitate sound stewardship across lands of all 
ownerships on a landscape scale, while maintaining the flexibility for 
individual forest landowners to pursue their objectives.
    In fiscal year 2007, the Forest Service collaborated with the 
National Association of State Foresters to redesign the focus, 
priorities and delivery of the agency's State and Private Forestry 
programs. As a result, the Forest Service will prioritize work using 
the best available technology and information, focusing on three 
national themes: (1) Conserve working forest landscapes; (2) Protect 
forests from harm; and (3) Enhance benefits from trees and forests. 
Comprehensive assessments will be conducted at the State and national 
levels to identify conditions, threats, and ecosystem services. The 
assessments will then be used to integrate program delivery with 
partners and ensure appropriate skills and organizational structures 
are in place to support priority work.
    The 2009 budget funds State and Private Forestry at $110 million, a 
decrease of 58 percent from the 2008 enacted level. Forest Health 
programs, including those funded under the National Fire Plan, will 
receive almost $80 million and treat over 450,000 forest and rangeland 
acres for invasive and native pests with a focus on early detection, 
evaluation, and monitoring of new invasive species, such as the Sirex 
wood wasp, emerald ash borer, and sudden oak death. Cooperative Fire 
programs, including those funded under the National Fire Plan, will 
receive nearly $75 million and assist over 18,000 communities through 
grants to State and local fire agencies. In addition, $25 million will 
fund the Forest Stewardship, Forest Legacy, Urban & Community Forestry 
and International Forestry programs.
                         national forest system
    The National Forest System account provides funds for the 
stewardship and management of national forests and grasslands. The 2009 
budget requests $1.345 billion for this account, which is equal to the 
2008 President's budget request, but a decrease of $125 million or 9 
percent from the enacted level. This budget level reflects successful 
implementation of the organizational efficiency & transformation 
efforts which will direct a higher proportion of funds to on-the-ground 
mission-critical work.
    The 2009 budget includes a legislative proposal authorizing five 
Ecosystems Services Demonstration Projects that will bring new partners 
together with the Forest Service in a broad effort to advance market-
based conservation. States, local governments, tribes or non-profit 
organizations will have the opportunity to provide up to $10 million of 
funds or in-kind services for activities that restore, enhance, and 
protect ecosystem function on National Forest System lands. The 
projects will also introduce and refine methodologies that may be used 
in potential or emerging markets to quantify and value ecosystem 
services related to clean water, carbon sequestration and other 
critical benefits.
    Other important National Forest System programs are increased in 
the fiscal year 2009 budget. As mentioned earlier, the fiscal year 2009 
budget supports full funding for the Northwest Forest Plan within the 
$323 million for Forest Products. Land Management Planning funding is 
proposed at $53 million, an 8 percent increase from the 2008 enacted 
level. The additional funds will focus on implementation of the revised 
Planning Rule, acceleration of work on 35 planned Land Management Plan 
(LMP) amendments that respond to energy corridor decisions, and 
completion of 18 LMP revisions currently scheduled for fiscal year 
2009.
    A number of National Forest System programs will be maintained at 
the fiscal year 2008 President's budget level including, $146 million 
for Inventory and Monitoring programs to facilitate efficient 
implementation of the 2008 Planning Rule, which establishes 
Environmental Management Systems on each NFS unit. The Recreation, 
Heritage, and Wilderness programs are proposed at $237 million, which 
will enable completion of travel management plans for 86 percent of 
National Forest System lands and Recreation Facility Analyses on 74 
percent of national forests by the end of fiscal year 2009. Wildlife & 
Fish Management, funded at $118 million, will focus on continued 
partnerships with States, non-governmental organizations and tribes to 
actively manage wildlife and fisheries habitat for the benefit of the 
36 million people that visit national forests and grasslands annually 
to hunt, fish, or view wildlife. The $47 million funding request for 
Grazing Management will support effective management of rangeland 
resources on approximately 90 million acres of NFS lands and compliance 
with the Recisions Act schedule for completed grazing allotments. The 
$115 million request for Law Enforcement Operations, a $17 million 
decrease, will be focused on combating drug-trafficking organizations 
along the southwest and northern borders, responding to emergency and 
life-threatening situations, and conducting arson investigations.
                   capital improvement & maintenance
    The Capital Improvement & Maintenance Program maintains the 
infrastructure for many Forest Service programs, including the 
transportation networks necessary for management and visitor access; 
the recreational infrastructure, including trails that serve many 
diverse populations; and facilities that house Forest Service 
employees. The 2009 Budget funds Capital Improvement & Maintenance at 
$406 million, a decrease of $69 million from the enacted level, which 
included a $25 million one-time transfer from the Purchaser Election 
Program. The $120 million proposed in Facilities funding will support 
maintenance of approximately 22,500 facilities and capital improvement 
of 34 facilities in fiscal year 2009. The $227 million Roads program 
includes maintenance of more than 70,000 miles, reconstruction and 
capital improvement of 2,000 miles, and decommissioning of 
approximately 600 miles of Forest Service roads. 17,300 miles of trails 
will be maintained and 700 miles relocated or constructed with the $50 
million Trails request. Legacy Roads & Trails, established by Congress 
in 2008, is not included in the budget.
                               conclusion
    I present this budget within a management environment that demands 
more than dollars to ensure organizational success. The budget supports 
national priorities of deficit reduction, maintains a safe and 
effective fire suppression organization, and maintains other high 
priority programs. Just as importantly, it proposes an ecosystem 
services approach to on-the-ground work in partnership with key 
stakeholders to protect watersheds, enhance economic and social values, 
and improve biodiversity. Combined with State & Private Forestry 
redesign, Wildland Fire Management reforms, and organizational 
management transformation, this suite of initiatives will enable the 
Forest Service to continue to deliver outstanding science and 
effectively manage the resources of the national forests and grasslands 
while adapting to the challenges of the coming decades.

                  FIREFIGHTER ATTRITION IN CALIFORNIA

    Senator Feinstein. We will begin the question phase. I just 
want to point out that this year California will be sponsoring 
the Tahoe Summit; I'm going to put it together, and deal with 
forests and forest fires. I'd like to invite both of you to 
attend and participate. I've asked Al Gore to speak on how 
fires, forest fires, affect global warming, or how global 
warming affects forest fires. So I think it should be very 
interesting. Then we'll hear from all of the fire districts 
around the Lake. So I hope you will be able to come.
    As you know, I wrote you a letter about the very high 
attrition rate of Federal firefighters in the southern 
California area. I've just been looking at your answer, and I 
gather you know the attrition rate in one of your charts is 
actually above 40 percent. You have a pie chart here which 
States that the reason for leaving the Forest Service, 44 
percent went to Cal State, county, local fire departments. It's 
a huge attrition rate, and yet you then compare the wages and 
point out that the wage, federally, is higher.
    Now, I mean, these people aren't stupid. They go to local 
jurisdictions because they get more money. So where is the 
difference in pay?
    Ms. Kimbell. Senator, the analysis that you have includes 
the description of the different kinds of work schedules that 
the employees with the Forest Service have versus employees 
with Cal State. There is quite a difference in the work 
schedule.
    There's also quite a difference in the mission that these 
different people perform in their different employment. Our 
wildland firefighters are not typically, across the rest of the 
country, involved in the kinds of activities some of the other 
committee members refer to as first responder and other 
responses that the Federal firefighters in California, State of 
California firefighters, and certainly the local firefighters 
are continuously involved with.
    There is a difference in the number of hours that these 
different employees put in; there's a difference in their work 
schedules; there's a difference in our firefighters being 
seasonal and at the lower-graded levels. The State and county 
firefighters, being year-round employees, results in a 
difference at year end in how much they make over a year.
    Senator Feinstein. I want to stop you because I've got 
that.
    Ms. Kimbell. Okay.
    Senator Feinstein. As you know, Senator Allard and I held a 
hearing, and Mr. Rey was good enough to be there in San Diego. 
One of the things that one anticipates in southern California 
is more catastrophic fire.
    You're saying, essentially, that people are going to Cal 
Fire because they work more hours, therefore they get more pay. 
Let me ask you this: As we go into the fire season, how many 
positions will be unfilled in those critical fire areas?
    Ms. Kimbell. We have instituted a new hiring process in 
California, specifically, with a roster, and over the last year 
we have hired 1,000 people into the firefighting organization 
in California. We anticipate to be fully staffed at the funding 
level.
    Senator Feinstein. So we can anticipate that when we come 
to fire season and I look at this, every position is going to 
be filled?
    Mr. Rey. Yes.
    Senator Feinstein. I heard that definitive ``yes.'' I 
appreciate it. It is noted in the record.
    Mr. Rey. Occasionally, we can give short answers.

              ILLEGAL DRUG OPERATIONS IN NATIONAL FORESTS

    Senator Feinstein. Excellent. All right, thank you.
    We have another problem. Our forests, as you know, are 
inundated by Mexican drug trafficking organizations growing 
marijuana, and over the past 2 years I, specifically, added to 
the Forest Service enforcement budget $17 million to deal with 
that.
    I see your budget eliminates this increase and funds your 
program at $115 million. I supported Operation Alicia and 
Operation Green Acres, two major interagency drug operations 
that took place last season that netted literally hundreds of 
arrests and destroyed millions of marijuana plants.
    I met recently with your people as well as DEA. I came away 
from that meeting not satisfied: Not satisfied with the plan 
which I believe should be to clean the marijuana out of our 
forests--out of our parks and forests. I'd really like to get 
both of you on record as to what the intention is this year.
    What I gained from the meeting was that there was going to 
be much more emphasis on the development of intelligence 
related to cartel activity than actual strike force activity, 
and I'm interested, candidly, in the strike force activity.
    Mr. Rey, would you like to answer that?
    Mr. Rey. Sure. We are going to be doing at least four major 
strike force actions during the course of the summer. For 
obvious reasons, I don't think I want to describe where they're 
going to be or when they're going to happen, but there will be 
a significant stepping up of that kind of activity in 
cooperation with both DEA and with local law enforcement. I'll 
submit for the record some of the details associated with those 
proposals.
    [The information follows:]
              Marijuana Eradication Efforts in California
    Forest Service Law Enforcement and Investigations (LEI) personnel 
will participate in four multi-agency drug eradication operations in 
Region 5 during fiscal year 2008. LEI officers will work with personnel 
from DEA, CAMP, HIDTA marijuana investigative teams, local sheriff 
departments, California National Guard, and the Joint Task Force North 
in the planning and execution of these operations. Each operation will 
have between 20 and 40 personnel assigned to it. Between June 15 and 
October 15, a total of 34 LEI personnel will be dedicated to drug 
enforcement operations on NFS lands.
    The program goals in California for fiscal year 2008 are to 
increase by 30 percent the number of plants eradicated, sites raided, 
and felony arrests over fiscal year 2007. The results will be 2.4 
million marijuana plants eradicated, 418 garden sites raided, and 94 
felony arrests.

    Mr. Rey. We do not intend to reduce the funding or the 
staffing that we've developed in Region 5 in California until 
we've turned the corner in dealing with the drug activity in 
California. So, while we may be leveling funding in other areas 
where we don't have this depth of difficulty, we're going to 
keep the California operations moving forward.
    Senator Feinstein. Thank you, I appreciate that very much.

                     TAHOE REGIONAL PLANNING AGENCY

    Chief Kimbell, last year I urged you and the Tahoe Regional 
Planning Agency to renegotiate an MOU to better streamline the 
permitting process to reduce hazardous fuels on Forest Service 
land in the Tahoe Basin. Can you give us a status update on the 
negotiations, and what assurances can you provide that this 
will be done before this year's fire season?
    Ms. Kimbell. We've been working very closely with TRPA, and 
TRPA provided a draft----
    Senator Feinstein. Stay with that: The Tahoe Regional 
Planning Agency?
    Ms. Kimbell. Tahoe Regional Planning Agency, thank you. 
Sorry. They provided a draft. It was of concern to a number of 
people given the amount of process that was included in that 
redrafting of the MOU.
    The Governors of California and Nevada appointed a fire 
commission. That commission delivered a report on March 21 with 
a number of recommendations and suggestions. We are reviewing 
that report from the fire commission right now, and we'll 
continue working with TRPA. Before the 1st of June, we 
anticipate having a final memorandum of understanding for 
signature.
    Mr. Rey. We have a good three-page summary of where 
everything's at right now that the Forest supervisor for the 
Tahoe Basin Planning Unit provided. We'll submit that for the 
record for the hearing.
    Senator Feinstein. I would appreciate that. Are there signs 
that the Tahoe Regional Planning Agency is being more realistic 
now in view of the threat of fire in easing some of its 
regulations so that pine needles can be picked up, so the trees 
that overhang houses can be reduced in bulk and size, and 
ground cover reduced?
    Mr. Rey. There are signs, but it's a long, slow process. I 
would say that the sharpened focus of thinking that the Angora 
fire created has sort of been dulled with the winter rains, and 
I think we've still got a couple of rounds of negotiations with 
the Regional Planning Authority before we're at the point where 
we want to be.
    Senator Feinstein. Thank you. Well, I'd appreciate that 
memo, and if you could keep me advised, I'd appreciate that as 
well.
    [The information follows:]

    I've been requested to provide information for the Senate Interior 
Appropriation Hearing. My response will center on the efforts 
associated with the California-Nevada Tahoe Basin Fire Commission (the 
``Commission''). Many of the recommendations address the situation and 
concerns I identified in my August 8, 2007 memo. I've combined and 
summarized the ones that will have the most impact on accomplishing 
fuels work in the Lake Tahoe Basin.
                               background
    In the aftermath of the Angora Fire, the Governors of California 
and Nevada established an emergency Commission to look at what happened 
and what can and should be done to prevent another catastrophic fire in 
the Basin. The Commission met approximately 19 times and the LTBMU 
actively participated in all facets of the process. A draft report has 
been prepared and is expected to be finalized sometime in April. There 
are 48 findings and 90 recommendations recommended by the Commissioners 
in the draft report.
    The finding and recommendation getting the most attention is the 
recommendation to declare the Lake Tahoe Basin a state of emergency. 
The Governors from both States would have to declare separate 
emergencies and then request President Bush declare a national 
emergency. When this was voted on, Jim Pena abstained as a Federal 
official.
    The findings and recommendations (``F&Rs'') that will help the 
LTBMU most are the ones that will:
  --Remove the impediments to getting fuels work done
  --Allow us the opportunity to work more efficiently which results in 
        cost effective measures
  --Potentially change the permitting processes
  --Increase the capacity and capability to implement projects
  --Address the roles and responsibilities of the regulatory agencies 
        we work with
    Based on these criteria, following is a summary of the F&Rs we 
consider to have the most impact on the Basin. I've attached a list of 
these findings and recommendations summarized for this memo.
A. Revision of Memorandums of Understanding
    Immediately after the fire, Senator Feinstein requested information 
on how we worked with the TRPA and the Lahontan Regional Water Quality 
Control Board and what could be done to streamline the process. My 
August 8, 2007 memo that went to Senator Feinstein through the RO and 
WO addressed those issues. As we streamlined regulatory processes, we 
continued to provide the appropriate protection for water quality. 
Since August, progress has been made and I am continuing the dialogues 
with both agencies and working on revising our MOUs. Specifically:
  --LTBMU and TRPA are working to revise the 1989 MOU for fuels 
        projects to apply to all FS projects after completion of the 
        MOU revision
  --LTBMU is drafting the language with advice and review from OGC
  --TRPA's October 2007 draft MOU was unacceptable to LTBMU and OGC 
        because of increased bureaucracy
  --By June 1, LTBMU will give TRPA another draft that takes into 
        consideration the Commission F&Rs
  --LTBMU will revise MOU with Lahontan
B. Reducing Redundant and Complex Permitting
    The Commission found that the existing system to permit fuel 
reduction projects is often confusing, redundant and overly complex. 
Also, the system used in Nevada is different than that in CA because of 
an added regulatory layer (Lahontan). The Commission recommended:
  --The Governors direct regulatory and implementing agencies to 
        simplify the system, including waiving certain restrictions on 
        use of mechanized equipment and vehicles within SEZs.
  --Lahontan and TRPA and land managers develop common list of 
        equipment and accepted best management practices (BMPs) for 
        mechanical work in SEZs.
  --TRPA, Lahontan and the FS allow equipment use on slopes greater 
        than 30 percent based on current and future technology.
  --Lahontan transfer its water quality permitting responsibility to 
        TRPA for water quality issues relating to fuels reduction 
        projects. This has already been done in Nevada by Nevada 
        Division of Environmental Protection.
C. Reduce Permitting for Mechanized Equipment in SEZs
    Several F&Rs identified ways for work to be accomplished in SEZs 
and still protect water quality and increase cost effectiveness. The 
Commission recommended:
  --Governors direct TRPA to allow use of mechanized equipment in SEZs 
        including revising the Lake Tahoe 208 Water Quality Plan.
  --Governors should direct agencies to consider fire hazard reduction 
        an overriding priority with applications for mechanized 
        equipment use.
  --Lahontan change its interpretation of regulations and allow pile 
        burning and spreading chipped material in SEZs.
D. Increase Burn Days
    In Nevada, air quality agencies do not regulate burn days and 
leaves it to the land managers' discretion to determine acceptable 
conditions. Below are elements of F&Rs that will allow us to increase 
burn days:
  --More comprehensive air quality and meteorological information 
        should be implemented and further analyzed at the Basin scale 
        to provide for additional burn days.
  --The California Air Resources Board should develop a test program to 
        see if additional burn days can be added to the Basin without 
        adversely affecting the region's air quality.
  --Nevada land managers should continue to follow existing practices.
E. Funding the Recommendations
    The Commission recognized that the Federal Government is not the 
only answer to funding the recommendations. It directed the States and 
local governments, as well as private parties to look for ways to share 
in funding fuels work in the Basin. However, it was also recognized 
that additional Federal funding will be necessary to accomplish the 
needed work. The Commission also recognized that the Southern Nevada 
Public Land Management Act (SNPLMA) is not the only funding mechanism. 
With decreasing land sales in Clark County, Nevada, future funding is 
on a downward trend and funds other than SNPLMA should be identified.
F. What the LTBMU is Doing that Aligns with Findings and 
        Recommendations
    Even before the fire, the LTBMU has been working toward better 
working relationships with regulatory agencies. The Commission 
identified many things they would like to see happen. We are already 
engaged in many, including:
  --TRPA and LTBMU working together on permitting fuels projects under 
        existing MOUs to prevent delays once NEPA decision is made 
        (i.e. Round Hill, Angora Hazard Tree removal along FS trails/
        roads)
  --TRPA concurred on Round Hill project which authorized 2 different 
        treatment methods:
      --72 acres of whole tree yarding
      --3 acres of mechanical treatment in SEZ
      --Total project treatment is 952 acres in NV
  --Engaging in a joint process with Lahontan, i.e., working with and 
        going forward at the same time on environmental requirements 
        (NEPA and CEQA) instead of one after the other for our South 
        Shore Fuels Reduction and Healthy Forest Restoration Project:
      --largest fuels project analyzed in the LT Basin
      --33,000 acres analyzed; 10,000 acres proposed for treatment in 
        CA
      --550 to 640 acres of mechanical treatment proposed in SEZ
      --2,100 to 3,800 acres whole tree yarding proposed
  --Renegotiating and revising the MOUs discussed earlier

    Senator Feinstein. I call on the ranking member, Senator 
Allard.
    Senator Bennett. Madam Chairman----
    Senator Feinstein. You have not had an opportunity for an 
opening statement.
    Senator Bennett. Yeah, and I have to be called out, so 
could I make a quick----
    Senator Feinstein. A quick--yes.
    Senator Bennett [continuing]. A quick comment?
    Senator Allard. I'll yield to the good----

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. I apologize to you both, but I simply want 
to make a comment, Mr. Rey. You've made reference to it in your 
opening statement about the Secure Rural Schools and 
Communities Self-Determination Act, and I am pleased that the 
Department is taking steps to provide a safety net for payments 
to States that they would have received under that act that 
expired in 2006. But I think we have to do more.
    It's an act that's very important to Utah's rural counties. 
I think we in Congress have to work to reauthorize the act, and 
these funds are used for all kinds of things--roads, public 
schools, other important uses that are critical to our western 
counties. The expiration of the act means that PILT payments 
will be reduced, so we have to use the rural school payments to 
offset PILT and stretch all of those funds even more.
    So I don't want to let the opportunity pass without making 
a comment about it, thanking you for your attention to it, and 
I look forward to working with you on this.
    With that, thank you, Madam Chairman. Thank you for your 
courtesy.
    Senator Feinstein. Thank you very much, Senator Bennett.
    Senator.

                   HAZARDOUS FUELS TREATMENT PROGRAM

    Senator Allard. Thank you, Madam Chairman. You know, 
there's an axiom in veterinary medicine that prevention is a 
lot less expensive than treatment, and I think we're seeing the 
impacts on the Forest Service budget now.
    You know, we've disallowed a judicious cutting of trees and 
thinning of forests and whatnot, and adequate treatment of 
these forests because of some of the policies we had put in 
place and right now we're paying the price in less income into 
the Federal Government because we don't allow the cutting; the 
more money being spent for fires because disease has taken over 
these fires. We get more burnable timber out there that burns 
hotter and faster, and the result is that we're spending a lot 
more money now in fire suppression and, you know, taking care 
of fires. I hope that we can move back to a more sensible 
policy than what we have now.
    We have in California and Colorado a pine beetle problem. 
We have in the southern part of this country a beetle problem. 
The beetle problem that they have with the spruce bark beetle 
in Alaska is extremely prevalent up there. They've got some 
really serious problems.
    So my question is, can you explain the large cuts in this 
particular program with the enormous problems that we have with 
the pine beetles?
    Mr. Rey. Well, I don't think we look at what we've proposed 
in its totality as a large cut. If you look at the Fire 
Management program in its entirety, both USDA's, Forest 
Service, and the Department of the Interior, we're proposing a 
$927 million program as compared to last year's program, which 
in regular appropriations was $962 million.
    Now, last year was an all-time record of funding, so we're 
down a little bit from that record. We have tried to make the 
implementation of the Healthy Forests Initiative one of our 
budget priorities, keeping the line items that contribute to 
that initiative as close to at-record levels as we could.
    So, I don't think that we would concur that they are a big 
reduction. Yes, it's down about $35 million from last year's 
levels, but last year's levels were the highest levels that 
those programs had ever been funded.
    Senator Allard. I got that point. Now, if we were to give 
you additional money, could you give us some idea of how many 
more acres you could effectively treat, and at what cost?
    Mr. Rey. Sure. We can break that out for you in, say, $10 
million increments in terms of the acreage comparison for what 
we would be able to reach. That's of course, assuming that 
appeals and litigation don't get in the way, obviously. But we 
can give you a step-wise progression there.
    Senator Allard. You know, I want to sit down--I want our 
staffs to work with you a little bit because we come up with 
different conclusions when we look at the figure that we have 
here before us under the 3-year summary of the appropriations 
and whatnot.
    Mr. Rey. What I was giving you was the documentation on 
page K-1 of our budget's submission, appendix K.
    Senator Allard. Okay. Well, we'll review that, and we'll 
want to continue to have that discussion with you.

                       FIRE PREPAREDNESS FUNDING

    Now, on the Fire Preparedness, you say through efficiencies 
you'll maintain the same numbers of firefighters, the same 
number of hot shot crews and engines. Can you describe what the 
efficiencies are and how that can be so large, and justify so 
large a reduction in spending?
    Mr. Rey. I can give you some examples, and then, for the 
record, we can flesh out, you know, larger numbers of them. But 
let's take aviation assets, planes, for instance. Last year we 
did a review of how we contract for aircraft and modified the 
use of exclusive use contracts, which resulted in a net savings 
of about $14 million. The experience that we gained from those 
changes is going to result in savings that we can carry 
forward.
    We have put cost control measures in place in large 
incident fires, and it's important in the fire budget to 
recognize less than 2 percent of the fires would account for 85 
percent of the cost. That's where the real cost savings can be 
found in managing the cost associated with extended attack on 
large incident fires. So we've added cost-containment staff to 
those incidents that have resulted in some savings as well.
    What we believe is that as a consequence of those savings, 
we've reduced real expenses from those which were projected by 
about $200 million. Now what you're seeing in our 2009 budget 
proposal is a recognition of those savings in some slight 
reductions in preparedness.
    Now, you've given us the authority that if we fall short in 
preparedness dollars to use suppression funding if that becomes 
necessary. So we've got a backstop if we prove to be too 
optimistic in projecting the effects of some of these savings. 
If need be, we'll draw from the suppression account to deal 
with that.
    But if we're going to make these kinds of investments in 
cost savings, then we ought to reflect that in the way we 
budget. That's what we think.
    Senator Allard. So you can assure us that at this level of 
preparedness funding, the agency's initial attack success rate 
won't be reduced and lead to more catastrophic fires?
    Mr. Rey. The preparedness budget is built on maintaining 
the historic initial attack success rated upwards of 98 percent 
fires suppressed on initial attack.

                          FOREST PLANNING RULE

    Senator Allard. Okay, let me just move on. The time is 
escaping us here. On the forest planning process, under the old 
forest planning rules the time and expense to complete the 
forest plans have become incredibly expensive. The plans 
designed to last for 15 years now are taking 6 to 8 years to 
complete and cost many millions of dollars. That's for the last 
15 years.
    This administration streamlined that process with the new 
planning rule put in March of last year. A Federal court in the 
9th District enjoined the agency from implementing the new 
planning rule.
    Can you tell us what the status of your new planning rule 
is?
    Mr. Rey. It will be out in ``The Federal Register'' in a 
matter of days.
    Senator Allard. Do you believe you have cured the defects 
found by the court?
    Mr. Rey. We believe we have cured the defects found by the 
court. I daresay we won't get the last word on that, though. It 
will probably be the court that determines that.
    Senator Allard. Yes, and how do you anticipate the cost for 
individual forest plans that were reduced by the new rules? 
Will they, do you think, add to the cost or reduce the cost?
    Mr. Rey. I think we'll reduce the cost by a factor of two-
thirds from what it was costing us to develop plans under the 
1982 regulations.
    Senator Allard. You feel comfortable that there's been 
adequate public participation in the new forest planning 
process?
    Mr. Rey. I think, if anything, there has been a greater 
degree of public participation in the plans that have been 
developed under these new rules.
    Senator Allard. Well, I think you're rather optimistic, and 
I appreciate it, but we'll see.
    Senator Craig. This panel has voted, and we agree.
    Senator Allard. Okay. I see my time has expired.
    Mr. Rey. There's a vote there. I'm always looking for the 
opprtunity here.
    Senator Allard. Thank you.
    Senator Feinstein. Thank you very much, Senator.
    Senator Domenici.

                           SERVICE OF MR. REY

    Senator Domenici. First, let me thank all of you for your 
service, especially Mark, you, for your long service here, and 
it's been a very difficult job. I was talking to my friend 
here, Senator Craig about your activities and performance, and 
we're very lucky to have somebody that stays on this kind of 
difficult job that has the knowledge that you have. We are glad 
that you share it with us. We're very sorry that you can't 
implement much of it in the field because it is not just 
Congress and you, the outsiders have a lot to do with what you 
can do, and they find ways to make it very difficult for you, 
and we understand that. We have not been able to change that 
very much.

               EDUCATIONAL REQUIREMENTS FOR FIREFIGHTERS

    My first question, however, is to you, Ms. Kimbell. I 
talked to you a little bit about this qualification the OPM has 
imposed with reference to degrees and courses and 
qualifications. I understand that the folks out in the field 
are having some difficult, extremely difficult getting 
definitive answers regarding this situation from your human 
resources specialists. Many are very frustrated.
    How serious is this problem?
    Ms. Kimbell. I think it's a very serious problem, Senator, 
and we've put together a team of people working with our fire 
leadership and with our human resources people in Albuquerque 
to more quickly process all that different information. That 
way, we can give employees answers in writing specific to the 
kind of course work that they've had and which of those courses 
will or will not qualify them in the 401 Series as per OPM 
guidelines.
    Senator Domenici. What percentage of your field managers 
are at risk of losing their qualifications in 2009?
    Ms. Kimbell. The exact percent, there are 30 people, 
actually, that we have been granted an extension to be able to 
get them the course work that they need by June 2009.
    Senator Domenici. Why did this OPM intervention occur, and 
do you think the training provided by a college or a university 
is superior to the on-the-job training, your in-house courses 
and the experience that your fire managers have gained through 
their years of fighting fires?
    Ms. Kimbell. Well, that's the larger question with all of 
this. The course work--the courses that we provide through the 
Wildfire Coordinating Group--is recognized as world-class. 
There are people who attend from around the world. It's very 
practical, it's hands on, it's taught by very experienced, 
knowledgeable people. Yet those are courses that the Office of 
Personnel Management hasn't been willing to recognize as 
qualifying under the positive education requirements.
    Senator Domenici. Okay. Well, I wanted to say, speaking for 
myself, I think what's happening is very, very wrong, unfair, 
and unneeded. I cannot believe that we're going to lose 
experienced managers and experienced firefighters because OPM 
says they have to have a certain kind of college degree or 
effort toward a degree. So, from my standpoint I'd like for you 
to provide the committee with information as to how we would 
provide a waiver, a waiver that you sought, and how we would 
provide that. I think that that would be good for us to have.
    Ms. Kimbell. Senator, we'd be very interested in working 
with you on that, and we'll also continue working with the 
Department of the Interior. We entered into this whole 
arrangement with the Secretaries of Agriculture and the 
Interior, and we need to be together as we work through this.
    Mr. Rey. Yes, there are some Interior firefighters who are 
in similar situations, so we'll have to readdress this----
    Senator Domenici. Oh, very good.
    Mr. Rey [continuing]. With the departments together.
    Senator Domenici. Very good. So there's more than just you 
fighting the fight.
    Ms. Kimbell. There are 500 firefighters in Interior who are 
also affected, and there are an additional 200 Forest Service 
firefighters who will become affected here shortly.
    Senator Domenici. Madam Chairman, do you understand how 
critical this issue is?
    Senator Feinstein. I do. We'll take----
    Senator Domenici. Now, are you willing to work with me----
    Senator Feinstein. Yes.
    Senator Domenici [continuing]. On my----
    Senator Feinstein. We certainly are, and we will.
    Senator Domenici. Thank you very much.

          FIREFIGHTER RESPONSIBILITIES IN SOUTHERN CALIFORNIA

    Under Secretary Rey, I understand that the Forest Service 
wildland firefighters on at least four southern California 
forests now respond not only to wildland fire calls but also 
calls to deal with other emergencies like traffic accidents. Is 
that correct?
    Mr. Rey. It's correct, but it's unique to those four 
forests. It goes to how our memorandum of agreement with the 
local firefighting authorities are written. So it's not a 
situation that's comparable anywhere else in the system.
    Senator Domenici. Well, can you tell me approximately how 
many of these traffic calls are nonwildfire calls for service? 
Requests for firefighters' response in 2007? Do you require 
your wildland firefighters in all States to perform these type 
of duties?
    I guess you've answered the second question. You don't 
require that they do it in other districts, is that correct?
    Mr. Rey. That's correct. Based on the records that we have, 
we responded to about 3,200 nonfire calls from Forest Service 
stations in those four national forests last year.
    Senator Domenici. That's a good number, but 3,200 out of 
what?
    Mr. Rey. 3,200.
    Senator Domenici. 3,200 out of what?
    Ms. Kimbell. It's approximately 70 percent of the calls 
that are nonfire.
    Senator Domenici. Okay, and yet we're paying for them as 
firefighting under this Department's budget, is that right?
    Mr. Rey. That's correct.
    Senator Domenici. Well, why should we continue this? I 
mean, it sounds like a nice thing to do for some areas, but----
    Mr. Rey. Well, this will be one of the things that we look 
into as we continue to work on the retention issue in southern 
California. But I guess the simple answer is that as we work 
through our local agreements with the county fire organizations 
in southern California, this was something we agreed to do, and 
in exchange they've agreed to do some things for us. So there 
is some degree of reciprocity in how we organize ourselves.
    Senator Domenici. All right. Then are you suggesting, are 
you saying to the committee that, as the man in charge, you 
think this is a good practice that ought to continue? Or should 
it be put in a stage where it's being diminished annually so 
that it won't remain at this high level forever.
    Mr. Rey. Well, I think what I would say is that it's 
something we ought to look at as we move to update the 
agreements that we have with the local fire authorities. It's 
not something I think we should change precipitously, if these 
local authorities aren't capable of picking up the slack, 
because that means we'll be putting citizens at risk to a less 
effective initial response.
    It's a situation that has evolved because of the unique 
nature of the fire organizations in southern California. It's 
like many of our agreements with State and local firefighting 
agencies. This is one thing that we need to nail down so that 
the Federal role is clear and appropriate, and that, to the 
extent that we are doing work that benefits another 
jurisdiction, that the Federal Government is compensated for 
that.
    Senator Domenici. All right. Thank you very much. On the 
OPM issue we will continue to see what we can do and work with 
our staff and the chairman on that issue.
    Ms. Kimbell. Yes, thank you.
    Senator Feinstein. Thank you very much, Senator Domenici.
    Senator Domenici. Thank you for the time this morning and 
your cordiality. I appreciate it.
    Senator Feinstein. You're very welcome. Thank you.
    Senator Craig.
    Senator Craig. Madam Chairman, thank you very much.

                           FIREFIGHTING FUND

    Chief, if the chairman of this committee and I were to do 
something we did a year ago against your better judgment, and 
that was put $500 million in your fire fund to fight the fires 
that you fought last summer, would you oppose that against your 
current budget?
    Ms. Kimbell. I'm not certain I understand the nuance in 
what you've----
    Senator Craig. The nuance was we felt you had substantially 
underfunded yourself for the fire season that was ahead of you.
    Ms. Kimbell. Oh.
    Senator Craig. The history is now in, and it was shown that 
you did, and we saw that coming and advanced you some money.
    Ms. Kimbell. We absolutely appreciate the money you 
advanced us.
    Senator Craig. Okay. Thank you.
    Ms. Kimbell. We've put it to very good use.
    Senator Craig. Yes, you did. None of that's disputed.

                EDUCATIONAL REQUIREMENT FOR FIREFIGHTERS

    I'm sitting here listening to this question about the 
Office of Management and Budget and who's the most talented. 
There are probably few in this room who have fought fires. I 
have a young man staffing me as my legislative assistant in 
this area who was a wildland fire firefighter. He just handed 
me a note that said if he had a minor in fire science from a 
university, he would now be his boss's boss, who might have had 
8 or 10 years more experience than he.
    When you're out on a wildland fire, I'll opt for experience 
every day before I'll opt for a college degree. College degrees 
get burned, tragically enough, if they don't have the knowledge 
and the experience that goes down the road toward a year-after-
year fire knowledge.
    I don't know where OMB's coming from other than the green-
eyeshade people got way out in front of themselves on this one. 
And you ought to fight it aggressively and with passion as it 
relates to experience on the ground. We'll help you there. This 
is just silliness, absolute silliness on the part of a 
Government agency run amok on this issue. I don't know of any 
more dramatic way to say it.
    If we're opting for a college degree versus ground 
experience, and the kind of work and the professionalism you've 
built into your fire corps over the years, both the BLM and the 
Forest Service--I see it out at the interagency in Boise--the 
talent that comes with the experience. We know that the fires 
we fight today cannot be diagrammed in a textbook. They are 
hotter, they're more dramatic, you've learned some tremendously 
tragic lessons over the last good number of years of how to 
engage, when not to engage, when to step back, where to fight, 
when to fight, all of those kinds of things.
    So let us help you do that.
    Ms. Kimbell. Thank you, Senator.
    I'm sitting beside and in front of a number of people who 
have been wildland firefighters, and I think they'd absolutely 
agree they'd rather be working for somebody with 8 to 10 years 
of experience than someone with simply a degree without the 
experience.
    Senator Craig. Thank you. I think that's important for the 
record. OMB, listen: Don't hide your head in a bunch of 
paperwork.

                   STATE AND PRIVATE FORESTRY FUNDING

    I'm frustrated, Secretary Rey, throughout the U.S. Forest 
Service's strategic plan for fiscal years 2007 through 2012, 
references are made to the necessity and the high value of 
partnerships, especially with respect to State and Private 
Forestry programs. Please explain how the proposed 58 percent 
reduction in 2009, in State and private forestry appropriations 
will help the Forest Service attain the goals and objective set 
forth in the strategic plans.
    Mr. Rey. As I said in my opening statement----
    Senator Craig. It wasn't clear.
    Mr. Rey [continuing]. We look at the full context of what 
we're proposing in the State and private forestry area as 
including not just our fiscal year 2009 budget proposal, but 
also the proposals that the administration made and that 
Congress is considering in the 2008 farm bill.
    What we've proposed in that farm bill and what, for the 
most part, the House and Senate bills have carried forward is a 
substantial broadening of the use of conservation title funding 
to make it accessible to both State forestry organizations as 
well as forest landowners. The amount of money in that title, 
in the conservation title, is substantially greater than the 
amount of proportional reductions that we've made in the State 
and private forestry programs.
    So in the full context, if you look at those two proposals 
together, what we would submit is that you're probably seeing 
an increase in funding available for State and private forestry 
rather than a decrease. But you have to look at both pieces to 
get to that point.
    Senator Craig. Okay. Well, I'll try to look at it from a 
different approach, then, because I'm not sure that what's in 
the budget now fits.

                      SECURE RURAL SCHOOLS FUNDING

    Chief Kimbell, in your statement--and I don't mean this as 
a criticism--you gave a reasonably rosy scenario as it relates 
to where the Forest Service is today. Let me step back to 
communities of interest, because there are a lot of communities 
in my State that are--were, not are today--but were tied 
directly to the Forest Service because they were dependent upon 
the Forest Service.
    The great minds that created our forest reserves suggested 
that those communities ought never disengage or be disengaged 
from that relationship. But we've watched that happen over the 
last several decades. No longer is the Forest Service or that 
which flows from the Forest Service lands a majority employer 
of those communities. There seems to be a growing isolation and 
frustration from the communities that the Forest Service is no 
longer the great neighbor and provider and asset that it once 
was.
    No longer does the mill exist, the green sales are gone. 
Now you're posing--you're developing road plans that are 
closing as much as a third to a half of the roads, so access to 
the public lands is rapidly being denied, and it's even 
suggested that you will enforce them once you've closed them, 
and you might start arresting people for trespassing in certain 
areas.
    The story goes on and on; Forest Service offices are 
closed, the number of employees are down, the relationships 
have dramatically changed. I don't see that as for the better 
in many instances; I see it as a kind of a growing isolationism 
between a Federal agency and Federal lands and citizens of a 
State in a community that are tied to that.
    I know that we have struggled on the timber-dependent 
school and county issue. Of course, we crafted Craig-Wyden, 
funded it for a time, you heard Senator Bennett speak to it 
today. If you would, either you, Chief Kimball, or Secretary 
Rey, speak to how much you currently have in the budget and 
what we might be able to do to plus that up.
    I have school districts that by June are going to have to 
dramatically cut budgets for the coming year, lay off people, 
cut programs, diminish the quality of education to their 
children, struggling with State's and limited resources to see 
if they can't do some emergency funding because of their 
dependency upon a relationship with the public land that they 
are now being denied. Why? Because of public policy.
    Could you respond to that?
    Mr. Rey. Sure. We've proposed in our budget an additional 
4-year extension to the Secure Rural Schools legislation, and 
we have provided a couple of hundred million dollars over 
baseline that's available without offsets for that purpose.
    It's our judgment that that extension should eventually 
start to phase down in terms of the guaranteed payments, but, 
we're happy to work with the committee and with the Congress in 
deciding what the rate formula for the distribution of those 
payments are, and in a mechanism for reauthorizing the 
legislation.
    It will require additional legislative activity to 
continue, because the 2000 legislation has now expired.
    Senator Craig. Right.
    Mr. Rey. So we would be eager to work with the committee 
and the Congress to reauthorize the legislation; to continue 
the work of the resource advisory committees, which I think 
have had a material benefit in improving the relationship 
between local communities and the Federal land managing 
agencies; and to see the guaranteed payments extended for at 
least a time into the future.
    You know, it's interesting that we are now in the 100th 
anniversary of the first time that we made payments available 
to local governments that was enacted with legislation. It was 
passed by Congress in 1908 in the last year of the Roosevelt 
presidency. For about the first 50 years, those payments didn't 
amount to very much, really, in the broad scheme of things.
    It wasn't until the early 1950s that the Forest Service 
became much more active in the timber sales arena, and those 
payments began to increase. They increased pretty much every 
year from about 1950 through 1969, and then they leveled off, 
and the Forest Service endeavored, in a pre-endangered species 
era, to keep those payments level. They were level from about 
1970 until about 1990, and then, of course, they started to 
decline, precipitously, because of endangered species and other 
concerns. Now they're starting to trend back up again, 
slightly.
    But, you know, the agreement in 1908 was never that the 
communities were going to be given x amount of money; it was 
always that they were going to be given x percentage of 
whatever the receipts were. We have now extended the highest 
level of receipts for a period of time 1990 to present as long 
as the high level of timber receipts that preceded that 
existed.
    Senator Craig. Yes.
    Mr. Rey. So we do think that the communities in some cases 
have adjusted so that they're not so dependent on it, and in 
other cases still need some time to adjust which is why we're 
proposing an extension.
    Senator Craig. Madam Chairman, it's an issue that, 
obviously, impacts greatly northern California especially, 
along with my State, Oregon, Washington, and then, of course, 
all timber or forested public land States and counties.
    Secretary Rey, I appreciate the history. I repeat it often 
to superintendents and chairmen of school boards only to have 
their eyes glaze over.
    Mr. Rey. OK.
    Senator Craig. Because some of these transitions are 
difficult to come by. There is a dependency.
    Madam Chair, last year Senator Wyden and I crafted a new 
approach toward just in part exactly what Secretary Rey spoke 
of: a scaling down. The community of interest, the association, 
the group that came together headed by a gentleman from your 
State understands that, accepts that.
    I would really hope that we could match with some money 
that which Secretary Rey has talked about that's in this budget 
and possibly extend in at least a 4-year period, a similar 
formulation that we've talked about that takes us down and 
sends the message again to these communities that they really 
have to diversify and change as best they can, as rapidly as 
they can.
    This committee's going to, I think, play a tremendous role 
in that. You've got school districts that are heavily impacted 
as do I, and very little ability to offset these losses without 
some emergency funding from the States.
    Senator Feinstein. If we're having a discussion on this, I 
think we're going to have to get together and do it in the 
emergency supplemental----
    Senator Craig. I think you're right.
    Senator Feinstein [continuing]. That that's going to be the 
only way to get this thing done this year.
    Senator Craig. Oh, I don't think much else will be moving, 
yes, if we don't do that.
    Senator Feinstein. Right.
    Senator Craig. Thank you, I'd be more than happy, as would 
Senator Wyden and a good many others, including Senator Bennett 
to work with you on trying to accomplish something like that.
    Senator Feinstein. I realize now. Good.
    Senator Craig. Thank you.
    Senator Feinstein. That would be my intent to try and put 
something in.
    Senator Craig. Thank you
    Senator Feinstein. In any event, I think we're almost 
completed.
    I have one quick question, if I might. Mr. Rey, perhaps 
you'll remember we met with the seven fire chiefs----
    Mr. Rey. Yes.

               TAHOE AREA COMMUNITY FIRE PROTECTION PLANS

    Senator Feinstein [continuing]. Of Tahoe, and the community 
fire plans, and my understanding is Secretary Kempthorne put in 
the money to fund it. Have you had a chance to review that? Are 
they going well? Are they getting carried out? Is it worth 
continuing that effort?
    Mr. Rey. I think it is worth continuing the effort. I think 
a lot of progress has been made since last summer, and we are 
getting a lot more of the implementation of those plans 
completed.
    Senator Feinstein. Good. All right, thank you very much. 
That completes my questions.
    Senator, do you have a question?
    Senator Craig. Madam Chairman, I do have several questions, 
if I might.
    Senator Feinstein. All right. I have to excuse myself. 
Would you take over and conclude this?
    Senator Allard [presiding]. I'd be glad to, and I'll wrap 
it up as soon as----
    Senator Craig. Can we set funding levels?
    Senator Allard. We'll not abuse the trust that you've put 
in----
    Senator Feinstein. I understand that. I understand that, 
thank you.

                                GRAZING

    Senator Allard. I want to bring up grazing permits. Senator 
Craig mentioned something on grazing permits in his opening 
comments, and I want to follow up a little bit on these grazing 
permits.
    As you will recall, there was the 1995 Recision Act that 
Congress put a schedule in place for the renewal of the grazing 
permits, and the schedule requires the National Environment 
Policy Act document to be completed on all allotments by 2010. 
That's only 1 year after this budget's completed.
    In the fiscal year 2005 appropriations bill, the committee 
provided additional funds to address the backlog of allotments, 
and also at that time they provided a categorical exclusion 
from NEPA for grazing allotments that met certain conditions, 
and that cap was 900 allotments on this authority.
    By the end of this year, we have used 900 of these 
categorical exclusions. The answer is yes?
    Ms. Kimbell. Yes.
    Senator Allard. Okay. Has this been an effective tool in 
helping you catch up on the backlog of grazing permits that 
must be completed?
    Ms. Kimbell. This has been a very effective tool, and it 
would be a great thing to have it extended, if that was 
possible.
    Senator Allard. How many short are you in meeting the 2010 
deadline as far as you can tell?
    Ms. Kimbell. We expect to complete 460 this year, and 455 
next year. We have been working to keep that schedule updated. 
We will be almost 1,800 short of having all of the allotments 
completed with environmental analysis by the end of 2010.
    Senator Allard. So if we extend these categorical 
exclusions, how far out do you think would be appropriate time 
on it?
    Ms. Kimbell. We can provide that to you, Senator, with some 
real specifics region by region and project by project. But the 
categorical exclusion has been a very helpful tool and would be 
a real good thing to have to meet those.
    Senator Allard. We'll have our staff work with you on that.
    Ms. Kimbell. Great. Thank you.
    Senator Allard. You'll be able to complete the NEPA on 
these allotments consistent with the Recisions Act schedule, 
you think?
    Ms. Kimbell. Consistent with the schedule, the previous 
language allowed for a readjustment of this schedule, and we 
have that prepared and ready to present.
    Senator Allard. Okay. Do you have a follow-up on that, 
Senator Craig?
    Senator Craig. I would like to follow up, because I had 
mentioned the issue out in Idaho as it relates to the conflict 
between domestic sheep grazing, in this instance, and the 
bighorns.
    I don't question the need to create some kind of 
geographical buffer to keep these two different animals apart. 
But what happens is the inability of the Forest Service to 
operate in any timely fashion to make adjustments. You are, 
bureaucratically, tied up.
    For example, you have a good many grazing allotments in 
Idaho that are underutilized or not grazed at all. You could 
propose moving the domestic sheep over to another grazing 
allotment and creating those buffers and those separations. But 
you can't do it because you don't have a plan, and it takes 
years, and that sheep man's out of business.
    Yet, and, of course, these lawsuits have been brought by 
interests who want all grazing off public lands anyway, and 
you're falling right into their game plan by your inability to 
move in a timely fashion. You just talked about how long it's 
now taking you to bring about in a forest plan something that, 
while we need to be very observant of it and its impact on 
resource, it appears that the Forest Service really doesn't 
seem to care about grazing anymore in a timely fashion.
    Of course, in many Western States, when you take that 
ranching community down, you take the community down. Again, I 
talked about that hostility of relationship or, shall I say, a 
growing indifference as to your value and your presence. That's 
part of it. You no longer seem to be able to function.
    I guess my frustration is, okay, we've got a problem, the 
science is still out on the problem, clearly, definitively, so 
let's avoid the problem by a separation. I know that's what 
your regional forester in Missoula would like to do, but can't 
do. How do we deal with that?
    Ms. Kimbell. Senator, the agency remains very committed to 
our multiple use mission, and grazing is an important part of 
that mission. This is not an easy issue with the bighorn sheep 
and the domestic sheep, but we are working with the most 
current science in Idaho.
    With people working together, we really hope for a sheep 
plan, a sheep management plan, for the State of Idaho that is 
agreed to by all the many parties who have an interest in sheep 
grazing and in wild sheep populations. But we remain very 
committed to our multiple use mission.
    Mr. Rey. What we've tried to impress on our Forest Service 
range management and line officers is that the importance of 
maintaining these ranches is crucial to not seeing them 
subdivided and converted into developments, subdivisions, and 
thereby increasing the environmental impacts associated with 
that, including the cost of firefighting.
    So we've gone a long way towards trying to instill in our 
folks the notion that ranching is a preferred land use as 
compared to the alternative that we're seeing in large parts of 
the West.
    With the bighorn sheep, what we've got is a problem that's 
maybe temporary, that's a result of some of the success we've 
had in bighorn sheep reintroduction, and that may be solved, 
eventually, by the help of science as we learn more about how 
to prevent disease transmission between wild and domestic 
flocks.
    So we've got a little problem right now, but----
    Senator Craig. Mr. Secretary and Chief Kimbell, my only 
problem is time is not on our side as it relates to the life of 
that rancher.
    June turnout dates are critical; you don't make them, 
they're gone. There's no other place to go. Once you sell down 
your sheep and you're gone, then guess what happens. We 
subdivide, we build the megahomes, because the last asset that 
goes is the base property that's private. Then you're going to 
be fighting fire to protect the megahome built on the private 
property adjacent to the forested land because you could not 
act in a timely way to make a decision.
    Time is not on anybody's side on this issue, including the 
life of the rancher and possibly the life of the bighorn.

                             TIMBER BUDGET

    Senator Allard. Let me move on. I want to talk a little bit 
about the timber budget. It's one of the few programs that were 
not cut, and within this budget you provided full funding for 
the Northwest Forest Plan, an increase of $16 million. Even 
though the regions encompassed by the plan were only capable to 
accomplish 60 percent of their targeted sales volume last 
year--now, I acknowledge there are promises that were made to 
the timber industry in the Northwest Plan--but I wonder whether 
such a large increase aimed primarily at two regions of the 
Forest Service, covering Washington and Oregon, is the most 
efficient use of timber dollars.
    I guess the question I have, aren't there still some 
litigation problems with timber sales in Oregon and Washington 
which means they'll not be able to spend the dollars we're 
going to be providing them in the 2010 budget?
    Mr. Rey. Well, first, they do have the capability to spend 
that increase wisely and in a way that does result in 
additional timber outputs.
    Second, you're correct, there are still litigation 
challenges in that region, but then they're not unique in that 
regard; that litigation challenge is elsewhere as well.
    Third, and I guess most importantly, the allocation of 
those dollars is something that we'll work with the committee 
on to achieve whatever the most equitable result is.
    Senator Allard. Well, the point is that they only spent 60 
percent of their dollars in the last budget.
    Mr. Rey. They spent all their dollars; they only hit 60 
percent of their accomplishments.
    Senator Allard. Okay.
    Mr. Rey. Much of the difference was a result of litigation.
    Senator Allard. Okay.
    Mr. Rey. Some of those were sales that were not offered, 
but that have been freed from litigation and appeals, and will 
come on line as they work their way through the lawsuits.
    Senator Allard. Since the overall budget, timber budget is 
flat, if you look at all the whole budget, you know, including 
the Northwest, large increases to this section of the country, 
isn't that an expense to all of the other regions?
    Mr. Rey. What we endeavored to do in our first allocation 
was to give that region the largest increase commensurate with 
our commitment to fully implement the Northwest Forest Plan 
without disadvantaging any of the other regions. They would be 
largely where they were at in 2008.
    Senator Allard. But, you know, we've talked about paying 
for some of the programs that we have in other parts of the 
country--Colorado and Idaho and what not--and yet the response 
I've gotten back off the record was, you know, we get a large 
amount of money, it goes to the Northwest and it's not 
available to you folks.
    So I'd like to know if you can quantify for us the cuts 
being imposed on other regions. Maybe they're not cuts; maybe 
they're lack of program dollars that need to be made available 
to meet their program objectives in a region. What is the 
dollar value to that?
    Mr. Rey. We can break out the regional allocations for you.
    Senator Allard. We'd appreciate it.
    [The information follows:]

                                                              VEGETATION MANAGEMENT SUMMARY
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                Regional
 BLI           Fiscal year final allocation             R-1       R-2       R-3       R-4       R-5       R-6       R-8       R-9      R-10     subtotal
--------------------------------------------------------------------------------------------------------------------------------------------------------
 NFTM Forest Products                               $21,877   $18,320    $9,157   $13,472   $26,416   $45,970   $24,763   $23,801   $14,519   $198,295
 SSSS Salvage Timber                                  8,701     1,007       659     1,028     5,729     6,495     2,652     7,357       762     34,390
 CWK2 K-V Forest Products                               700  ........     2,000  ........     6,200     2,300     4,900     4,900  ........     21,000
 WFHF Hazardous Fuels                                15,290    23,815    35,714    16,531    46,128    28,362    32,838     9,001       944    208,623
 WFHF Emer. Supplemental/Omnibus Earmarks          ........       800     2,600  ........    42,000  ........  ........  ........  ........     52,600
 PEP2 Sec. 423 Forest Health                          2,921     3,011     1,463     1,545       804       910     1,779     2,567  ........     15,000
                                                  ------------------------------------------------------------------------------------------------------
            Total                                    49,489    54,153    51,593    32,576   127,277    84,037    66,932    47,626    16,225    529,908
--------------------------------------------------------------------------------------------------------------------------------------------------------
      Note.--PEP2 allocation is based upon fire condition class, insect and disease risk, as well as timber sale unit costs.


    Mr. Rey. We are deeply cognizant that the Congress has a 
role in making those allocations, so we'll be working with you 
on that.
    Senator Allard. I understand. Okay, thank you.
    Let's see, we've pretty well covered that.

                         WILDLAND FIRE OUTLOOK

    Now, on the wildland fire outlook for this year, I know 
you're trying to project the severity of the upcoming fire 
season, and it's pretty difficult at this point in time. But 
we're likely to be marking up the supplemental appropriation 
bill later this month.
    With that in mind, can you give us some sense of how severe 
you might expect this fire season to be, based on what you know 
now?
    Mr. Rey. Sure.
    Senator Allard. About snowfalls and those type of things.
    Mr. Rey. Our initial predictions were for above average 
fire activity this year. We're still in a drought situation in 
the Southeast, so we have predicted that we'd hit the fire 
season there earlier than normal. We have gotten near record 
amounts of snowfall in the Northern Rockies and in other parts 
of the West, so depending on how fast that melts that might 
modulate what we were predicting as above average fire year.
    But at least for right now, we think it's going to be an 
above average fire year, comparable to the last couple.
    Senator Allard. So you think you're going to have 
sufficient resources available to get you throughout the year 
without having to borrow any massive sums from other nonfire 
programs?
    Mr. Rey. Past experience would say that that's not likely.
    Senator Allard. Can you give us a figure?
    Senator Craig. I think he's saying past experience with 
this committee would suggest that we're going to help them.
    Senator Allard. I'm looking for a figure that we might be 
able to help you with.
    Mr. Rey. That would be hard to project in anything but an 
arbitrary fashion this early in the season. If, you know, we 
get a cold, wet spring, kind of the same weather pattern that's 
there now in the Northern Rockies, if that holds for awhile, we 
could have a relatively mild fire year in that part of the 
country. But, on the other hand, if we get a hot spell, and 
that snow just all melts really fast, we'll get a flush of 
vegetation and that might prove to be a difficult fire year.

     POTENTIAL MOVE OF FOREST SERVICE TO DEPARTMENT OF THE INTERIOR

    Senator Allard. Mark, you've been with the Department of 
Agriculture now for 7 years, and I'd like to know what your 
assessments are on the pros and cons of some suggestion that 
the Forest Service might be moved to the Department of the 
Interior. I value your objective observations in this. I wonder 
if you could share those with the committee.
    Mr. Rey. You know, we agreed to participate in the GAO 
study that the House Appropriations Committee asked for, and 
we're going to do that in as honest a way as we can.
    What strikes me, generally speaking, is that most of the 
issues we've been discussing today aren't issues that lend 
themselves to structural solutions. So no matter where the 
Forest Service is, it's still going to have problems that we've 
been discussing, and those problems aren't going to change if 
we change the structure of the agency or who it reports to.
    So, what I look at in executive branch governance is the 
proposition that form ought to follow function, and if you're 
still arguing about how well the functions are working or what 
some of the functions should be, you probably ought to resolve 
that first before you try to fiddle with the form.
    But----
    Senator Allard. That was a nice nonanswer.
    Mr. Rey. It was about as good as I could give you. What I 
think we'll find as we get into this study, is: That one of the 
aspects of level budgets in discretionary spending have forced 
executive branch agencies to do as much together as they can. 
So what I think the GAO analysts are going to find is that 
we're already doing a lot of things together with the 
Department of the Interior land managing agencies.
    We have a unified command firefighting system that's not 
going to be materially improved by moving the Interior agencies 
to Agriculture or the Forest Service to Interior.
    We have a unified recreation reservation system. We have 
the Service First Initiative where we share staff with 
particular technical expertises.
    Similarly, if you look at the other direction between the 
Forest Service and the other USDA agencies, we've unified a lot 
of functions there. Just, for instance, we have all of the 
payroll work centralized, done in a centralized institution, 
the National Finance Center in New Orleans. We have a common 
computing environment. We have staff that we share with the 
Natural Resources Conservation Service.
    So what you're probably going to find is that, yes, there 
are some efficiencies by making some changes, but there are 
going to be some offsetting inefficiencies that are going to be 
created. Should we decide at the end of that study, for 
instance, to move the Forest Service to the Department of the 
Interior, we'll probably be having to figure out how to justify 
upwards of $100 million in computer expenses that have already 
been incurred to unify the computer systems throughout USDA 
agencies so that we can talk to one another.
    Senator Allard. Since we are waltzing around this question, 
I have a couple more for us to dance around.
    Mr. Rey. Okay.
    Senator Allard. You know, the one thought that's been 
expressed is that the Secretary of Agriculture is so busy with 
the farm programs and what not, he doesn't have the time that 
he probably ought to be allocating to forest issues and land 
management issues. The Department of the Interior, Secretary of 
the Interior, is more experienced in land management issues 
because of their jurisdiction which they now cover.
    I'd like to have you respond to that question. Then the 
other argument that we hear out there is that, well, if you 
move from Agriculture to the Interior, you change the mission, 
where the mission of the Interior--you subtlely change it--
where the mission of the Interior has been more towards 
preservation.
    Then we get from the Department of Agriculture more of a 
multiple use concept, and I think, at least on this side of the 
aisle, most of the members would like to support the multiple 
use concept. So I wondered if you'd address those two 
questions.
    Mr. Rey. Sure. At least as far as it involves the two 
incumbent secretaries, they actually have very similar 
backgrounds and a similar level of interest in natural 
resources management. They're both Western Governors from 
States with a substantial amount of federally-owned land. It so 
happens that Secretary Schafer, being from North Dakota, is 
much more familiar with the management of the national 
grasslands, which are part of the National Forest System, 
because North Dakota has a very small national forest acreage.
    Secretary Kempthorne, obviously from Idaho, has a great 
deal more national forest acreage, but I think at least as far 
as the two incumbents are concerned, they're both equally 
interested in natural resources management. It's probably not 
an accurate summary to suggest that Secretary Schafer doesn't 
have some background experience and interest therein.
    Both Secretaries, obviously have to focus on what's before 
them at a particular point in time as far as their respective 
agencies are concerned. I don't know that you can generalize 
and say that the Secretary of the Interior or the Secretary of 
Agriculture is more or less interested in natural resources 
management on a continuing basis. At least today, with the two 
incumbents, I'd say they're equally interested in and pretty 
much equally versed in it in most respects.
    In terms of the agency missions, you know, those are pretty 
much set by the statutes. The BLM and the Forest Service are 
going to remain multiple use agencies because the organic 
legislation directs that as the way they approach the issues 
that they have to deal with.
    The Park Service and the Fish and Wildlife Service have 
organic missions that are somewhat narrower. In the case of the 
parks, they have two main initiatives, and that is to preserve 
the resources that they're entrusted with and to make them 
available for visitors. So it's a preservation and recreation 
mission that's somewhat narrower than BLM or the Forest 
Service.
    But I don't think, unless you change those missions as 
they're embodied in their organic statutes, that you're going 
to much change the agencies by moving them from one department 
to another. Just my take on it.
    Senator Allard. Okay. One last question. Did you have some 
questions?
    Senator Craig. I'll only make one observation as to the 
Secretary's evaluation of this proposal. If you stay in 
Washington long enough, I think there is a relatively standard 
axiom that you can accept that bad ideas continue to resurface.
    I think when I first got here in the early 1980s, we were 
talking about the bringing of the agencies together, and I 
think we did that in the mid-1990s. So you see, the House is 
really being very creative: They're repeating a bad idea and 
will study it like mad. We will not be able to break down all 
of the stakeholders of interest that, in part, determine the 
policy and most important, determine the politics of it.
    While I think, Senator Allard, there are some commonalities 
that the Secretary has already spoken to that we can bring 
together, we have a commonality that's created a unifying 
resource group out in Idaho called the Interagency Fire Center 
which pools resources for a variety of broad public 
firefighting interests. That's fine, but there are very 
distinctively different missions in some of these that are 
unique to the BLM and unique to the Forest Service, vis-a-vis 
Agriculture and Interior.
    So when I first began to hear about it, I thought, well, 
it's probably worth the analysis, but it will conclude in 
drawing nothing but dust on the shelves, and out of it may come 
some ideas that are implementable as it relates to cooperative 
interagency relationships. But beyond that I would seriously 
doubt that over the last decade a bad idea has become a good 
idea.
    Mr. Rey. I can tell you from visiting with the GAO auditors 
that they are going to take a very thorough approach to the 
task, and their stated goal is to lay out a variety of 
alternatives for the Congress--most likely the next Congress--
to consider because they're planning on concluding their study 
sometime late this year.

                        COHESIVE FUELS STRATEGY

    Senator Allard. Well, GAO has been somewhat critical about 
having developed any cohesive strategy that allows us to look 
at long-term results and effects and what not.
    They have also found that the firefighting agencies have 
yet to develop a better process for allocating fuel reduction 
funds to the various regions. Despite these calls from GAO, the 
agencies--you've not developed any cohesive strategy that I'm 
aware of that would allow us to look at a long-term investment 
in hazardous fuels funding, for example, and their impacts on 
the costs of firefighting.
    Can you respond to that question?
    Mr. Rey. Sure. We've been engaged in what I'll call a 
fairly lengthy ongoing dialogue with GAO about what they think 
is lacking in our current cohesive fuel strategy which we 
developed jointly with the Department of the Interior. We are 
in the process of augmenting that strategy to meet some of the 
things that they have indicated they'd like to see.
    Where I think we still are struggling to reach an accord 
with GAO is in the question of how much sense it makes to try 
to project out fuels treatment priorities very far into the 
future and to put dollars around those priorities in out years.
    The reason we take a somewhat skeptical view of the benefit 
of that is that those fuels treatment priorities are going to 
change over time by necessity. We're going to have new 
subdivisions develop in places where they aren't now that's 
going to elevate a certain area to a higher level of priority 
for treatment that we can't necessarily predict right now.
    But I'd say that we're probably pretty far along the way to 
closing out disagreement with them. The question isn't whether 
we have a cohesive fuel strategy or not, we do; the question is 
whether it meets all of the standards for information the GAO 
would like to see in it, and the answer is it doesn't now, but 
likely will as we add components to it over the next several 
months.

                     PROGRAM ASSESSMENT RATING TOOL

    Senator Allard. We're on the issue of accountability. I'm 
also one who pays particular attention to the Government 
Performance and Results Act. It's also known as PART, under the 
President's plan. I'm going to let you off kind of easy on that 
question.
    I have noticed that there are four programs, I think, that 
fall on this budget that are classified as nonperforming. I 
would ask that you submit to the committee and also to my 
office your explanation of why they're nonperforming. I know 
there may be some legitimate reasons, and I just want on the 
record for you to give an opportunity of why you don't--if you 
don't agree with them, fine; if you see that there are some 
shortfalls, what you're doing to correct those.
    Those four programs--one's the USDA Wildland Fire 
Management, and the other one is the Wildlife Habitat Incentive 
Program; the third one is the Forest Service Invasive Species 
Program. Then, finally, one that's very popular with Members of 
Congress but I think we need some explanation, and that is the 
Department of the Interior Land and Water Conservation Land 
Acquisition Fund.
    So those four, if we just have some explanation.
    Mr. Rey. I think we can give you the information on three 
of the four. We'll have to work with Interior on the last one.
    Senator Allard. Okay.
    Mr. Rey. Because it's a joint program.
    [The information follows:]
    PART Ratings That Several Forest Service Programs Received for 
                             Nonperformance
        watershed current part rating--results not demonstrated
    The Forest Service is responding to the Watershed PART Assessment 
by developing new policy, protocols, and tools to improve program 
delivery and effectiveness. The agency has identified a consistent 
approach for determining watershed condition on National Forest System 
(NFS) lands, supporting efforts to prioritize watershed improvement 
activities. The Forest Service has also developed aquatic inventory and 
monitoring protocols for NFS lands and GIS-based tools to help States 
identify and prioritize critical forest areas on non-Federal lands. 
Through these applications and others, the NFS and State and Private 
Forestry deputy areas are exploring meaningful ways to measure 
effectiveness of programs pertaining to watershed improvement.
    The agency is beginning to implement elements of the PART 
Improvement Plan to improve the program's rating. These actions consist 
of (1) developing a nationally consistent methodology for determining 
watershed condition class as basis for prioritizing watersheds 
management and (2) developing a national approach to describe and 
monitor the status and trend of aquatic resources. Additionally, the 
Forest Service and OMB recently negotiated an ``Action Plan for the 
Development of a Watershed Efficiency Measure and a National Watershed 
Condition Class Rating System,'' establishing a process and timetable 
for improvement.
 capital improvement and maintenance current part rating--results not 
                              demonstrated
    The PART process for Capital Improvement and Maintenance aligned 
the Forest Service with USDA and OMB's Real Property Initiatives and 
Asset Management Plans. The performance measures developed as a result 
of the assessment have improved planning and assessment of the agency's 
infrastructure, resulting in better priority setting criteria and 
project selection. Better planning and assessment supports the agency's 
effort to determine an optimal infrastructure level, keeping only what 
is necessary to implement the agency's mission and meet public needs. 
To further inform infrastructure maintenance, the agency has adopted 
the industry standards for the Facility Condition Index. The Index is a 
general metric that tracks national trends in the condition of the 
agency's portfolio with respect to the deferred maintenance backlog. 
The Index allows decision makers at the local level to prioritize 
individual assets for funding, repair, or disposal, based on relative 
conditions.
    The Forest Service is developing long-term outcome-based 
performance measures that fully cover the program, including safety, 
condition sustainability and environmental suitability, utilization, 
and mission dependency. It will also develop and implement a strategy 
to prioritize road, facility, and trail improvements that reflect 
investment strategies as common criteria for reducing the deferred 
maintenance backlog. Finally, the agency has used disposal authorities 
to convey excess or unneeded properties through the Facilities 
Realignment and Enhancement Act.
         wildland fire management current part rating--adequate
    In fiscal year 2007, the Forest Service addressed the following 
actions contained in the PART Improvement Plan: refining program 
delivery, improving procedures for allocating hazardous fuels reduction 
funds, and improving data to reduce the risk of catastrophic fire.
    The Forest Service developed a technical guide that identifies the 
items and strategic nature of discussions in land management plans in 
fiscal year 2007, and is currently developing a new Forest Plan 
template, which should be available by the end of fiscal year 2008.
    Several large fire cost containment audit reports were issued in 
fiscal year 2007. The Office of Inspector General (OIG) issued a report 
containing 18 recommendations on cost containment needs. The Forest 
Service has completed actions on two recommendations, including 
development of a new Master Cooperative Wildland Fire Management 
Agreement template. Work is ongoing on all open recommendations.
    The Forest Service is working with a multi-agency taskforce to 
develop a cost management strategy formulation process to provide a 
better picture of fire suppression costs over the life of an incident, 
establish short-term cost plans for fire resource ordering and 
procurement, and reaffirm the regional and national role in pricing 
fire resources (Federal, State, and local, private contractor, and 
military).
    A post-incident recovery team is developing policy, guidance, and 
tools to provide rapid assessment of rehabilitation needs following 
fires and other events. These actions will enable the agency to 
prioritize the rehabilitation work, along with the regular program of 
work, to ensure the highest priority of work is funded and 
accomplished.
             invasive species current part rating--adequate
    As a result of the Invasive Species PART Assessment, the Forest 
Service has focused the program around outcome-based activities that 
reduce the impact of invasive species on priority Federal and non-
Federal forests and grasslands and tie directly to the USDA and agency 
strategic plans. Performance measures track treatment prioritization 
based on risk, treatment efficacy, and implementation costs; 
development, delivery, and use of tools; and customer satisfaction with 
tools produced. The Forest Service is also implementing an improved 
system of tabular and spatial record keeping for all invasive species 
management projects.
    New performance measures tracking outputs, outcomes, and 
efficiencies--developed during the PART Assessment process--help the 
agency to better determine program success. Field units have been 
tracking these measures for the past 2 years.
                  energy current part rating--adequate
    In response to the PART assessment on the oil and gas energy 
resources program, the Forest Service refined performance measures to 
track compliance with agency strategic plan goals and objectives, 
emphasizing the agency's ability to process lease applications in a 
timely manner. The new performance measures have helped the agency to 
direct funding and resources to reduce project processing times while 
assuring compliance with remediation measures. Also a result of the 
PART assessment, the Forest Service now holds regular coordination 
meetings with the Bureau of Land Management, with which it manages the 
energy minerals program. Regular meetings have eased implementation of 
MOUs, facilitating more efficient program delivery.
             land acquisition current part rating--adequate
    The Forest Service has used the PART process to improve land 
validation, ensuring that land purchases and donations meet the 
agency's strategic plan goals and objectives. The agency has adopted 
two new measures for land acquisition into the Performance and 
Accountability System and Workplan, systems that agency uses to manage 
and track project funding and performance. The Forest Service has also 
updated the Agency Land Purchase Digest system to include case-specific 
information for these performance measures, as well as three new 
efficiency measures. With these improvements, the agency will be able 
to more accurately assess program effectiveness.
    forest legacy program current part rating--moderately effective
    Following its PART assessment, the Forest Legacy Program (FLP) 
developed seven performance measures and national strategic direction 
to further ensure that Federal dollars are spent on those projects of 
highest national importance. FLP revised its national scoring guidance 
for the annual project selection panel to increase the emphasis on 
protecting nationally important resources that fit within a larger 
regional or national conservation landscape level plan. In addition, 
FLP is reducing the average length of time it takes to complete a 
project. FLP is also working to ensure timely quality appraisals to 
reduce the average project completion time.
          recreation current part rating--moderately effective
    The Forest Service is using the PART assessment to focus business 
planning and improve cost accounting in the developed recreation sites 
program. The agency is currently going through a Recreation Facility 
Analysis (RFA) process to prioritize recreation site improvements, to 
reduce deferred maintenance, and improve cost analysis. Under this 
analysis, national forests weigh and compare facilities' ability to 
serve public needs and wants with the forest's capacity to operate and 
maintain existing structures at desired quality standards. One of the 
primary goals of RFA is to reduce recreation site deferred maintenance 
by 20 percent in 5 years on each national forest.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. Very good. Well, at least from your 
perspective on the last, if you would, and we'll go to Interior 
and ask them for their side of it.
    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Dianne Feinstein
              firefighter retention in southern california
    Question. In your analysis, you acknowledge a morale problem among 
firefighters on these forests, but your analysis also claims that the 
``perceptions around recruitment and retention in southern California 
are hard to substantiate based on data.''
    Part of your claim is that the overall attrition rate is lower than 
the average attrition rate of all Federal employees, which is 13.4 
percent. However, your analysis also showed that your attrition rate 
among southern California fire personnel was 9.4 percent last year--49 
percent greater than the agency's overall firefighter attrition rate of 
6.3 percent. On the Angeles National Forest, you report an attrition 
rate of 12.2 percent, which is double the Forest Service's firefighter 
attrition average. It also showed that the Forest Service lost 46 
percent of your entry-level firefighters last year in southern 
California--twice the agency's overall attrition average.
    How did the agency compile the attrition rate data presented to the 
Committee?
    Answer. Rates for employees leaving the agency were compiled from a 
10-year database of permanent workforce in California. The position 
series used were 0462 and 0401 for both fire and non-fire positions 
since there is no way to isolate fire positions based on the series. 
The data itself comes from the data warehouse maintained by the 
National Finance Center (NFC)
    Question. You use these data to represent trends in firefighting 
employment, but acknowledge that the data used in your analysis contain 
both fire and non-fire personnel. Is it appropriate to make decisions 
about firefighter retention using data that include an unknown number 
of other personnel? Did the agency conduct an analysis to see how many 
non-fire positions were included in the data?
    Answer. Because there is not a specific job series for wildland 
firefighters, it is not possible to easily isolate firefighters among 
the other job functions included within the 0401 and 0462 job series. 
However, in Region 5 the majority of employees in the 0401 and 0462 job 
series are fire employees. We believe using these job series provide 
the most accurate available data set which encompasses the entire fire 
organization.
    Question. Why did the agency choose to compare the attrition rate 
of firefighters against the attrition rate for all Federal employees as 
the basis of determining whether it has the appropriate retention 
level? Why and how did you decide that was the appropriate baseline?
    Answer. The agency did not utilize this comparison as the sole 
basis of determining whether it has the appropriate retention level. A 
number of factors were assessed in the report including the change in 
permanent fire workforce over the period from 1997-2007, which 
indicated an 82 percent increase in permanent Fire and Aviation 
Management staff. We also used 2007 data on retirements, resignations 
and transfers, which indicated a net gain of 68 employees an increase 
of 3 percent. In short, within Region 5 there are significantly more 
firefighters today than there were 10 years ago. The comparison to 
Forest Service wide and all Federal Service were used to illuminate the 
attrition of firefighters in California in context with broader 
attrition rates of natural resource professionals in the Forest Service 
and Federal Government.
    Forest Service leadership recognizes that some employees have left 
the agency and that this is most visible in the fire organization. As 
noted in the letter to Senator Feinstein from Under Secretary Rey, 
dated May 6, 2008, the Forest Service has a number of initiatives to 
address retention in the fire organization.
    Question. What are the trends over time for attrition rates of 
Forest Service firefighters, both in Region 5 and for the four southern 
California forests? Please provide the Committee with the annual 
attrition rate of all firefighting employees for each of the Region 5 
forests for each of the past 10 fiscal years.
    Answer. Data for this question is readily available only from 1997 
to 2006 and is based upon calendar years instead of fiscal years. 
Please see attachment 1. In general, the number of Region 5 permanent 
firefighters at the end of fiscal year 2006 is more than 50 percent 
higher than the fiscal year 2000 levels, even assuming attrition.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question. What effect has this attrition had on the experience 
level and the institutional memory of the Region's firefighting corps?
    Answer. The analysis indicates that the greatest numbers of 
employees leaving the agency are at the GS-04 entry level, where 
employees are in seasonal positions and are more likely to be at the 
beginning of their careers. Experience and institutional memory 
principally lie with permanent employees at grade levels GS-06 and 
above, and there is minimal attrition at that level. Further, because 
the overall number of firefighters in Region 5 remains over 50 percent 
above the number of permanent firefighters at the end of fiscal year 
2000 even accounting for attrition, the amount of institutional and 
professional knowledge available to the Forest Service is greater than 
the pre-2000 levels.
    Even as the Forest Service has expanded its permanent firefighter 
workforce compared to the pre-2000 levels, we share the concerns about 
maintaining institutional memory and experience into the future and are 
committed to actions that provide a continuing qualified, 
knowledgeable, and safe firefighting cadre. Our current recruiting 
efforts and apprenticeship program are focusing on hiring entry-level 
employees, and increasing promotion rates into higher ranks and 
permanent positions by promoting as soon as they acquire the necessary 
skills and experience. This ensures that new employees have a tangible 
career ladder and thus create an incentive to remain with the Forest 
Service. These employees will become our future leaders and will gain 
experience and institutional knowledge as they continue their careers.
    Question. Though it claims that recruitment is outpacing retention, 
the analysis does not provide data on actual vacancy rates that are 
caused by attrition or other factors. Please provide data on planned 
versus actual firefighter employment, by pay-grade and by forest, for 
each of the Region 5 forests as of April 1, 2008. Please provide 
specific statistics for both permanent and temporary firefighters.
    Answer. Please see attachment 2.
    Question. Please provide data on planned versus actual firefighting 
personnel in Region 5, by forest, for each of the past 10 fiscal years.
    Answer. This data is not readily available on a forest by forest 
basis. Please see attachment 3 for a chart describing planned and 
actual hires for permanent, apprentice, and temporary employees 2000-
2007.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question. How will the agency monitor hiring and retention to 
ensure that its firefighting positions are filled to capacity before 
the beginning of fire season? How many positions currently remain to be 
filled? By what date will staffing be complete?
    Answer. The agency's goal is to ensure that we have the capacity to 
meet our wildland fire mission. In the Pacific Southwest Region (Region 
5) the Forest Service has planned for 4,432 permanent, temporary, and 
apprentice positions for the 2008 fire season. It is important to note 
that staffing in the firefighting organization will fluctuate 
throughout the season. As the fires season progresses, Forest 
Supervisors monitor staffing decisions to address the firefighting 
mission and if extreme fire danger warrants, have the ability to hire 
additional resources. There are currently 363 vacant positions in 
Region 5. The region is planning to have another round of fire hiring 
in early July to fill these vacancies before the California fire season 
commences in earnest.
    Question. While the analysis provides a number of short-term 
recommendations that may be considered to improve firefighter morale, 
including retention bonuses, flexibility of scheduling and other 
quality of life improvements, it fails to provide concrete 
recommendations as requested by my directive in the fiscal year 2008 
Consolidated Appropriations Act (Public Law 110-161). It is essential 
that your agency take action immediately to improve morale, and 
additional inducements may also be critical to your efforts to fully 
staff your firefighting positions for this fire season.
    What process will the agency use to determine which of these 
recommendations will be employed? How will you solicit input from local 
firefighters?
    Answer. Region 5 is taking the lead to address these issues. Four 
teams, each led by one or more Forest Supervisors and including one or 
more forest fire managers, have been established to develop 
recommendations, on four key areas: mission, pay, workplace 
improvement, and facilities.
    Region 5's current recruiting efforts and apprenticeship program 
are focusing on hiring entry-level employees, where the attrition rate 
is greatest. The region is increasing promotion rates into higher ranks 
and permanent positions for these employees as soon as they acquire the 
necessary skills and experience.
    It is recognized that the high cost of living in California is an 
important factor affecting employees. Region 5 is working with local 
forests to determine if retention allowances can immediately assist 
with retaining employees.
    Question. When and by whom will a decision on to implement 
recommendations be made?
    Answer. The team's recommendations will be completed by June 30. 
The Regional Forester will make a decision on the recommendations at 
that time and implementation will begin immediately.
    Question. What is the agency's long-term plan for analyzing the 
agency's firefighting mission, and for addressing firefighter pay and 
benefits issues, both in California and agency-wide?
    Answer. The agency has begun an assessment of mission related 
activities and workload within the wildland-urban interface and is 
assembling the appropriate information for analyzing mission related 
activities across the Nation, as well as functions that are less 
congruent with the agency's land management mission. We will review the 
finding of this assessment and determine the need to make national or 
regional decisions based on this analysis.
    In terms of pay and benefits for fire fighters in California, the 
Regional Forester has created teams specifically focused on pay and 
workplace improvement. In addition the region is evaluating and 
implementing actions related to focused recruitment and retention 
bonuses ensuring that employees have a tangible career ladder. Beyond 
California there is currently no indication that significant issues 
exist agency-wide with firefighter pay and benefits.
        fuels/use of healthy forest restoration act authorities
    Question. According to your agency's Healthy Forests Report 2007, 
you have only treated 295,000 acres under HFRA Title I authorities over 
the past 3 years, while 12.8 million acres were treated using other 
authorities. You treated 163,000 acres using HFRA authorities in fiscal 
year 2007, which is a fraction of the agency's authorized HRFA limit of 
20 million acres.
    Why is the agency still only treating a fraction its acres using 
HFRA authorities? Why is the pace of implementation so slow?
    Answer. Most of the acres treated are being carried out under pre-
existing authorities. The planning authorities available under HFRA are 
important tools to help the agency achieve its goals for restoring 
forest and rangeland health, reducing hazardous fuels, and creating 
sustainable conditions to facilitate protection of communities and 
resources. Land managers and communities are often focused on outcomes 
and not on the use of a particular authority. While accomplishments 
achieved under other authorities do not count as ``HFRA acres'' they 
nevertheless contribute to the overall objectives of the act.
    Question. How many acres will the agency treat in fiscal year 2008 
using HFRA authorities? How many acres are planned for treatment under 
HFRA in fiscal year 2009?
    Answer. Each year the number of acres treated using HFRA 
authorities increases and we expect this trend to continue. In fiscal 
year 2007, a total of 163,000 acres were treated using HFRA, an 
increase of 65 percent above the 2006 level. Treatments using 
authorities under Healthy Forest Initiative accounted for an additional 
417,000 acres.
    In fiscal year 2008 and fiscal year 2009 we anticipate further 
expanding the use of HFRA authorities. The use of HFRA and HFI 
authorities has been on an increasing trend and lands treated under 
those authorities in fiscal years 2008 and 2009 will meet or exceed the 
580,000 acres treated using both HFRA and HFI in fiscal year 2007.
    Question. What specific steps has the agency taken to increase the 
number of acres treated under HRFA authorities in the past fiscal year?
    Answer. The Forest Service has taken several actions to support 
accomplishment of all vegetation treatments that contribute to the 
overall HFRA objectives. For example:
  --Increased Leadership at the National Office to support use of HFRA 
        authorities.--The National Office has conducted an assessment 
        of the impacts of the recent U.S. Ninth Circuit Court of 
        Appeals decision declaring the Hazardous Fuels Reduction 
        Categorical Exclusion (HFRCE) developed under the President's 
        Healthy Forest Initiative invalid. The Chief has directed the 
        Forest Service to refrain from approving new projects using the 
        HFRCE, and avoid advertising or awarding contracts to implement 
        decisions made after October 8, 2004 approved under the HFRCE. 
        We expect additional use of HFRA authorities due to this 
        direction.
  --Increased Focus on Improving Communication and Sharing Success 
        Stories.--Considerable information about the requirements of 
        HFRA, and tools to help in understanding its application are on 
        the Washington Office intranet. One of these tools is a Web 
        Guide that walks the reader through the decision process to 
        determine whether HFRA authorities might be used in particular 
        situations. Another is the Healthy Forests Initiative and 
        Healthy Forests Restoration Act Interim Field Guide (Field 
        Guide) providing a wealth of information on the law's 
        interpretation and application.
  --Increased Use of Strategic Assessments.--Regions are capitalizing 
        on leadership of States and local government in the development 
        of community wildfire protection plans (CWPPs). Nearly 5,000 
        communities are now covered by CWPPs.
  --Increased Focus on Training and Reviews.--Several regions are 
        targeting training to Line Officers, Planners, and Resource 
        Specialists on use of the entire suite of authorities to manage 
        vegetative conditions in collaboration with communities.
  --Enhancing Stewardship Contracting to Build Collaborative Capacity 
        and Accomplish Restoration.--Many of the successes in our use 
        of stewardship contracting are a direct result of the 
        development and implementation of projects through 
        collaborative partnerships with groups of diverse interests.
  --Forest Restoration Framework and Policy.--The Forest Service has 
        completed a strategic, science-based framework for restoring 
        and maintaining forest and grassland ecological conditions 
        titled the ``Ecosystem Restoration Framework.'' This framework 
        has informed the development of an agency wide restoration 
        policy--expected to be released late spring 2008. The policy 
        addresses requirements to plan, implement, monitor, and 
        evaluate ecological restoration activities in consideration of 
        current and future desired conditions and the potential for 
        future changes in environmental conditions, including climate 
        change.
  --Release of the Forest Service Woody Biomass Utilization Strategy.--
        The strategy describes how Forest Service programs can better 
        coordinate to improve the use of woody biomass in tandem with 
        forest management activities on both Federal and private land.
    In addition, the following direction was included in the fiscal 
year 2007 and fiscal year 2008 program direction to the field: 
``Project planning and implementation associated with a Community 
Wildfire Protection Plan must take priority over other projects within 
the Region or Forest, unless prevented by extenuating circumstances.'' 
A large number of community wildfire protection plans have been 
prepared under HFRA. The numbers climb each year as managers 
effectively facilitate successful collaborative planning efforts, and 
this approach becomes the planning standard.
    Question. Does the agency evaluate each of its proposed fuel 
treatment projects for possible use of HFRA authorities? If not, how 
does the agency choose which projects to evaluate for possible HFRA 
use?
    Answer. Every project is evaluated for the suitability of utilizing 
an HFRA authority. The decision authorities provided by the HFRA are a 
tool that line officers consider when evaluating the most effective and 
efficient means of accomplishing their hazardous fuels reduction and 
ecological restoration objectives.
    Question. Your recent Healthy Forests report from December, 2007 
indicates that only 16 percent of all acres treated with hazardous 
fuels dollars last year were mechanical treatments, while approximately 
84 percent of acres accomplished were treated through prescribed fire. 
How does the agency decide how many acres to treat through mechanical 
thinning versus prescribed burns? Why isn't the agency using mechanical 
thinning for a greater proportion of its fuels acres?
    Answer. Our total hazardous fuel reduction accomplishment includes 
acres treated by other program areas with a secondary benefit of 
reduced hazardous fuels, such as mechanical treatment, not just those 
acres treated with hazardous fuels dollars. When considering all 
hazardous fuels reduction from all funding sources, 38 percent of the 3 
million acres treated in fiscal year 2007 were accomplished using 
mechanical methods. Accomplishing our hazardous fuel reduction 
objective includes use of all management tools available to us, 
including both prescribed burning and mechanical fuel reduction. 
Managers select the appropriate treatment method based on site 
conditions; opportunity for commodity recovery via timber sale or 
biomass removal; accessibility; proximity to wildland urban interface 
or other high valued resources; and the potential to use prescribed 
fire safely. Mechanical treatments can approximate the impacts of a 
natural disturbance regime through fire, but it cannot completely 
replace fire's beneficial effects on the site which include nutrient 
cycling, preparation of the seed bed, and selection of fire-adapted 
plants. Fire must continue to be an important part of our management of 
fire-adapted ecosystems.
                         travel management rule
    Question. What is the agency's schedule for implementing the travel 
management rule, which calls for the agency to codify its cross-country 
motorized vehicle use? Who or what determined this schedule?
    Answer. The planned schedule has all administrative units 
identifying those roads, trails, and areas which are open to motor 
vehicle use and publishing a Motor Vehicle Use Map by December 31, 
2009. The Chief of the Forest Service determined the planned schedule.
    Question. Is the agency preparing a travel analysis for each 
individual National Forest?
    Answer. Travel analysis is a pre-NEPA process explained in the 2005 
Motor Vehicle Route and Area Designation Guide and in regional training 
sessions. Proposed directives published in the Federal Register on 
March 9, 2007 also included proposed direction regarding travel 
analysis. We expect final directives to be published some time this 
year. Currently, some national forests are conducting travel analysis 
as a part of travel management planning.
    Question. Is there a standard policy that each forest must follow 
in order to make travel management decisions? How is the Forest Service 
ensuring that its policies are being applied consistently?
    Answer. Subpart B of the Travel Management Rule at 36 CFR 212 
provides direction on how to identify routes and areas open for motor 
vehicle use. The Rule identifies the requirement for public 
participation; coordination with Federal, State, county and other local 
governmental entities, and tribal governments; and criteria which must 
be considered when making designation decisions. The proposed 
directives include a process for completing travel management planning. 
The 2005 Motor Vehicle Route and Area Designation Guide provides a 
process framework that may be used. To enable consistent interpretation 
of the Rule and its implementation, regional training sessions were 
conducted.
    Question. Is there a formal process that each forest will use to 
decide whether to add or remove additional routes? Who participates in 
this process?
    Answer. The Travel Management Rule identifies criteria that must be 
considered when making decisions regarding which roads, trails, and 
areas to designate for motor vehicle use. The Rule requires that the 
public be given the opportunity to participate, and requires 
coordination with governmental entities and tribal governments.
    Question. Is there universal standard for public participation in 
the travel management decision-making process? What is that standard?
    Answer. The Travel Management Rule identified two specific 
requirements for public participation. First, that the public be 
allowed to participate in the designation process, and second, that 
advance notice be given to allow for public comment. Public 
notification, including publishing of the Motor Vehicle Use Map, is 
sufficient where motor vehicle use is already restricted to designated 
routes and areas.
    Question. How much funding has the agency spent to date on the 
travel management planning process? How much will the agency spend in 
fiscal year 2008 on this process? How much do you propose to spend in 
fiscal year 2009?
    Answer. Over the past 2 years the agency has spent an estimated 
$200,000 for national training on route designation, issuance of Forest 
Service manual and handbook direction, and implementation support. It 
is estimated that an additional $25 million per year over 4 years will 
be spent on the full range of travel planning activities, although 
these costs are not clearly distinguishable from other program 
management costs and vary widely from forest to forest depending on the 
local situation and issues. Funding provided for travel management 
planning is used to: (1) assemble and review existing motor vehicle 
travel management information; (2) inventory, analyze, and complete the 
requirements established by the National Environmental Policy Act for 
travel management decisions; and (3) publish Motor Vehicle Use Maps.
    Question. How many miles of motorized trails do you anticipate that 
the travel management process will add to the National Forest System 
trails system nationwide? How many miles will be specifically added in 
California?
    Answer. Decisions on which trails to designate for motor vehicle 
use are made by local responsible officials. Since most national 
forests have not yet made their designation decisions, we do not have 
an estimate as to how many miles may be added to the National Forest 
System of trails. The same would be true for California.
    Question. How many miles of motorized trails have already been 
added to the National Forest System to date by this process? How many 
of these are in California?
    Answer. Between fiscal year 2006 and 2008 it is estimated that the 
total miles of National Forest System (NFS) trail open to motor vehicle 
use increased by 1,400 miles. There are a number of factors which 
influence this figure. Changes to the miles of NFS trail open to motor 
vehicle use include both additions and subtractions, and may or may not 
be a result of route designation decisions. Many of the added miles 
represent the conversion of NFS roads to NFS trails. Currently no miles 
of trails open to motor vehicle use have been added for California 
during this same timeframe.
    Question. Do you have any estimates of what additional funding--
construction, maintenance, enforcement--will be required for additional 
routes that have been or will be designated? Please provide the 
Committee with these estimates, if applicable.
    Answer. Implementation of the travel management rule is a Forest 
Service priority and available funding within the agency's budget will 
be used to cover travel management decisions. Preliminary budget 
projections once route designations are completed are shown below. 
These projections do not include maintenance, decommissioning of 
routes, road route markers and signs, and law enforcement needs as they 
are not currently known at this time.
  --Route markers and junction signs for trails--$3-7 million (one time 
        cost)
  --Forest Service Educational and Patrol Personnel--$9-$16 million/
        year
  --Volunteer Program Management--$8 million/year
  --Bulletin Boards and Kiosks--$15 million (one time cost)
  --Signs at entrance to forest areas--$6 million (one time cost)
  --National educational efforts--$1.5 million (one time cost)
    Question. What role do budget resource considerations play a role 
in determining what routes may or may not be added?
    Answer. The Travel Management Rule requires the consideration of 
the availability of resources for needed road and trail maintenance and 
administration. That consideration is one amongst a variety of other 
considerations including effects to natural and cultural resources, 
public safety, provision for recreation opportunities, access needs, 
and conflicts among uses of National Forest System lands.
    Question. What kind of analysis is the Forest Service preparing to 
ensure adding additional trails is not damaging the watersheds, 
wildlife habitat or other natural resource values?
    Answer. The Travel Management Rule requires the consideration of 
various criteria for designation of trails. The responsible official is 
required to consider effects to natural resources including, potential 
damage to soil, watershed, vegetation, and other forest resources, and 
harassment of wildlife and significant disruption of wildlife habitats.
                      opm firefighter credentials
    Question. What is the purpose or goal of transitioning your upper 
level fire managers to the professional GS-0401 classification series?
    Answer. This effort began several years ago as a result of wildland 
fire incident reviews. The death of 14 wildland firefighters on Storm 
King Mountain in 1994 was a turning point. These studies highlighted 
the fact that we needed more stringent, uniform qualification standards 
for employees in certain fire management positions to assure 
firefighter safety. The fire organizations worked with the Office of 
Personnel Management (OPM) to establish an appropriate series. The 0401 
series is similar to other resource management professional series and 
stresses a positive education element that strengthens analytical 
skills and resource management fundamentals. These two elements are 
essential to both the safety of the workforce and Forest Service 
resource management mission.
    Question. Why did the educational requirements for upper-level 
firefighters change?
    Answer. The change was not the education requirements, rather it 
was the acceptable standard necessary for meeting the education 
requirement. This policy change was effective on February 15, 2005.
    Question. What was the agency's initial plan to meet these 
requirements? Did you work with OPM on this? Was a supplemental 
qualification standard for your fire managers developed and approved by 
OPM?
    Answer. The plan to meet OPM requirements is the Interagency Fire 
Program Management (IFPM). Yes, OPM was involved in this effort. Among 
the components of the IFPM Standard is the Office of Personnel 
Management-approved Supplemental Qualification Standard for GS-0401 
Fire Management Specialist positions which was originally issued in 
July of 2002.
    Question. What is the OPM policy change that excludes your in-house 
courses? When was it implemented? When and how did the agency first 
become aware of it? When were your field employees notified?
    Answer. The specific policy change that excluded our in-house 
coursework is the revision to Part E.4 (a) of the General Policies and 
Instructions, located in the Operating Manual for Qualification 
Standards for General Schedule Positions. This policy change was 
effective on February 15, 2005. The Forest Service became aware of the 
change in April, 2007 when an OPM representative, and numerous human 
resources personal attended an IFPM implementation meeting in order to 
discuss this change. Informal communication on this issue began almost 
immediately. A formal letter informing agency employees of this policy 
was signed and sent May 31, 2007.
    Question. Did you request a waiver from OPM to allow your in-house 
courses to continue to count toward meeting the positive education 
requirement? If so, how did OPM respond to your request?
    Answer. Yes, the Forest Service requested a waiver from OPM asking 
us to continue using our in-house courses (Technical Fire Management 
(TFM) and the National Wildlife Coordinating Group (NWCG) classes) 
toward meeting the positive education requirement. We received an OPM 
response that stated they could not approve our proposal because that 
course of action would not resolve the fundamental issue that all 
Federal employees must meet the educational requirements prescribed by 
the qualification standard for the series to which their positions are 
classified, as specified by Title 5, Code of Federal Regulation, par 
338, section 301. The OPM response stated the courses requested for 
waiver do not meet the requirement that all courses must receive credit 
from an institution with accreditation status from a body recognized by 
the Secretary of the Department of Education in order to be creditable 
when determining qualifications for Federal positions.
    Question. It is our understanding that the intent of the new OPM 
policy at issue here is to exclude credits bestowed by ``diploma 
mills'' from meeting positive education requirements needed to qualify 
for Federal employment. In your discussions with OPM, did OPM ever 
indicate that an analysis had been performed or criteria applied to 
determine that the exclusion of your in-house courses was consistent 
with this intent?
    Answer. No indication was provided. We defer to OPM regarding their 
analyses.
    Question. How many of your fire program managers have been or are 
scheduled to be converted to GS-0401 positions? How many have lost 
credits as a result of the OPM policy change? When will those who do 
not obtain the required academic credits be removed from their 
positions?
    Answer. From the time of the new policy in May, 2007 a total of 820 
employees from the 5 Federal agencies were identified for conversion 
within the IFPM GS-0401 management positions. We initially estimate 200 
Forest Service employees have lost credits. OPM has offered to extend 
the removal date to October, 2010 for employees who do not meet the 
requirements. The agencies have requested written confirmation of this 
offer, given verbally April 11, 2008.
    Question. What is the estimated financial cost to the agency 
associated with assisting incumbent employees in replacing their lost 
credits? What are the estimated human capital costs, i.e., effects on 
morale and retention?
    Answer. The estimated financial cost is $1,000 per credit, and an 
average of 5.5 credits required. The Forest Service has approximately 
200 employees in this situation requiring an investment of about 
$1,100,000. This is an estimate of the average travel costs which 
employees may incur. This does not include university fees or employee 
time. Initial indications showed that this change had moderately to 
seriously affected employee morale. Over time the situation has 
improved. There has been no known indication of employee retention 
problems related to the IFPM program.
    Question. How many accredited colleges or universities award a BS 
in wildland fire program management or an equivalent field of study?
    Answer. Very few institutions award a specific Bachelor of Science 
in Wildland Fire Management degree. A handful of institutions offer 
minors in fire management. The 0401 series requirements may be achieved 
through a number of different science programs which may or may not 
include courses in Wildland Fire Management such as fire weather, fire 
behavior, and fire ecology.
    Question. How many accredited colleges or universities provide 
courses equivalent to the National Wildfire Coordinating Group (NWCG) 
courses originally envisioned as counting toward the GS-0401 basic 
education requirement? How does the cost of these courses compare to 
the cost of providing identical training in-house?
    Answer. Currently somewhere between 20 and 25 colleges or 
universities provide these types of courses. The additional expenses 
range from 20 to 100 percent more expensive than in-house training.
    Question. Are there any other barriers faced by employees seeking 
to meet the GS-0401 education requirement of which we should be aware?
    Answer. No, with the 1 year extension provided by OPM employees 
have both the time and institutional support to meet these 
requirements.
                                 ______
                                 
                Question Submitted by Senator Judd Gregg
    Question. In fiscal year 2009, the President's budget includes only 
$12.5 million for the Forest Legacy Program. This is more than a 70 
percent cut in the program from the fiscal year 2008 enacted levels. In 
addition, there are only three projects recommended for funding 
nationwide. Yet, my understanding is that this year 45 States submitted 
a total of 87 projects, including New Hampshire. Again, your budget 
request seems to contradict the Forest Service's own research reports, 
``Forests on the Edge'' and ``Cooperating Across Boundaries.'' These 
reports highlight increased development and the loss of open space as 
significant threats to America's forests which provide substantial 
environmental and economic benefits to communities across the United 
States. When the Forest Legacy Program was reviewed by this 
administration, it received one of the highest scores for success 
agency-wide. Given the pressing need to prevent forest fragmentation, 
as your own agency well documents, and the fact that this program is 
clearly working well, can you please explain the dramatic drop in your 
funding request this year?
    Answer. The agency maintains high regard for the accomplishments of 
the Forest Legacy Program. We had to make very difficult choices in the 
fiscal year 2009 budget request and reduced or eliminated programs 
whose needs can be served using non-Forest Service funds. The 
administration's proposal for the 2008 Farm Bill explicitly includes 
forests, forestry, and NIPF landowners and provides new funding for the 
same key programs for which many cooperators receive funding from the 
Forest Service.

                          SUBCOMMITTEE RECESS

    Senator Allard. Okay. Thank you very much. I don't have any 
more questions and there are no other committee members here, 
so I declare the committee recessed.
    [Whereupon, at 11:45 a.m., Thursday, April 1, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
